<html>
<title> - H.R. 1054, AUTHORIZING PRESIDENTIAL VISION: MAKING PERMANENT THE EFFORTS OF THE FAITH-BASED AND COMMUNITY INITIATIVE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
   H.R. 1054, AUTHORIZING PRESIDENTIAL VISION: MAKING PERMANENT THE 
          EFFORTS OF THE FAITH-BASED AND COMMUNITY INITIATIVE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1054

    TO ESTABLISH THE OFFICE OF FAITH-BASED AND COMMUNITY INITIATIVES

                               __________

                             JUNE 21, 2005

                               __________

                           Serial No. 109-74

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                 U.S. GOVERNMENT PRINTING OFFICE

23-829                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                Brandon Lerch, Professional Staff Member
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 21, 2005....................................     1
Text of H.R. 1054................................................     6
Statement of:
    Carlson-Thies, Stanley, director of social policy studies, 
      Center for Public Justice; David Kuo, former deputy 
      director, White House Faith-Based and Community Initiative; 
      and Bobby Polito, former director, Center for Faith-Based 
      and Community Initiatives, Department of Health and Human 
      Services...................................................    62
        Carlson-Thies, Stanley...................................    62
        Kuo, David...............................................    79
        Polito, Bobby............................................    82
    Green, Hon. Mark, a Representative in Congress from the State 
      of Wisconsin; and Hon. Robert C. Scott, a Representative in 
      Congress from the State of Virginia........................    33
        Green, Hon. Mark.........................................    33
        Scott, Hon. Robert C.....................................    38
    Petersmeyer, Gregg, vice chairman, Board of Trustees, 
      America's Promise; Bob Woodson, president, National Center 
      for Neighborhood Enterprise; Dennis Griffith, director, 
      Teen Challenge in southern California; Rabbi David 
      Saperstein, director, Religious Action Center of Reform 
      Judaism; and Reverend C. Welton Gaddy, president, 
      Interfaith Alliance........................................   336
        Gaddy, Reverend C. Welton................................   392
        Griffith, Dennis.........................................   363
        Petersmeyer, Gregg.......................................   336
        Saperstein, Rabbi David..................................   379
        Woodson, Bob.............................................   349
Letters, statements, etc., submitted for the record by:
    Carlson-Thies, Stanley, director of social policy studies, 
      Center for Public Justice, prepared statement of...........    65
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    27
    Gaddy, Reverend C. Welton, president, Interfaith Alliance, 
      prepared statement of......................................   394
    Green, Hon. Mark, a Representative in Congress from the State 
      of Wisconsin, prepared statement of........................    36
    Griffith, Dennis, director, Teen Challenge in southern 
      California, prepared statement of..........................   366
    Owens, Hon. Major R., a Representative in Congress from the 
      State of New York, article dated May 3, 2005...............    18
    Petersmeyer, Gregg, vice chairman, Board of Trustees, 
      America's Promise:
        Information concerning public papers of the President....   422
        Prepared statement of....................................   339
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........   429
    Saperstein, Rabbi David, director, Religious Action Center of 
      Reform Judaism, prepared statement of......................   382
    Scott, Hon. Robert C., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    41
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Information concerning the Points of Light...............   414
        Snapshots of Compassion..................................    89
        Prepared statement of....................................     4
    Woodson, Bob, president, National Center for Neighborhood 
      Enterprise, prepared statement of..........................   353


 AUTHORIZING PRESIDENTIAL VISION: MAKING PERMANENT THE EFFORTS OF THE 
                  FAITH-BASED AND COMMUNITY INITIATIVE

                              ----------                              


                         TUESDAY, JUNE 21, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Gutknecht, Brown-Waite, 
Foxx, Cummings, Watson, Owens, Davis and Ruppersberger.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Brandon Lerch and Naomi Seiler, professional staff 
members; Michelle Gress, counsel; Malia Holst, clerk; Denise 
Wilson and Richard Butcher, minority professional staff 
members; Cecelia Morton, minority clerk; and Christopher Davis, 
minority professional staff member.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon and thank you all for coming. In particular, 
I welcome two distinguished colleagues on our first panel, 
Congressman Mark Green of Wisconsin and Congressman Bobby Scott 
of Virginia. Sometimes we talk to each other on other issues 
other than faith-based but the three of us have been engaging 
in this debate for some time and welcome you to this hearing 
today to talk about this legislation and in general, the 
subject.
    We have two additional panels of eminent witnesses 
representing hundreds of years of total experience in service 
to others. I have no doubt the collective compassion of our 
witnesses generates its own electricity.
    We have not held a hearing on the provision of community 
services since April 2004, but this is the subcommittee's 11th 
hearing on the topic. It is also our first legislative hearing.
    Congressman Green's proposal to make the White House Office 
of Faith-Based and Community Initiatives permanent, H.R. 1054, 
The Tools for Community Initiative Act, raises an important 
debate that policymakers have confronted for decades. Mr. 
Green's bill leads us to ask, how do we organize the executive 
branch to promote and extend efficient and effective care to 
Americans in their time of need.
    As for the White House, itself, it has been at least 15 
years since the West Wing dedicated office space to the cause 
of grassroots service. President Bush's Faith-Based and 
Community Initiative has now been in existence for nearly 4 
years. While providing for much political controversy, the 
Initiative has also fostered significant advances in the way 
government reaches Americans in their time of need.
    If the aim of the Federal Government is to efficiently 
execute Federal programs, then it follows that these programs 
should make great efforts to collaborate with and assist those 
who are already so engaged. Most fundamentally, this is the 
goal of the Faith-Based Community Initiative.
    The President's initiative began in 2001 by documenting 
discrimination by Federal grant programs against faith-based 
groups. Subsequently, President Bush issued Executive orders to 
ensure equal treatment of all grant applicants, regardless of 
their religious nature. Three additional Executive Orders No.'s 
13198, 13280 and 13342, established 11 offices in the White 
House and 10 executive branch agencies in order to realize the 
intent of the equal treatment orders. Their work has focused on 
cooperation of the Federal bureaucracy, the grant programs 
themselves and on communicating these efforts to service 
organizations throughout the country.
    H.R. 1054 seeks to make the White House Office of Faith-
Based and Community Initiative and its 10 agency offices 
permanent. Such a proposal, however, compels us to investigate 
the experience of previous White House Administrations and more 
simply, what other entities currently exist with similar 
missions. Moreover, the subcommittee will examine the successes 
and shortcomings of the President's faith-based and community 
initiatives to understand what these experiences may tell us 
about how far we have come and where we need to go.
    The efforts of past Presidents clearly illustrate the Bush 
administration's effort to represent a common sense addition to 
at least a decade and a half of Presidential vision and 
leadership. In 1989, President George H.W. Bush created the 
White House Points of Light Office. After 4 years of national 
leadership in support of grassroots service organizations, 
President Bush passed a four-pillared White House office to 
President Bill Clinton. From 1993 to 2001, Clinton consolidated 
this office and eventually added AmeriCorps, and sent forth 
volunteer citizens to grassroots service organizations his 
predecessor had sought to bolster.
    At the beginning of President George W. Bush's 
administration, establishing a new White House office appears 
like a reasonable next step. The White House Faith-Based and 
Community Initiative effort adds to previous efforts by trying 
to instill fairness in the Government grant system and ensure 
the rights of religious services groups.
    While this is a logical and necessary step, it has not been 
entirely successful. For instance, in the areas of food stamps 
issuance and providing drug treatment, groups intended to be 
treated equally have ironically been punished. More troubling 
perhaps is that many potential programmatic successes have been 
blunted because of little or no cooperation from State and 
local governments.
    As the subcommittee considers the merits of H.R. 1054, 
which has been assigned to this subcommittee, Members may 
consider additional changes to the law so that Americans in 
their time of need receive the greatest possible impact from 
the compassion of their neighbors.
    Already existing White House offices, the Faith-Based and 
Community Initiative, and State and local efforts are 
uncoordinated, creating confusion and frustration amongst 
America's grassroots services groups. Creating a comprehensive 
compassion strategy through executive branch reorganization may 
be necessary for the long-term accomplishment of reaching our 
fellow Americans in their time of need.
    I would ask if any other Members have opening statements? 
Congressman Owens, Congresswoman Watson.
    [The prepared statement of Hon. Mark E. Souder and the text 
of H.R. 1054 follow:]
[GRAPHIC] [TIFF OMITTED] 23829.439

[GRAPHIC] [TIFF OMITTED] 23829.440

[GRAPHIC] [TIFF OMITTED] 23829.429

[GRAPHIC] [TIFF OMITTED] 23829.430

[GRAPHIC] [TIFF OMITTED] 23829.431

[GRAPHIC] [TIFF OMITTED] 23829.432

[GRAPHIC] [TIFF OMITTED] 23829.433

[GRAPHIC] [TIFF OMITTED] 23829.434

[GRAPHIC] [TIFF OMITTED] 23829.435

[GRAPHIC] [TIFF OMITTED] 23829.436

[GRAPHIC] [TIFF OMITTED] 23829.437

[GRAPHIC] [TIFF OMITTED] 23829.438

    Mr. Owens. I want to commend the chairman for holding this 
hearing and I appreciate the effort that is moving forward to 
codify a program that has been in existence now for more than 4 
years which has attracted my attention because of the fact that 
I was formerly commissioner of a community development agency 
in New York which was responsible for the Community Action 
Program under the Economic Opportunity Act. The Economic 
Opportunity Act had at its center the community action programs 
which were designed to reach down into the communities and 
allow local community organizations to run programs for the 
benefit of the poor constituents.
    Large numbers of churches participated in that program. 
Large numbers of churches sponsored programs and did them very 
well. During the time I was commissioner, we had a program 
which had 26 community corporations which had big contracts 
with subcontracts under them to other agencies. The total 
number of agencies under the umbrella of my agency was about 
500 agencies providing programs all the way from recreation and 
after school care programs to economic development programs, 
programs related to housing development, a whole range of 
programs under the Economic Opportunity Act. That knowledge and 
whole set-up is part of history but I assure you it is not 
lost. It is there in the archives for everyone to see.
    I applaud the effort by the Bush administration to reach 
down to community groups; they have been starved for a long, 
long time. That program was discredited because it didn't have 
a proper power base, in my opinion, to keep it going, but it 
was a good program nevertheless. For small amounts of money, we 
got a return on programs run by local community groups, 
including church groups.
    Now we have the same thing which has returned in another 
form. My great fear here is whereas the Economic Opportunity 
Act and all the parts under it were codified, were authorized 
by Congress, had a clear set of criteria, clear procedures as 
to how you applied, and a fair doctrine in terms of the 
distribution of the funds. The distribution started with 
identification of the areas in the country that had the highest 
poverty rate.
    So a poverty area was clearly defined, the indices of 
poverty were clearly laid out and within that poverty area, 
choices were made by local advisory groups in connection with a 
designated community action agency. As I said, my agency was an 
agency for New York City. Each one of the 26 areas had a 
separate advisory body, a community corporation board that made 
the decisions for that local area.
    I am saying all this because I think if you are passing out 
taxpayers' money, there ought to be a clear criteria, ought to 
be a clear set of priorities and my great concern about the 
present initiative, and I know there are many other concerns 
about the fact that you are using religious groups and giving 
them the privilege of selecting their personnel and a number of 
other issues which I don't belittle, they are important issues.
    I am in favor of the program going forward and letting the 
Supreme Court decide the nature of those other issues because I 
think it is long over due that we had some kind of program that 
returned to offering some kind of resources to local 
communities. Those resources ought to be distributed in a fair 
and open manner. There ought not be the present situation where 
it is generally felt in my community and large numbers of 
churches want to know what can they do to become a part of it 
and want to know, do you have to be a Republican, do you have 
to be one of the favored few, do you have to be smiled upon by 
certain political operatives. It is not clear what the answers 
are because the way the money has been distributed up to now, 
there has been no criteria.
    The information about the program was rather scant for the 
first 3 years, I think. Lots of written information is 
available now, you can get information on the Web site now, but 
2 or 3 years ago, I couldn't get the same information. It was 
all passed around in sort of closed circles. Large amounts of 
money were distributed, $2 billion to $3 billion was 
distributed without codification of the kind this bill 
proposes. It raises many issues.
    There was an article in the New York Times that I think 
brings it home and with your permission, Mr. Chairman, I would 
like to enter this article in the record for all who would like 
to understand my concerns. This is an article that appeared in 
the New York Times on May 3, 2005 and talked about ``Hispanic 
Group Thrives on Faith and Federal Aid'' and focused on one 
particular group but described how the whole program works.
    At one point, this paragraph stuck out in my mind and I 
will close with this paragraph. It said, ``A few months before 
last November's election, Labor Secretary Elaine Chao took Mr. 
Cortes' advice, flying to Florida to give his organization $2.8 
million for a youth employment program. In 2003, when the group 
began a housing initiative, a kick-off event attracted Mel 
Martinez, who at that time was the Federal Housing Secretary, 
who is running for Senator in Florida, and a $300,000 contract 
followed to counsel homebuyers.
    ``The current issue of Nueva Esperanza's newsletter shows 
Senator Bill Frist, a Tennessee Republican and the Majority 
Leader, handing over a $500,000 check from his charitable 
foundation for the group's work on preventing AIDS.'' That last 
sentence relates to a charitable contribution, it was not 
taxpayers' money.
    The other sums that were mentioned were taxpayers' money. 
What criteria was used? How do you qualify? Do you compete with 
other people and why did it all come just before the election? 
These are the kinds of questions I think we ought to ask and 
answer.
    As we go forward to provide a program which I think is very 
much needed, let us clean it up and make certain it is a 
program where the taxpayers' funds are made available on equal 
footing for everyone and that they are targeted to priority 
areas where you have the greatest need.
    I ask unanimous consent to put this article into the 
record, New York Times, May 3, 2005.
    Mr. Souder. I have unanimous consent that we will include 
that.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.001
    
    [GRAPHIC] [TIFF OMITTED] 23829.002
    
    [GRAPHIC] [TIFF OMITTED] 23829.003
    
    [GRAPHIC] [TIFF OMITTED] 23829.004
    
    [GRAPHIC] [TIFF OMITTED] 23829.005
    
    [GRAPHIC] [TIFF OMITTED] 23829.006
    
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I want to thank you for holding 
this hearing. I want to say from the very outset, that I am the 
son of two preachers, my mother and father, so these comments 
are made with a full appreciation for church. I am also one 
who, as a lawyer and before coming to the Congress, represented 
a lot of churches.
    Today we begin the second hearing on faith-based program 
activity, specifically on H.R. 1054, legislation introduced by 
Representative Green to establish the Office of Faith-Based and 
Community Initiatives in the Executive Office of the President. 
The first hearing on H.R. 1054 was held last Tuesday, June 14 
before the Subcommittee on Federalism and the Census.
    H.R. 1054 would make permanent the Faith-Based Office 
within the White House and 10 agency offices. It would also 
express a sense of the Congress regarding the rules which 
should guide participation of faith-based organizations in 
Federal social service programs.
    Let me be very clear. I do not object to the Federal 
Government finding ways to strengthen ties to faith-based 
organizations. I get very upset when this discussion comes up 
and some folk try to make it appear that there are Members of 
Congress that actually have something against faith-based 
organizations doing public type work. Nothing could be further 
from the truth. I would imagine if you polled the Congress, 
probably 99 percent of us now support the work that faith-based 
organizations have done and support them as long as the 
taxpayer dollar is being spent effectively and efficiently, and 
that those dollars are not used to discriminate against folks.
    Faith-based, non-profit and community-based organizations 
have long been involved in addressing the needs of families, 
individuals and communities. Churches and other faith-based 
organizations in my congressional district continue to answer 
the call of those in distress, in need of a place to rest and a 
refuge away from drugs, addictions and other ills.
    To support such efforts, we should encourage the good works 
of good people to help those who cannot help themselves. While 
encouraging good works, we need to carefully scrutinize and 
review services provided by faith-based organizations. We need 
to know the extent of services provided; we need to know who is 
and who is not being served; and we need to know if the 
services work, again, going back to effectiveness and 
efficiency.
    Are they successful? The success of these programs remains 
an important issue to be determined. In September 2002, the 
Government Accountability Office released a report that I 
requested on charitable choice. The report found there is no 
data to support the opinion that faith-based organizations 
service providers perform as well as or better than others. It 
is 2005 and we still have no way to measure success of a faith-
based program.
    I also have serious concerns regarding the administration's 
approach to faith-based initiatives. In no uncertain terms, I 
object to the use of Federal funds to support religious 
discrimination. Religious discrimination in hiring for programs 
funded by the Federal Government is simply wrong.
    It is equally objectionable for religious organizations to 
take Federal money, my money, my constituents' tax dollars, and 
turn away people because they do not subscribe to a particular 
religion or faith. I object to the entities receiving Federal 
funds if they cannot separate their religious activities from 
their secular activities or services. I object to the use of 
Federal funds to proselytize. I object to relaxing State 
licensing and certification standards for substance abuse 
counselors.
    The poorest and least served deserve to receive the best 
treatment available in their time of need. They must not be 
used as guinea pigs by unlicensed professionals or subject to 
unproven methods. That is not to say that faith-based programs 
do not work. It is just that they should be to standards and we 
must be able to measure them.
    Finally, I would object to diverting scarce funding from 
established public and non-profit organizations. Just recently, 
there was a conference of ministers where as we debated and 
were concerned, Mr. Chairman, about No Child Left Behind not 
having enough money, there comes a minister who was in charge 
of an organization telling preachers how they can get No Child 
Left Behind money. He has a business apparently doing that. I 
have said it before and I will say it again, this diversion 
will only serve to undermine current programs and create a 
smokescreen by seeming to do more with less.
    I am also concerned that as we take dollars and give them 
to faith-based organizations, are we then taking $10 or more 
away for things that are done the way they have been done in 
the past, in other words, by traditional organizations.
    Taking away scarce Federal resources from current providers 
is a very real problem that can be devastating. This was 
recently highlighted in an article which appeared in the May 
17, 2005 edition of the Washington Post entitled, ``Two Fronts 
in the War on Poverty: Bush seeks more aid for church groups; 
others face uncertainty.'' The paper read as follows: ``Here in 
Baltimore,'' and by the way, in my district around the corner 
from my house, a city noted for its unpretentious charm but 
also its deep social problems, ``the Federal shift away from 
traditional community development programs has generated 
widespread uncertainty. While the anti-poverty groups are 
confronted with an uncertain future, church-based organizations 
that often provide similar services but often have less 
experience are flourishing.''
    Mr. Chairman, I wish to thank you again for holding this 
hearing. We need continued examination of the President's 
approach to faith-based initiatives and more specifically, 
whether we really need to establish a permanent Faith-Based 
Office within the Executive Office of the President.
    With that said, we need to determine what works and find 
ways to better assess the participation of faith-based 
organizations in Federal social service programs. The American 
people have entrusted us in good faith to be responsible 
stewards with their hard-earned tax dollars. This demands that 
federally supported social programs, whether faith-based or 
secular in their orientation, be effective and efficient in 
carrying out their mission.
    In the midst of that examination, let us also not forget 
our obligation to the principles of religious tolerance and 
non-discrimination. The struggle against discrimination and 
religious intolerance unfortunately remains with us. Even in 
this new century so rich with opportunity to right the wrongs 
of our past, we must ensure that H.R. 1054 is not a step in the 
wrong direction.
    I want to take a moment to thank Mr. Scott for addressing 
this issue so many times all over the country and just trying 
to make sure that all are clear as to what these faith-based 
initiatives really mean.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 23829.007

[GRAPHIC] [TIFF OMITTED] 23829.008

    Mr. Souder. Any other Member wishing to make an opening 
statement? Congresswoman Watson.
    Ms. Watson. I want to add my thanks to those of the others 
for the Chair bringing this most timely issue up for a 
committee hearing.
    I, like my colleagues, think that services in the community 
ought to be provided through those who provide them best and 
who show results. Believe me, in a district like mine, I have 
thousands of churches that do have programs, Head Start 
programs, after school programs, rehab programs, etc. I think 
they are entitled to Federal funds as well.
    Here is where I draw the line. I feel that unless we very 
clearly state in the provisions and the regulations state that 
any group receiving Federal funds through a faith-based and 
community initiative cannot discriminate as far as color, 
creed, religion or sexuality. I believe if we are using public 
dollars, those are dollars from taxpayers, that we have to make 
it very clear because why should not someone who does not 
believe in religion but has a tremendous need be restricted 
from going in to a program if it is funded by Federal dollars. 
These are issues we have to think about, reflect on and come up 
with a fair policy.
    I have another concern too. That is, I know that there is 
going to be proselytizing on the side. You walk into a facility 
and it is a Southern Baptist, so on and so forth, why would 
they not want to encourage the young people to take a serious 
look at their preachings? I am a Catholic. I am the 
granddaughter of someone who was in the convent for 13 years. 
Obviously, she came out. [Laughter.]
    They do an excellent job of educating children. My 
grandmother did that in the home. There is never a time there 
is not a relationship to their religious principles, dogmas and 
beliefs.
    So we have to analyze, we have to take an in-depth look at 
what we put into law, what policies we make when it comes to 
faith-based funding for those programs out there that are so 
direly needed.
    I am very appreciative, Mr. Chair, that we have this 
opportunity to hear from our presenters, to raise the questions 
and to discuss this program.
    Thank you, so much.
    Mr. Souder. Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.
    I apologize, I was not going to say anything but I want to 
attach myself to remarks that were just made at least in part 
because the point was made that really needs to be reminded 
here and that is, this is not so much a debate about how much 
is going to be spent; it is a debate about who gets to do the 
spending and who can do it the most efficiently.
    I think we can have this discussion about discrimination, 
what level of discrimination is acceptable but I think we also 
have to understand there is going to be a certain level of 
discrimination. We discriminate every day and I don't think we 
should force organizations, let me say in my case, I don't 
think we should force Catholic schools to hire people who are 
anti-Catholic. At some point there is some level of common 
sense that we have to use and that could be true of any 
organization.
    I also want to share a quick story that I heard from John 
Fund who is an editorial writer for the Wall Street Journal. He 
used this analogy in front of an audience once and I have 
stolen this, and I try to give him credit for it.
    He asked people to visualize that you go home from this 
meeting today and you open your mail and there is a letter 
there from an attorney's office from a long way away. You open 
up that letter and realize you have been named an heir to an 
enormous fortune, that you didn't even know existed.
    All of a sudden you are wealthy beyond your wildest dreams 
and you think about that and think, I would like to do 
something to help people less well off than I, I would like to 
do something to help my fellow human beings. You think about 
that because this is a windfall and you would like to donate a 
significant portion of this. You think about that for a while 
and then he asked the audience, how many of you, the first 
thing you thought was, I know, I will give the money to a 
Federal program and you can almost hear snickers in the 
audience because we all know that if you really want to help 
people who are down and out, probably the least efficient thing 
you can do is run it through a Federal bureaucracy.
    So the idea here, is there a way that we can use some of 
those institutions that are in the neighborhoods, that are in 
the communities, that are doing good things every day and they 
are doing it with very little overhead. They are doing it not 
because it is a job, but because it is a mission.
    I don't know whether this can succeed. To be really blunt, 
I am not sure you can co-mingle Federal programs and the 
charitable instincts that most Americans have, but I think it 
is worth a try. I hope we don't all find our own little petty 
reasons to make certain that it doesn't succeed. Whether we 
know it or not, there are literally millions of Americans out 
there in all kinds of cities, towns and communities all around 
who are counting on these kinds of programs, and counting on 
religious leaders to help change their lives and change their 
futures.
    This is a great experiment. We are going to find out if it 
can work.
    Mr. Souder. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I will be brief and associate myself with some of the 
remarks already made by other members of the subcommittee.
    Let me commend and congratulate both you and Mr. Cummings 
for the tremendous work that this subcommittee does. I know you 
have been all over the country holding hearings. I don't know 
any other subcommittee that has as much work activity as I have 
seen generated in this one. I simply want to appreciate the 
leadership that both of you have displayed as we wrestle with 
some of the toughest issues, questions and problems facing our 
country.
    I come from a strong faith tradition like many other 
Members of the Congress. As a matter of fact, the church in my 
community is the primary provider of services, Catholic 
Charities, Catholic hospitals, Lutheran Family Services, 
Baptist College, Methodists for Church Renewal. You could go on 
and on and on. That has been tradition in many communities 
throughout the country.
    It is somewhat difficult to see what it is we are talking 
about changing. Most of those institutions apply for a not-for-
profit chart, get themselves a 501(c)(3) tax exemption and they 
go ahead and run programs. There are some who argue about the 
provision of services and whether or not certain activities 
ought to be licensed or codified and even though I am a 
psychologist, I can attest to the fact that I have seen faith 
activities that I thought were more successful in helping 
people rid themselves of substance abuse or alcoholism, so I 
have no problem whatsoever with the methodology, with the 
concept or the structure.
    I do believe that we are walking on shaky ground when we 
create opportunities and encourage institutions that are 
supposed to be the best in our land to discriminate against 
other people because they may not be the same in terms of their 
affirmation of faith. As a matter of fact, I recall one of the 
hearings suggesting if there was an institution that had some 
services to provide, that I could not work at because I did not 
profess that same kind of religious faith, then I don't want 
the service either.
    I would rather that it go somewhere else. In the street, we 
call that help the bear. If I can't work there and I have all 
the credential, I meet all the requirements other than the fact 
that I don't express the same faith, to be denied that 
opportunity, then I would just as soon be denied the service.
    I hope as we move this discussion and as we codify our 
institutionalize the concept of faith-based realities, that we 
not create a structure that encourages what should be the best 
institutions amongst us to become the worst institutions 
amongst us.
    I thank the witnesses for coming to testify and certainly 
for the work they have done on this initiative. I applaud 
Representative Scott who has been passionate relative to the 
position that I hold.
    I thank you, Mr. Chairman, and yield back the balance of my 
time.
    Mr. Souder. Congresswoman Brown-Waite.
    Ms. Brown-Waite. Thank you, Mr. Chairman.
    I want to express my appreciation for your holding this 
hearing to bring our attention to the current state of and some 
of the obstacles before the President's Faith-Based Initiative.
    As you know, our country has a long tradition of assisting 
individuals, families and communities that have not fully 
shared in America's prosperity. I am very proud of this 
heritage as are so many Members of Congress and feel the burden 
of carrying on the noble tradition.
    However, the Federal Government has the ability to better 
utilize its country's resources through hundreds of faith-based 
and community organizations to deliver effective care and 
assistance to those in dire need. In the past, the Federal 
Government has too often ignored or impeded the efforts of 
faith-based and community organizations through bureaucratic 
red tape and superficial obstacles, the Federal Government has 
hindered the delivery of services very often to communities in 
need. I applaud the efforts of the White House Office and the 
Centers for Faith-Based Initiatives that are working to support 
these essential organizations.
    Let me tell you about a faith-based organization back home 
in my district. It is known as Jericho Road Ministries. I have 
been there, I have talked with the individuals who are served 
by this wonderful organization. It is a rescue mission designed 
to provide up to 3 nights monthly, emergency shelter to 
homeless men and women in central Florida. Jericho Ministries 
also provides a 36-week rehabilitation program designed to help 
men reclaim their lives from the despair of homelessness and/or 
drug or alcohol addiction. This single organization has 
succeeded where government previously has failed by reforming 
drug addicts and transforming them into productive citizens.
    Let me tell you a brief story about a young man I met 
there. His name is Keith. Keith came to Jericho Road Ministries 
as a drug abuser without a job or a home, and certainly without 
hope. Today, after completing their rehabilitation program, he 
has worked his way up in just 3 short years to be the area 
manager of a major retail store. Guess what? On his days off, 
he comes back to Jericho Road Ministries and actually helps to 
counsel and inspire men seeking to reclaim their lives.
    I represent this wonderful organization and could tell you 
about so many others in the community that the community 
supports. I agree with Mr. Gutknecht, when you think about 
helping an organization that is worthwhile in your area, you 
don't say, I am going to strike a check to the Federal or State 
Government but rather to one of those organizations out there 
that you know and trust, and that has proven itself in the 
community.
    I certainly look forward to hearing the testimony of the 
distinguished panelists today so that we can join in our 
efforts in helping to continue the process of the faith-based 
and community organizations.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Souder. I thank everybody for their statements. It is 
good to know we all agree.
    First, I want to ask unanimous consent that all Members 
have 5 legislative days to submit written statements and 
questions for the hearing record and that any answers to 
written questions provided by the witnesses will also be 
included in the record. Without objection, so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members such as Mr. Owens 
did earlier may be included in the hearing record and that all 
Members be permitted to revise and extend their remarks. 
Without objection, so ordered.
    Before we hear the first panel, I would like to ask 
unanimous consent that we also have some additional materials 
to insert that staff has prepared.
    Our first panel consists of the Honorable Mark Green, a 
Member of the Congress from Wisconsin and the Honorable Robert 
Scott, a Member of Congress from Virginia.
    It is our standard practice to ask witnesses to testify 
under oath. However, because Members of Congress have already 
taken an oath upon entering the House of Representatives, it is 
not necessary to repeat that here.
    First, we would like to welcome Congressman Green. Thank 
you for joining us. You are recognized for 5 minutes to talk 
about the general subject of faith-based and also your 
particular bill that you have introduced.

  STATEMENTS OF HON. MARK GREEN, A REPRESENTATIVE IN CONGRESS 
   FROM THE STATE OF WISCONSIN; AND HON. ROBERT C. SCOTT, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA

                  STATEMENT OF HON. MARK GREEN

    Mr. Green. Thank you for the opportunity to testify here 
today.
    The opening statements have all been very eloquent and I 
think in many ways laid out the issues that all of us must 
explore.
    I would like to talk briefly about the implementation of 
the Faith-Based Initiative and our plans to make its principles 
permanent. When President Bush issued his Executive orders to 
establish the Office of Faith-Based and Community Initiatives, 
he said ``Faith-based and other community organizations are 
indispensable in meeting the needs of poor Americans and 
distressed neighborhoods. Government cannot be replaced by such 
organizations, but it can and should welcome them as 
partners.'' I agree and I believe most Americans do as well.
    This community-governmental-organizational partnership is a 
critical part of helping our communities find tools to deal 
with the problems that society faces. While in some ways this 
partnership has not developed as quickly as it could or should, 
great progress has been made on a number of fronts. In order to 
build on this success, we need to continue reaching out to 
community groups trying to help our citizens who need it the 
most.
    Throughout history, faith-based organizations have shown 
that they understand the problems their communities are facing. 
After all, of course, they have relationships with the people 
they serve. They view those in need not as clients, but as 
neighbors. There are programs like Rawhide Boys Ranch in 
Waupaca County, WI, an organization that helps troubled boys 
straighten out their lives or Holy Redeemer in Milwaukee, WI, a 
church that helps feed the hungry and find shelter for the 
homeless. These are organizations that reach out to those in 
need, not in order to further a religious ideology but because 
their mission, quite simply, is to help their neighbors.
    Unfortunately, faith-based groups have been unnecessarily 
restricted from serving the public as well as they could 
because of the beliefs that they hold. I say unnecessarily 
because as long as these organizations open their doors to 
everyone and do not require participation in their religious 
operations, they can and should be allowed to participate in 
Federal grant programs. Instead of closing doors to these 
groups, we should open them wider so that more people have 
additional opportunities to receive services and improve their 
lives.
    We must honor and follow the first amendment to the 
Constitution when it says, ``Government shall not establish a 
religion,'' but that same amendment also requires us to honor 
``religious liberty'' and that means allowing these groups to 
both practice their faith and serve their fellow Americans.
    The Bush administration has tried to accomplish this 
through its Executive orders creating the White House Office of 
Faith-Based and Community Initiatives. The office and its 
liaisons and various agencies have the tools and relationships 
to break down barriers that hold these groups back 
unnecessarily. While more needs to be done, this Initiative has 
already helped people fight addiction, stop youth violence, 
find a home, stay out of prison and manage diseases like AIDS.
    Another way the administration has helped is by creating 
the Compassionate Capital Fund. Since its launch 3 years ago, 
it has provided $99.5 million in grants to 197 organizations 
and sub-grants to over 1,700 grassroots organizations; provided 
nearly $100 million for the Access to Recovery Program; 
provided new grant money to increase mentors for children of 
prisoners by 33,000 people. Overall, the office has increased 
grants to faith-based organizations by 20 percent.
    This is excellent work that we must continue to buildupon. 
Most importantly, we need to ensure stability within the 
program from one administration to the next. Furthermore, we 
must make sure that our offices are coordinating with their 
State liaisons to ensure that every State understands the 
opportunities that are available to them.
    Incidentally, many States are beginning to recognize the 
value of State faith-based offices. Michigan Governor Jennifer 
Granholm, a Democrat, created a State Office of Community and 
Faith-Based Initiatives recently that will enlist religious 
organizations to recruit mentors for foster children, provide 
lower cost prescription drugs and fight substance abuse.
    Unfortunately, many States haven't followed Michigan's 
example. Just over 25 States have created offices or 
established State liaisons to work with the White House Office 
of Faith-Based Initiatives. With increasing needs and budget 
concerns, States need these partnerships to help them maximize 
our communities to meet community needs.
    There is little doubt that some groups will continue to 
attack faith-based partnerships and fight any Government 
partnership with any group that has religious connections. 
Governor Granholm responded to such criticism when she said, 
``This is not about a particular faith; this is about serving 
the citizens in the most effective way.'' Well said. This 
initiative is about serving people in the most effective way.
    We must embrace the work these organizations can do and 
work with them and the States to help meet our community and 
social challenges. With this initiative, we are finding mentors 
of kids in need, homes for the homeless, help for those with 
AIDS and alternatives to gains. No one should stand in the way 
of organizations that are responsibly trying to help these kids 
just because they happen to be faith-based.
    I am currently developing legislation that guarantees the 
Faith-Based Initiative will continue in the years ahead and 
that every organization that wants to help is able to. I 
believe we must show that government is committed to helping 
our citizens by making the Faith-Based Initiative a statutory 
feature to ensure equal treatment for all. This long term 
commitment provides critical stability to community groups and 
lets them know this is not just a passing government enterprise 
that will abruptly end with a new President.
    It also shows in statute what they can do consistent with 
the law and what they cannot do. There is more that the leaders 
of the Faith-Based Initiative have to do to better help those 
in need but they have done some great work to date. It is my 
hope this legislation will begin a larger debate about what new 
steps should be taken to help facilitate and foster the efforts 
of the Government and our Nation's benevolent service 
organizations.
    Again, I appreciate your holding this hearing and for your 
time and consideration.
    [The prepared statement of Hon. Mark Green follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.009
    
    [GRAPHIC] [TIFF OMITTED] 23829.010
    
    Mr. Souder. Mr. Scott.

               STATEMENT OF HON. ROBERT C. SCOTT

    Mr. Scott. Thank you for allowing me to testify today.
    I believe strongly that religious organizations can, they 
do and they should play an important and positive role in 
meeting our Nation's social welfare needs. It has already been 
pointed out that many faith-based organizations participate in 
Government contracts. The Catholic Charities gets about $1 
billion a year and has way before any faith-based initiative, 
so we are not talking about allowing faith-based organizations 
to participate; they already do.
    There is a right and wrong way for Government to partner 
with religious organizations. So before we pass any legislation 
making permanent a faith-based and community initiative, we 
must ask and receive clear answers to the question of how does 
this initiative change present law.
    It is one thing to just recite the good parts of the 
present law, but we should not camouflage what the changes are. 
And we are not fighting faith-based participation; we are 
talking about the changes that are being proposed.
    To begin with, there are four issues we have to directly 
address and we need some straight answers to. First, does this 
initiative allow Government to directly fund a house of 
worship? Two, does the initiative permit a program using 
Federal funds to proselytize during the Government-funded 
program? Three, does the initiative change the law to permit 
discrimination in employment with Federal funds? Four, does the 
initiative change present law to permit the Government to award 
funds in a manner that displays favoritism to one particular 
religion over another religion or secular organization 
objectively more qualified to do the job? Until we get answers 
to those questions, we shouldn't be making anything permanent.
    Let me go into those in more detail. First, the direct 
funding of a house of worship. Directly funding religious 
organizations is a Constitutional quagmire. My full remarks go 
into that in detail. But also, not only from a Constitutional 
point of view but a policy perspective, it has problems because 
direct funding indicates we might be regulating the churches, 
we might be subjecting the churches to Government scrutiny and 
audits, and we may undermine the vitality of churches and the 
community members who may be less inclined to dig a little 
deeper to pay for the services. Finally, it threatens 
interfaith peace by pitting one group against another. What 
happens when one faith beats out another on a 4-3 vote? Just 
how ugly is the next political campaign going to look?
    Second, on proselytization, I think there is a clear 
consensus that you should not proselytize during the 
Government-funded program whether that proselytization is paid 
for or not with Government funds. We ought to make it clear 
that you can get the full benefit of the Government program 
without being proselytized and we should make that clear.
    On employment discrimination, we have to be clear as to how 
the faith-based initiative changes present law. Since 1941, we 
have had a policy of no discrimination with Federal money. That 
was made clear 40 years ago in the 1960's, no discrimination 
with Federal money. We have to also be clear that when you talk 
about religious discrimination, if you get a pass on religious 
discrimination, racial discrimination is essentially 
unenforceable.
    Finally, we are suggesting a profound change in civil 
rights law. For the last 40 years, when an employer has a 
problem hiring the best person because of race or religion, the 
employer had a problem because the weight of the Federal 
Government is on the side of the victim of discrimination 
trying to get a job. Here we have a change in Government 
posture where they are now protecting not the victim of 
discrimination but trying to protect some right to 
discriminate.
    We prohibit discrimination in employment because we have 
found that it is morally reprehensible to have someone apply 
for a job and be turned down just because of race or religion. 
If we allow discrimination in Federal contracts, we certainly 
lose our moral authority to impose racial and religious 
discrimination laws on individuals.
    I take this personally because anybody my age who has been 
discriminated against, not being able to eat at the lunch 
counter, not being able to go to certain movies, getting stuck 
in the back of the bus, so when somebody suggests what is the 
problem with Catholics hiring Catholics or Whites hiring Whites 
or anything like that, I take it personally.
    If someone is going to change the law and allow this 
discrimination, I just want to let them know that we are not 
going to be silent as they try to change those laws.
    On the issue of favoritism and objective merit, right now 
faith-based organizations have the right to apply and compete. 
Does this or does it not allow favoritism for one religion over 
another? If you have another religious group and a secular 
group with objectively more qualified proposals, can you give 
favoritism to another organization or not?
    Finally, let me say a quick word about vouchers. Many of 
the Constitutional issues that apply to direct funding do not 
apply to vouchers but you do have governance problems, one of 
which is it is virtually impossible to guarantee the 
availability of services where people with vouchers are coming 
and going and quality control is virtually impossible to apply.
    Whatever the problems churches may have in getting Federal 
grants, all small organizations have so there may be some 
common ground on providing technical assistance, community 
action agencies or other ways to provide assistance to small 
groups trying to get Federal contracts, but they should not be 
able to discriminate as they do it.
    We are not talking about expanding the number of people 
that can get contracts. Any organization that can sponsor a 
program under this faith-based initiative could do it anyway if 
it agreed not to discriminate in employment.
    Again, I want to focus the attention on the four questions 
I asked: can you directly fund a church; can you proselytize 
during a program; what is the deal on discrimination; and 
favoritism. And how does this change present law because right 
now, faith-based organizations can and do apply for Federal 
grants and sponsor Federal programs and they do it like 
everyone else--they use the money for which it was appropriated 
and don't discriminate in employment.
    [The prepared statement of Hon. Robert C. Scott follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.011
    
    [GRAPHIC] [TIFF OMITTED] 23829.012
    
    [GRAPHIC] [TIFF OMITTED] 23829.013
    
    [GRAPHIC] [TIFF OMITTED] 23829.014
    
    [GRAPHIC] [TIFF OMITTED] 23829.015
    
    [GRAPHIC] [TIFF OMITTED] 23829.016
    
    [GRAPHIC] [TIFF OMITTED] 23829.017
    
    Mr. Souder. Thank you for your testimony.
    If we can agree to disagree on some of fundamental 
characterizations, I believe that your statement proposes to 
discriminate against those who would practice a consistent 
faith and whether they should be eligible for Government grants 
may be another question. We will debate that. I believe for you 
to say a church must hire somebody who disagrees with that 
church in effect says a church that applies a consistent 
philosophy through their organization is not eligible, is not 
welcome to participate in antipoverty programs.
    I understand that position; we have argued that many times 
on the House floor, many times in the Education Committee, you 
guys argue in the Judiciary Committee, but I wanted to focus 
very particularly on the legislation today and first ask Mr. 
Green a technical question.
    It looks to me like in the Sense of Congress Section, 
Section 7, you would address some of the questions that Mr. 
Scott raised, but fundamentally your bill tries to put this in 
as a directorate. It would have to be debated as we went 
through the legislative process. Is that correct?
    Mr. Green. You are correct. In the opening remarks of my 
esteemed colleague and some of the opening statement, 
references were made to profound changes in current law. That 
is not what we are doing here. We have the advantage of having 
had the Executive orders in place now for several years as the 
gentleman mentioned, and we have a history or track record. My 
goal with this legislation is largely to make sure it does not 
expire.
    A lot of these organizations that are hoping to be able to 
utilize Federal funds to help lift lives and heal communities 
are now looking at the possibility that it may all go away in 3 
to 3\1/2\ years' time. I hope to provide some stability and 
predictability.
    Second, the other important reason for putting this into 
statute and codifying it is to create clear guidelines on what 
they cannot do, which I think is as important as anything. A 
number of Members have rightly raised concerns. I think the 
best way to address those concerns is to spell them out, as has 
been done in the Executive order but now give it the force of 
statute so it is there for everyone to see what an organization 
can do and more importantly, what it cannot and should not do.
    Mr. Souder. In your opinion, in the Sense of Congress 
Section of this bill, Section 7, does this freeze the Executive 
orders or would a new President be able to issue other 
Executive orders within this framework?
    Mr. Green. I don't know the answer to that, Mr. Chairman.
    Mr. Souder. Because in many of these, we deal with it bill 
by bill. For example, it may come up in the Head Start bill, it 
is part of welfare reform and the question is whether that will 
be continued. I think one of the fundamental questions we need 
to work through in your bill, because I see the arguments for 
both from our perspective codifying in the law more generally 
and on the other hand, would this apply to programs we have 
never legislated on? How do we work through the actual 
implementation?
    I wanted to ask this of Mr. Scott. Ironically, one of the 
problems we have right now is it is fine to say we can't move 
this bill until we get some answers from the administration. 
The administration refuses to testify. The reason they refuse 
to testify is because they say right now the office is under 
the White House directly, therefore, it is pre-decisional 
information. They are not subject to the Congress, that we can 
bring people forward from the different agencies but the 
different agencies with pressures from OMB and from the White 
House directly in many cases don't actually control the 
programs.
    I find myself in a very ironic position. Personal friends 
with people who are administering the program, supportive of a 
particular program, but basically I have a Constitutional 
question right now. If programs are going to be directed 
directly out of the White House and by OMB, should there not be 
congressional oversight even if I happen to agree with them? 
Certainly I believe there should be congressional oversight 
should the White House change parties and then we are doing 
oversight but I am trying to be consistent enough to say I 
believe it ought to happen regardless of who is in charge, even 
if I like what is going on.
    Do you have a fundamental opposition to what Mr. Green is 
trying to do by codifying this so we can actually get 
oversight?
    Mr. Scott. You have asked a lot of different questions. One 
is how you get the prohibition against discrimination, where 
that came from, particularly in light of the exemption under 
Title 7. The prohibition against discrimination has been kind 
of a compilation of things but the most direct prohibition 
against discrimination has been in President Johnson's 1965 
Executive order which expanded Executive orders going back 
since 1941.
    Mr. Souder. Can I clarify what my comment was? In 
Congressman Green's bill in Title 7 under ``Sense of 
Congress,'' things related to discrimination. The question is, 
this bill could theoretically be done two different ways. It 
could have the first six sections which look to me like they 
are mostly making the office permanent and then Section 7 which 
may or may not since it is the sense of Congress, have the 
effect of codifying the Executive orders. If we did that, you 
would have a problem with the bill?
    Mr. Scott. Yes, I would have a real problem because it 
depends on which Executive order you codify. If you codify 
Johnson's Executive order, then that would be fine. President 
Bush, as you indicated, signed another Executive order which 
allowed discrimination. Some bills have specific prohibitions 
against discrimination. You mentioned Head Start and some 
others which have specific prohibitions against discrimination. 
You can't change statute with an Executive order. So if you 
allow discrimination in all programs, by statute, then you are 
right. You could not change that by Executive order.
    It is interesting you mentioned it was under the White 
House and not under anybody's authority. It asks the question: 
why are these programs in the White House and not in the 
various agencies if you are funding certain programs? The 
agencies fund programs the old-fashioned way. You fund the best 
program by objective standards. If that is not what you are 
doing, what are you doing? Is it religious discrimination, is 
it favoritism, is it politics or what? Why is this thing run 
out of the White House? If it is a health program, why isn't it 
run out of Health? If it is a housing program, why isn't it run 
out of Housing? Those are the real questions.
    In response to another question you asked, why should 
someone of one religion have to work with somebody of another 
religion, whatever you think about it, I thought we had decided 
that in the 1960's where whether you like to or not, whether 
you are devoutly religious or not, even with your own private 
money, we have decided that religious discrimination was so 
odious that we decided it ought to be illegal. In the 1960's, 
we had the votes.
    There is obviously a reconsideration of whether or not 
people ought to have to work with people of different religions 
and we are revisiting the question.
    Mr. Souder. I was trying to avoid the argument but as you 
know full well, we have a difference of opinion on the 
interpretation of the 1964 Civil Rights Act as it relates to 
religious discrimination, the courts have not been consistent 
in how they have interpreted this and that is why we have had 
to do all sorts of things.
    Mr. Scott. The courts have been consistent.
    Mr. Souder. Oh, no. They have said that Catholic schools 
can get money for buses; they said Catholic schools can get 
money for computers even if they hire only Catholics. As you 
correctly pointed out in the vouchers, in the vouchers it is 
even more confusing. There it is more of a management question, 
they allow the vouchers but even in some direct funding, they 
allow discrimination to occur.
    Mr. Scott. You mentioned discrimination. Title 7 gives them 
the right to discriminate. The Free Exercise Clause gives them 
the right to discriminate. When you are dealing with Federal 
money and the right to discriminate, President Johnson's 
Executive order has been the law of the land since 1965. If you 
are selling rifles to the Defense Department, if you 
discriminate in your manufacturing process, whether or not they 
are the best and cheapest rifles, the Defense Department won't 
buy them from you.
    Mr. Souder. I am sure we will hear more and we will 
continue to argue that question.
    Let me clarify because I don't agree with your 
interpretation. We have argued this on the floor and will 
continue to argue but the way I understood what you said was in 
effect, even if it wasn't codified in this bill, even if our 
view was not put in, you would have a philosophical problem 
with a codified White House, Office of Faith-Based Initiative 
because you think it ought to be run inside each agency as a 
health program and so on?
    Mr. Scott. I think you ought to answer some questions so 
everybody knows what is going on. I have asked four questions 
and you can't get an answer to those questions.
    Mr. Souder. Because it isn't codified?
    Mr. Scott. I don't know why you can't get an answer. We 
have been struggling and it took us about 3 years to get an 
answer to the question, can you discriminate and you got all 
kinds of confusing, contradictory, evasive kinds of answers and 
finally after we had some rifle shot amendments that said no, 
you can't discriminate, then people had to kind of acknowledge 
I guess that is what is going on. You finally got an answer to 
that question but are there favorites? Can you practice 
favoritism of one religion over another? If not, what are we 
talking about?
    Mr. Souder. Whether this committee moves ahead with the 
bill or not and this is a challenge because we are having this 
with ONDCP too because in our ONDCP reauthorization, we had 
some similar debates because technically the Drug Czar is under 
the Office of the White House but it has been a codified 
office, so they have to respond. Can this bill be drafted where 
we could either put in certain things or can the bill be 
drafted such that there is an office that as a practical 
matter, yes, the Health, Education, Housing, all the different 
departments have an office of Faith-Based and the funding runs 
through that.
    Everybody knows under every modern President, it doesn't 
matter whether it is a Democrat or Republican, that OMB is 
making a lot of the day-to-day decision type of input or you 
can lose your position, which is hard enough to oversee but we 
also know that in every White House, you have advisors to the 
President. The question is how much do those advisors to the 
President work as advisors to the President versus management, 
kind of line function? Is it a dotted line or a direct line 
that goes over to the different agencies?
    To the degree that this office works as a more filled in 
direct line as opposed to a dotted line, it ought to have more 
congressional oversight. The question is, should we be moving a 
bill that tries to move it in that direction regardless of how 
the wording is?
    Mr. Green and then I will yield.
    Mr. Green. Mr. Chairman, with this legislation, we simply 
took what we thought was the path of least resistance in terms 
of drafting it. We are open to changes. There is nothing magic 
about the terminology, the actual language. The goal here is to 
ensure the Faith-Based Initiative, forget the office, I view it 
as something separate, the Faith-Based Initiative continues on.
    I recognize that Presidents are going to always want to 
implement and put things into practice in their own way in 
terms of where they put the offices and such. What we wish to 
codify are the principles of the Faith-Based Initiative. That, 
to me, is more important than the office and where that office 
is located, whether it is in the White House or in individual 
agencies. It is principles we hope to codify and certainly we 
are open to changes in this legislation and modifications.
    Mr. Scott. Let me say briefly that is what we are trying to 
figure out, what principles we are trying to codify, the four 
questions, and we ought to talk about how this changes present 
law. Reciting the good parts of present law, that is nice but 
how will this bill change present law by instituting some 
policy, and then can you directly fund a church, can you 
proselytize during the program, can you discriminate and are we 
talking about favoritism? Get a straight answer to those 
questions, then we will know what we are talking about.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. I want to start with the last question Mr. 
Scott asked, the question of favoritism. Mr. Green, do you 
think faith-based organizations have been discriminated against 
in the past? Mr. Scott says these organizations like Catholic 
Charities and some others have gotten all kinds of money. I am 
trying to figure out whether it is your belief that the system 
that has been used, however Catholic Charities and others get 
their moneys, is there something wrong with that system?
    Mr. Green. First off, I guess I would disagree with the 
characterization that these organizations are getting money. 
Under the Faith-Based Initiative, there are pretty strict 
standards and accountability for how that money is spent. This 
is money that doesn't belong to an organization, nor does it 
belong to a Federal agency. This is money obviously that 
belongs to those in need, those who are being served.
    Second, I think the problem has been not so much with the 
Catholic Charities and Lutheran Social Services of the world, 
those are large organizations, they have substantial staff to 
help them wade through the myriad of regulations and paperwork, 
bureaucracy and red tape that any organization has to go 
through.
    The real target for the Faith-Based Initiative has been 
those smaller organizations that don't have those kinds of 
resources or the same ability to wade through the regulations 
and barriers. That is what we are hoping the Faith-Based 
Initiative will help, that we will cause small community and 
faith-based organizations around the country to take a look at 
what is being done, what Catholic Charities may be doing, a 
Rawhide or an Urban Help and say to themselves, that need 
exists in my community and we can do that. We don't know how 
to, where can we turn to for help and guidance? Who can assist 
us through this process? Who can help us out?
    That is the idea to me behind the Faith-Based Initiative, 
creating a resource that these organizations can go to. Just as 
importantly as helping them affirmatively be able to serve 
those in need, it is absolutely as important to let them know 
what it is they cannot do, what those rules and restrictions 
are so they don't cross the lines that many have raised and 
should be raised. That is part of what the Faith-Based 
Initiative will do as well, show them what they cannot do.
    Mr. Cummings. So one aspect of it would be more or less 
counseling, is that what you are saying?
    Mr. Green. Counseling, predictability, something that is 
there for them to be able to take a look so they understand.
    Mr. Cummings. I didn't mean to imply in any way they were 
getting money for themselves. I know the money is being used to 
carry out wonderful purposes. On one hand, there are those who 
really want to see these organizations do their thing and do 
these wonderful things but at the same time, can you understand 
the sensitivity with regard to discrimination.
    I forget how Mr. Scott said it but there are many people, 
and our country is becoming more and more diverse every second, 
who have been discriminated against and who have been held back 
big time. Not only were they held back but their mothers, 
grandmothers, grandfathers, great grandfathers were held back 
because of discrimination. Can you understand that whenever 
discrimination raises its head, there are a lot of people who 
will get upset about it because they know what it feels like. I 
am just curious.
    Mr. Green. Absolutely. First, let me say that I think part 
of reaching out to the community of faith, many of these 
organizations in neighborhoods that have specific needs and 
very special needs reaching out to them I think will ensure the 
services we deliver to these neighborhoods will be as effective 
as possible. I think we will do a better job in reaching out to 
heal neighborhoods and to work with those in need.
    Second, again I come back to it, that is why I think it is 
so very important for us to spell out the rules for what cannot 
be done, so there isn't discrimination. I think that is very 
important indeed.
    Third, I think an important point, there is also the 
concept of religious freedom and freedom of expression, and I 
am Catholic. To say that my church, the Catholic church, and I 
am not suggesting you are saying this, but is not able to 
participate in the wonderful work that Catholic Charities does 
because it is a male-only priesthood, none of us are suggesting 
that obviously. We recognize that there are concepts of 
religious freedom here, that the Constitution provides we must 
not discriminate on religious grounds. It also provides freedom 
of religious expression.
    It is a sensitive area and an area where we have to tread 
carefully and it is an area where I think we have an obligation 
to all Americans to make sure we are very specific in those 
guidelines so that we don't creep into what you have rightly 
pointed out is a fear in this country, a well founded fear in 
too many places.
    Mr. Cummings. Mr. Scott.
    Mr. Scott. Very briefly. When you suggest there is no 
suggestion that any of this discussion has anything to do with 
what religious organizations do with their own money, the 
Catholic Church can do what it wants to, hire who it wants for 
a priest. That is not on the table for discussion. The question 
is whether or not they can participate in a federally funded 
program and take the Federal money and only hire men or only 
hire Catholics and deny employment opportunities with the 
Federal money, not with the church money, continue doing what 
they want with the church money, can they deny employment 
opportunities to people because of religion? As I indicated, if 
you have to pass on religion, you cannot enforce racial 
discrimination laws.
    When you talk about the small organizations, the small 
churches, those problems in dealing with Federal contracts 
apply to small churches, apply to small organizations, the 
crime watch organization, all these other unincorporated 
associations, they are going to have problems dealing with the 
paperwork of a Federal grant. Maybe we need some technical 
assistance or maybe we need to use the CAP agencies, community 
action agencies, to help administer the money so they can 
perform their good work but not have to do all of the 
paperwork.
    Again, I go back to the point on favoritism. How does this 
change present law? Are we going to allow organizations to be 
favored over more qualified organizations because we favor that 
religion or not? How does it change present law and the 
question of favoritism? Remember, any program that can get 
funded under the Faith-Based Initiative could be funded anyway 
if you agree not to discriminate in employment.
    Mr. Cummings. Mr. Scott, on the culture, President Bush in 
his State of the Union, I can't remember his exact words but 
basically he implied that if you are not allowed to 
discriminate, and I have heard it somewhat here today, if you 
are not allowed to discriminate, a religious organization, then 
it may affect the culture of the religious organization and 
what they are trying to do? I can't remember the exact words 
but I remember the impression.
    Mr. Scott. We went through that in the 1960's in past 
legislation that no matter how religious or devout you may be, 
in your own business, you cannot discriminate against people 
because of their race or religion. That was controversial but 
we decided it was so invidious we were going to make it 
illegal. If you were devout, whatever your devotion is, you are 
hiring people with your own money, you cannot discriminate in 
employment.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Gutknecht.
    Mr. Gutknecht. I don't want to wear this thing out but I 
think this is the crux of the problem. It seems to me we all 
have to come up with a way to define this because so far, we 
have been fortunate. It strikes me that we haven't had more 
lawsuits than we have.
    I think we all share the notion that nobody in America 
should discriminate. I think we all agree on that but where it 
becomes problematic is when you start to define this in the 
statute, what is discrimination, what is not discrimination. 
Then it becomes incredibly complicated. We can all come up with 
examples whether it is this particular religion being forced to 
hire people to be part of this program who are very much 
opposed to the basic tenets of that religion. It is a very 
sticky wicket.
    Maybe we can't do that. Maybe it can't be done but I think 
you are imposing something on an organization if you force a 
black Baptist church to hire people who are clearly opposed and 
have real strong feelings about whatever that the tenets of 
that church are or in any of these circumstances, I am not sure 
how we define this.
    I think as has been indicated for the most part and there 
are some churches who have just said we are not going to play 
because if we go down this path, sooner or later we are going 
to be drawn into this web and we are going to be forced to play 
by a set of rules that begin to compromise the basic tenets of 
this faith. Maybe you can elaborate on that. Are you saying 
that a church should be forced to hire people who strongly 
disagree with certain teachings of that church?
    Mr. Scott. Not with the church money, no. With the Federal 
money or for the Federal purpose, which I think people have 
agreed pretty much it is a secular purpose--yes, you have to 
play by the same rules as everyone else. I guess the question 
of the employer just doesn't want to hire the person because of 
their religion, whose problem is that?
    You could be a devout whatever and you just don't like 
people of another religion and you are hiring people. Whose 
problem is that? Is that yours or is that the employee's 
problem? We decided in the 1960's, that is your problem. If you 
can't hire people of a different religion, then you are looking 
down the barrel end of a lawsuit. That is the way it has been 
since the 1960's. If you can't hire people, either you don't do 
business in the United States, you can't hire Title 7, I forget 
what the threshold number is, but if you hire more people than 
that, then you are looking at the barrel end of a lawsuit.
    I don't care how devout you are, how much you hate 
somebody's religion, you have to hire the best qualified or you 
are looking at a lawsuit. That is what we decided in the 
1960's. You are right, it was a sticky wicket. Some White 
people don't like Black people, why should they have to hire 
them, why should they have to work with them? We decided in 
that in the 1960's and I am glad they did. I don't want to go 
back to where they can say I don't want to work with those 
people. Maybe we need to revisit it. Maybe it is a sticky 
wicket but that is the way it has been and that is the way I 
like it. Maybe others want to revisit it but you are right, it 
is sticky. That is the way it is, you hire the best qualified 
regardless of race or religion in the United States.
    Mr. Gutknecht. But in terms of qualifications, if somebody 
clearly doesn't agree with the basic tenets of a particular 
religion, then you say they still could be the best qualified 
person for that job?
    Mr. Scott. You are doing a Federal job; you are not doing a 
church job. You are being hired with Federal money. We are not 
even discussing what you do with the church money. We are 
talking about a Federal contract with the money, like the Head 
Start Program. You are providing an educational service, you 
are not providing religious education. It is Head Start 
education and with the Federal money, so no, you shouldn't be 
able to discriminate. If you can't work with people of 
different religions, I believe if the sponsor of the program 
can't work with people of different religions in the Head Start 
Program, then yes, I think the employer has a problem.
    If you have problems or you can't work with the people of 
different races and religions, maybe you ought not to be able 
to sponsor federally funded programs. This was debated. I was 
reading the Congressional Record and one of the Representatives 
from New York said, this is simple, stop the discrimination, 
get the money. Continue the discrimination, don't get the 
money.
    Mr. Gutknecht. Mr. Green.
    Mr. Green. It is an important discussion we are having but 
let me return us to where we are. We have now had an Executive 
order on the books for 3 years. It is being implemented and 
here aren't all the allegations that have been suggested by Mr. 
Scott. I am not aware of them having taken place. This is 
something we need to debate.
    On the other hand, it seems to be working quite well. 
Common sense is being applied. There are guidelines to what you 
can and cannot do, there are guides put out for faith-based 
organizations, particularly smaller organizations which might 
not always have the same level of sophistication and it is 
working. So we are not talking about dramatic changes in law. 
We are talking about what is working right now and trying to 
ensure that it continues to work into the future.
    This debate is an important one but many of these issues 
are being addressed quite effectively in the working world, the 
implementation of the Executive order. So that should give us 
some comfort here as we go forward.
    Mr. Scott. May I make a quick comment on that?
    Mr. Souder. Sure.
    Mr. Scott. Some of this hasn't happened because State laws 
prohibit discrimination. Although it may not be prohibited 
under Federal law, there may be State laws that prohibit 
discrimination. There is a serious question on whether or not a 
pervasively sectarian organization can get direct funding 
anyway. When President Clinton signed some of these bills--and 
his name is always thrown around as supporting this--in his 
signing statement, he made it clear there was kind of a catch 
22. If you are a pervasively sectarian organization, he doesn't 
think you can get funding. If you are not a pervasively 
sectarian organization, you don't have an exemption under Title 
7. So anyone who ended up with the money couldn't discriminate.
    I question whether or not people really think they have the 
right to discriminate and that is why we haven't seen the 
problems.
    Mr. Souder. The question goes in order of seniority in the 
subcommittee. Mr. Davis has left, so it is Ms. Watson.
    Ms. Watson. Thank you very much.
    I am reading the bill and apparently this is an attempt to 
make this a permanent program to establish an office and make 
it a permanent program. For the benefit of the audience, if 
passed and signed by the President, this becomes law and 
whenever you use the word shall it is a mandate and so I want 
to address this to Representative Green.
    I am looking at page 3, line 13, subsection 5, ``The 
Director shall help to integrate policies affecting faith-based 
and other community organizations across the Federal 
Government; shall coordinate public education activities 
designed to mobilize public support for faith-based and 
community initiatives.'' I really don't know what that really 
means and possibly it could be interpreted in a court of law.
    I go on to on that same page, line 24, it says ``Advise the 
President,'' this brings the President into the implementation 
of this program. It says, ``Advise the President on options and 
ideas to assist, strengthen and replicate successful faith-
based and community initiatives.'' It goes on to say on page 4, 
``to support and encourage faith-based and community 
initiatives.'' My interpretation would be to support the faith-
based, faith-based initiatives rather than other kinds of 
community service programs.
    It goes on to say, ``Work to eliminate unnecessary 
legislative and regulatory barriers which impeded the efforts 
of faith-based.'' That means ease up the oversight and the 
responsibility we as selected officials have over the use of 
Federal programs.
    I have questions on almost every page and every line but 
the ones that popped out at me, it says under Sense of 
Congress, ``In the administration or distribution of Federal 
financial assistance, no organization shall be discriminated 
against on the basis of religion or religious belief.'' I 
didn't hear that in the debate. It is in this bill. So you can 
challenge if there is discrimination against someone who then 
would go into a program and ask to be hired because they were 
real qualified. I didn't hear that argument brought out.
    Mr. Green. If I can respond to that, that is not the 
discrimination you are referring to. It is referring to 
discrimination against organizations which happen to be faith-
based, saying those organizations may not participate in 
Federal grant programs because they are faith-based.
    Ms. Watson. I am going to go through all these concerns and 
then you can respond.
    Then on page 9, lines 11 and 12, ``Any organization that 
receives Federal financial assistance to provide social 
services shall be prohibited from discriminating against 
beneficiaries or potential beneficiaries of the service it 
provides.'' You need to know that piece is in there.
    On page 10, line 4, ``Any faith-based organization that 
receives Federal financial assistance should be able to retain 
its independence and to continue to carry out its mission 
including the definition, development, practice and expression 
of religious beliefs,'' that worries me, ``provided that it 
does not use Federal financial assistance to support any 
inherently religious activities such as worship, religious 
instruction,'' and this says you can indoctrinate. We really 
have to look at the wording here.
    On the same page, line 19, ``Any faith-based organization 
that receives Federal financial assistance should be able to 
retain any religious terms in the organization's name, take 
religion into account in selecting board members and include 
religious references in any organization mission, statements or 
other chartering or governing documents.''
    This is a Federal policy that you want to codify on a 
permanent basis. This Federal money is derived from tax moneys, 
my tax moneys, yours and everyone in this room who pays taxes. 
I cannot support a faith-based program that would take a look 
at me, a Catholic and say you cannot work here regardless of 
how qualified I am. I would like to see something in this bill 
that prohibits discrimination based on a whole series of 
things.
    I think it is unfinished and this is my point. Because you 
do not deserve my tax dollars if I am qualified and cannot work 
in your institution, I being a recipient and being a victim of 
discrimination over the years feel this very deeply, 
emotionally and passionately and anything that I have to do or 
vote on, I want to be sure there are protections so people like 
myself will not continue to be victimized only because we did 
not debate, discuss and think it through.
    Thank you for giving us something we can look at and we can 
analyze and we can suggest. Maybe we can come up with some 
amendments that will address my concerns.
    Thank you, Mr. Chairman.
    Mr. Green. I appreciate what the lady said. I think the 
lady should take comfort from one of the provisions she read. 
The provision you read says, ``Any organization that receives 
Federal financial assistance, provides social services should 
be prohibited from discriminating against beneficiaries or 
potential beneficiaries on the basis of religion.'' That is 
what you have asked for.
    Ms. Watson. Exactly. I wanted to point that out. That gave 
me comfort but then as I read we are asking for a promotion of 
these faith-based programs, so I would like to see a provision 
in there.
    Mr. Green. If that provision is in there, it would have the 
force of law which should give you comfort. The promotion we 
are talking about is letting organizations know that they have 
the opportunity to participate because for years they have been 
told they need not apply. These organizations for years have 
been pushed away from being involved in delivery of Federal 
services. They have not had the ability, at least in their 
minds, to be able to participate in Federal grant programs. 
Particularly those smaller organizations that don't have the 
same level of sophistication or assets, resources that some of 
the well-known organizations have, like Habitat for Humanity.
    So that's the promotion that we're talking about. Many of 
the provisions that you have pointed to, again, are current 
Federal policy. And again, finally, I could not agree with you 
more with respect to the need for spelling out the clear policy 
and law that we cannot discriminate against beneficiaries on 
the basis of religion. That's why that provision is in there.
    Mr. Scott. Mr. Chairman, could I say just a word? That is, 
there is no prohibition against these organizations 
participating now. We want to know what the change in the law 
will be. Any program that can get funded under this faith-based 
initiative could be funded without the faith-based initiative, 
as long as they agree not to discriminate in employment.
    Second, there is a difference between beneficiary or 
potential beneficiaries and employment. Those are two different 
issues. I think there is a consensus that you shouldn't 
discriminate against beneficiaries, that is, students of the 
Head Start program. The question is whether you could 
discriminate in hiring teachers in the Head Start program.
    And finally, the Section 7 is a sense of Congress. 
Switching hats to my Judiciary Committee, I am not sure a Sense 
of Congress is even enforceable. I don't know what the deal is.
    Ms. Watson. If I might just respond. I think we need to go 
over line and verse and then try to clarify, so that we don't 
end up having suits and tying up the implementation of such a 
law in court. Because I would be the first one in court, if I 
walked in and someone said to me, well, you're Catholic. I know 
what it says there, but you're Black.
    Mr. Green. But it does say that. It does provide the 
protection that you've asked for. That protection is right--you 
just read through it.
    Ms. Watson. But I don't know what it means when it says, 
the Director shall advise the President how to promote a 
particular faith-based program, you see. I think we get into 
trouble with that.
    So I think what we need to do is to re-look at the 
provisions that are already in the bill, discuss them like we 
are doing here, and I appreciate this opportunity to bring out 
some of my concerns.
    Mr. Souder. Thank you.
    Mr. Owens. Mr. Davis.
    Mr. Davis of Illinois. Thank you, Mr. Chairman.
    Representative Green, you just indicated that the 
organizations would be strictly prohibited from discriminating 
on the basis of religion. What could they discriminate on the 
basis of?
    Mr. Green. Well, it's a legal question, you would have to 
ask an attorney. Again, I think the legislation speaks for 
itself and makes it very clear that in terms of beneficiaries, 
that you cannot discriminate. Again, this doesn't change 
current law. This is an effort to codify existing policy and to 
make sure that what is taking place out there and is working 
continues beyond this administration. That's what this 
legislation seeks to do. It is not changing policy.
    Mr. Davis of Illinois. Well, perhaps you or Mr. Scott could 
tell me, say, the difference between, let's say that I have the 
Davis Temple Baptist Church. And I take myself two or three of 
my members, my choir director and my deacon board and the 
trustee board, and we decide to incorporate ourselves into the 
Davis Temple Foundation and go and apply for a grant, apply to 
the Internal Revenue Service and get ourselves a 501(c)(3) tax-
exempt status and become the recipient.
    What is the difference between the Davis Temple Foundation 
and the Davis Temple Baptist Church, and they are the very same 
people with the same mission, with the same motivation, with 
the same purposes? What is the difference?
    Mr. Scott. If it is a separate organization, it would be 
looked at separately. Now, if you have a mission that is 
strictly religious, there would be very little difference. But 
usually, when you set up the separate 501(c)(3) organization, 
you set that up as a charitable organization, not a religious 
organization. When you receive money in the 501(c)(3), you are 
subject to the same law as everybody else is; when you receive 
money to perform a Government service, you have to use the 
money for which it was appropriated and you can't discriminate 
in employment.
    That's why I said, any program--that Davis Temple whatever, 
whether it is under this, under that--any program that could 
get funded under this bill, under the faith-based policy, could 
have been funded anyway if you would agree not to discriminate 
in employment. You may have to set up a 501(c)(3) or whatever. 
But if you are running a program that could have been funded 
anyway if you would agree not to discriminate in employment.
    So unless you're talking favoritism, basically in the 
faith-based initiative, all you're talking about is rolling 
back the clock on discrimination laws.
    Mr. Davis of Illinois. That's kind of my feeling. There has 
to be some underlying reason or some underlying cause. I mean, 
I hear that the institutions don't know that they can apply. I 
just don't know any that don't know that they can become a 
charitable organization and follow the same rules and 
regulations as other charitable organizations. I don't know any 
institutions that can get any smaller than what we call the 
store-front churches in the community where I live and work and 
have spent all of my adult life.
    It is difficult for me to rationalize the need to suggest 
that the only way these individuals are going to know that they 
can develop programs and apply for Federal resources is that we 
have a faith-based initiative operating out of the President's 
office. So I just have some serious difficulty understanding 
that, and think that there must be some reason beyond what I am 
hearing and what I know for us to feel the need to codify such 
a program as it is outlined in this bill.
    So I thank you gentlemen, but I just can't see the 
rationale. I can't see the logic. I yield back.
    Mr. Souder. Ms. Norton.
    Ms. Norton. This is testimony I would have very much liked 
to hear. I was ranking member on another committee. I have 
followed this issue very closely, because when I chaired the 
Equal Employment Opportunity Commission, we issued religious 
discrimination guidelines. And they were very important to 
spell out broadly the protection against religious 
discrimination.
    And Title VII of the 1964 Act, which I administered and 
under which these guidelines were developed, of course, has 
very broad protection for religious organizations, essentially 
an exemption from the, in their activities from the 
discrimination laws. Not only their religious activities, but 
their secular activities, in their dealing with the money that 
is protected under the Constitution by the first amendment with 
their own religious-based money.
    Of course, whenever we deal in this sensitive area, we are 
bound by the first amendment's establishment of religion 
clause, which prohibits Government-financed or Government-
sponsored indoctrination of beliefs of a religious faith. So 
this bill has been held up for years, because even though the 
House and Senate are full of people who agree and who have seen 
faith-based organization Constitutionally administer public 
funds, there seems to be something more desired.
    What particularly concerns me in my discussions over the 
years with Representative Scott is, of course, that we could 
see a great deal of public funds going to religious 
organizations which by their very nature are segregated. That 
is just out of tradition. Jews turn out to be mostly White. 
Black people go basically to churches which are mostly Black. 
Nobody has any criticism to be made of those.
    Social services have been handled across these religious 
lines. So the notion of saying, you can handle my funds and 
hire only people of your religion, to handle my funds, to 
handle my taxpayers' funds, seems to me to be a slam dunk 
unconstitutional matter.
    I would just like to ask this question. If we could get 
over the other issues that have been discussed here, would you 
agree that any such bill should clarify this matter right up 
front and say, any organization, any religious organization 
which in fact accepts public funds must not discriminate in the 
employment of people who are employed to distribute the 
services with public funds? That is my straight-out question.
    Would you be willing to have any such legislation clarify 
that if a religious organization accepts public funds, it 
agrees not to discriminate on the basis of race and religion in 
its employment practices only in the distribution, only in 
administering services using these public taxpayer funds?
    Mr. Souder. A brief answer by each one of you. We have 8 
minutes left to vote.
    Mr. Green. I am not sure it is possible to give a brief 
answer. The first important point, this legislation has not 
been held up for years. I drafted it for the first time last 
fall.
    Ms. Norton. I meant the legislation of this kind. I didn't 
mean to refer to your bill.
    Mr. Green. This is different. And it is an important part 
of the response here. This is not a clean slate. This takes 
what is working well right now, and for which I have not heard 
allegations made, we have not seen lawsuits made, and would 
seek to codify them and to make sure that it exists beyond the 
expiration of this administration.
    So that should give us all some reassurance here. We do 
have protections spelled out, we do have laws on the books----
    Ms. Norton. Would you agree that----
    Mr. Green [continuing]. And so this----
    Ms. Norton [continuing]. To such language in your bill?
    Mr. Green. I would be happy to work with the lady to look 
at what language is most appropriate. But I will not allow or I 
would not support language that forces faiths or religions to 
entirely surrender their religious independence and their 
religious expression. It is a fine line, and in my opening 
remarks we talked about how it is a sensitive area. We have a 
tightrope here that we have to walk. This goes back to the 
Clinton administration. They tried to draw a fine line. I think 
it is something that isn't easy that we need to do.
    But again, there is not a clean slate here. We have 
something now in place that is working. So that should be a 
reassurance to yourself and to many of the Members here who 
have expressed concerns. We can take a look at how the current 
Executive order is being implemented and how it is working, and 
we can take a look at allegations, if there are indeed 
allegations of discrimination in hiring and those are things I 
think are appropriate to look at.
    But again, this is not something new that we are creating 
here.
    Mr. Scott. Just very briefly, you don't have to surrender 
anything if you sponsor a federally funded program. You can do 
what you want with your church funds.
    With the Federal funds, any program that can get funded 
with Federal funds could be funded anyway if the sponsoring 
organization would agree not to discriminate. So that begs the 
question of, if that is all you are talking about. So there is 
no faith-based initiative without discrimination unless you are 
talking about favoritism, that is, that you could favor one 
religious organization over an objectively more qualified 
program sponsored by another religion or a secular 
organization. So unless you are talking favoritism, all you are 
talking about is discrimination.
    Furthermore, you know from your work on the EEOC that if 
you can't, if you have a pass on religious discrimination, 
racial discrimination is essentially unenforceable.
    Mr. Souder. I thank the gentlelady. I thank both of the 
gentlemen from Wisconsin and Virginia. We have five votes, it 
will be approximately 45 minutes and we will reconvene with the 
second panel.
    The subcommittee stands in recess.
    [Recess.]
    Mr. Souder. The subcommittee is reconvened.
    Our second panel is composed of Stanley Carlson-Thies, 
Director of Social Policy Studies at the Center for Public 
Justice; Mr. David Kuo, former Deputy Director of the White 
House Faith-Based and Community Initiatives; and Bobby Polito, 
former Director of the Center for Faith-Based and Community 
Initiatives at the Department of Health and Human Services.
    Since you are already here, if you will each stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Thank you for your patience. That was--the last vote did 
not even occur, it was a frustrating process over there. The 
clock was moving pretty slowly.
    But now we don't plan to have any more votes the rest of 
this evening, so we should be able to get through the rest of 
the next few panels in an orderly manner. Thank you each for 
coming, for being willing to testify at this hearing, and we 
will start with Dr. Carlson-Thies.

STATEMENTS OF STANLEY CARLSON-THIES, DIRECTOR OF SOCIAL POLICY 
 STUDIES, CENTER FOR PUBLIC JUSTICE; DAVID KUO, FORMER DEPUTY 
DIRECTOR, WHITE HOUSE FAITH-BASED AND COMMUNITY INITIATIVE; AND 
   BOBBY POLITO, FORMER DIRECTOR, CENTER FOR FAITH-BASED AND 
 COMMUNITY INITIATIVES, DEPARTMENT OF HEALTH AND HUMAN SERVICES

               STATEMENT OF STANLEY CARLSON-THIES

    Mr. Carlson-Thies. Thank you, Chairman Souder, and the 
subcommittee, for the opportunity to comment on H.R. 1054.
    I was on the original staff at the White House Office of 
Faith-Based and Community Initiatives, serving until May 2002, 
and I worked particularly with the Centers for Faith-Based and 
Community Initiatives. I am now with the Center for Public 
Justice. We subcontract with the HHS Center for Faith-Based and 
Community Initiatives and the Corporation for National 
Community Service. I also consult with State governments.
    I am glad to support this bill to codify the structure and 
principles of the faith-based initiative. I will suggest some 
changes.
    I think the faith-based initiative is very important for 
revitalizing our society's help for the needy. Its importance 
cannot be measured by the relatively slow pace of change in the 
delivery of social services, a slow pace that we ought to 
expect, given the institutions and interests involved.
    The faith-based initiative is a lever, decisively bending 
the Federal system so that faith-based providers have an equal 
opportunity to partner with the Government without suppressing 
their religious character. Of course, Government collaboration 
with religious organizations is not new, but I think the 
critics are wrong to say that the partnership needed no reform. 
One Constitutional scholar, reflecting on the restrictive 
conditions that often accompany Federal funds, called Federal 
grant programs ``relentless engines of secularization.''
    Of course, the White House Report on unlevel playing fields 
documented a series of barriers and said that the chief problem 
was ``an overriding perception by Federal officials that close 
collaboration with religious organizations is legally 
suspect.'' In the meantime, of course, the courts have shifted 
direction. In decisions that culminated with Mitchell v. Helms 
in 2002, the U.S. Supreme Court has shifted from the old ``no 
aid to religion doctrine'' to the concept of equal treatment 
which requires officials not to be biased against an applicant 
merely because of its religious character. The question is 
whether the applicant can provide the services while respecting 
the law.
    Congress responded to that legal development by adopting 
charitable choice four times, and President Clinton signed the 
bills into law. But I think his administration did not 
decisively level the playing field for explicitly religious 
organizations. By contrast, President Bush has made reforms a 
high priority. Most significant are three actions. One of them 
was the creation of the White House Office of Faith-Based and 
Community Initiatives and the Centers for Faith-Based and 
Community Initiatives.
    The second was a promulgation of charitable choice 
regulations to guide State and local officials. The third I 
think is the President's December 2002 Executive order on equal 
protection for faith-based and community organizations which 
sets out equal treatment principles to cover Federal funds not 
governed by charitable choice and applies to State and local as 
well as Federal officials.
    Some have said that this Executive order improperly 
sidestepped Congress. I believe it was the administration's 
response to the Court's equal treatment requirement. Thus the 
Federal Government, I think, has been given a very significant 
reorientation. I commend Jim Towey and the Center directors for 
this.
    Yet more remains to be done. Let me note a few areas. 
First, the Federal Government should do more to inform State 
and local agencies about the equal treatment rules and to 
ensure their implementation. Without such leadership, it is no 
surprise that faith-based organizations often encounter local 
resistance. This problem also hampers the access to recovery 
program, which uses vouchers to offer a wider array of drug 
treatment services from a more diverse set of providers. 
Without sufficient Federal guidance, the pace of State 
innovation has been slow.
    Second, more guidance should be offered to faith-based 
organizations that collaborate with Government. Otherwise, 
despite their best intentions, the organizations may violate 
important rules and land in trouble.
    Third, the Federal Government should clarify whether a 
State or local government can restrict religious staffing, even 
when the Federal program rules have no such restriction. The 
confusion about this makes some faith-based organizations leery 
about collaboration.
    Fourth, I think the Government should more vigorously 
promote vouchers and social service programs. Indirect funding 
empowers beneficiaries and eases church-State concerns.
    I think these comments show the need for continued progress 
and not a change of direction. So I welcome this bill with its 
aim of further embedded institutions and principles of the 
faith-based initiative into the workings of the Government. But 
I would suggest just a few changes.
    First of all, the bill should require not merely 
departmental liaisons, but actual centers for faith-based and 
community initiatives. Centers have authority within their 
departments to investigate problems, recommend changes and gain 
the cooperation of program officials. A department ought to 
regard its center as essential to achieving the department's 
mission and not as an outpost to the White House.
    Second, I recommend modifications to the bill's equal 
treatment principles in Section 7. I think these principles 
should apply whether the Federal funds are administered by 
Federal, State or local officials. In paragraph 6, I think it 
ought to be modified so that participants in voucher-funded 
cannot sit out part of a social service, even if that is a 
religious part, because their religious liberty is protected by 
the choices of a voucher system itself. And the bill ought to 
authorize officials to use vouchers as appropriate.
    Finally, I think the bill should state that when a Federal 
program honors a faith-based organization's Title VII 
exemption, its freedom to staff on a religious basis, then a 
State and local government cannot restrict that freedom. Thank 
you.
    [The prepared statement of Mr. Carlson-Thies follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.018
    
    [GRAPHIC] [TIFF OMITTED] 23829.019
    
    [GRAPHIC] [TIFF OMITTED] 23829.020
    
    [GRAPHIC] [TIFF OMITTED] 23829.021
    
    [GRAPHIC] [TIFF OMITTED] 23829.022
    
    [GRAPHIC] [TIFF OMITTED] 23829.023
    
    [GRAPHIC] [TIFF OMITTED] 23829.024
    
    [GRAPHIC] [TIFF OMITTED] 23829.025
    
    [GRAPHIC] [TIFF OMITTED] 23829.026
    
    [GRAPHIC] [TIFF OMITTED] 23829.027
    
    [GRAPHIC] [TIFF OMITTED] 23829.028
    
    [GRAPHIC] [TIFF OMITTED] 23829.029
    
    [GRAPHIC] [TIFF OMITTED] 23829.030
    
    [GRAPHIC] [TIFF OMITTED] 23829.031
    
    Mr. Souder. Mr. Kuo.

                     STATEMENT OF DAVID KUO

    Mr. Kuo. Chairman Souder, distinguished members of the 
subcommittee, thank you for inviting me to testify this 
afternoon, and thank you for your perseverance in wading 
through the not-so-easy areas of religion and politics.
    My perspective on the topics we discuss today is informed 
by various vantage points on faith, politics and social service 
I have had during the past 15 years. I was John Ashcroft's 
policy director in the Senate when we wrote Charitable Choice. 
I founded and for 3 years built a charitable organization to 
objectively determine the efficacy and efficiency of social 
service organizations. And for 2\1/2\ years, I served as 
special assistant to the President as Deputy Director of the 
Office of Faith-Based and Community Initiatives under President 
George W. Bush.
    But more than anything, my views are informed by a certain 
philosophical perspective. I believe in Government's inviolable 
duty to help the poor. This is not just a political philosophy 
for me, it is also theology. I believe that Jesus' commands to 
care for the least among us means that we have to bring to 
social problems every available resource and every best effort. 
No country can do that better than America, and no country 
needs to do it better than America.
    What seems like a long time ago, in a galaxy far, far away, 
a Texas Governor gave one of the great political speeches of 
this generation in Indianapolis, IN. In it, Governor George W. 
Bush talked about how the promise of America was a distant 
dream for too many who were addicted to drugs, dependent on 
alcohol and trapped in despair. He said that the answer didn't 
lie in trillions of new Washington dollars spent on big 
bureaucracy to end poverty as we know it. He also said the 
answer didn't lie in shrugging our collective shoulders and 
simply letting the private sector handle it, devoid of new 
resources.
    What America needed to do, he said was to embrace and 
generously fund social service organizations, faith-based and 
secular, to help hurting Americans. His prescriptions were 
straightforward. Certain laws, rules and regulations amounted 
to Government-sanctioned discrimination against faith-based 
groups. They needed to be changed.
    Social service groups needed to know that they were welcome 
to apply for funds. At the same time, he added passionately, it 
is not enough for conservatives like me to praise charitable 
efforts. Without more support and resources, both public and 
private, we are asking charities to make bricks without straw.
    On that day, he proposed $8 billion per year in new 
spending and charitable tax incentives and sent the 
unmistakable message that charity, compassion and care for the 
poor were to be cornerstones of his domestic policy. A great 
deal of what he has envisioned has come to pass. There is a 
White House Office of Faith-Based and Community Initiatives and 
there are coordinating centers in most major Federal agencies.
    Tens of thousands of people have been educated about how to 
apply for Government grants and what they can and cannot do 
with those funds if they receive them. Grants have been given 
out to scores of different organizations and small pilot 
projects to assist children of prisoners, mentoring programs 
and drug addicts.
    Most importantly, an irreversible message has been sent 
across the country. Faith-based groups are fully welcome, fully 
legal and absolutely necessary to America's fight against 
poverty. Were it not for President Bush's vision, we would not 
be meeting here today.
    At the same time, the core funding commitment he made in 
Indianapolis has not been fulfilled. Four years later, rather 
than $32 billion in new spending and tax incentives for the 
poor, we have seen at best a few hundred million. There is a 
chasm between what was promised and what has been delivered, 
and it cannot be glossed over by any new White House reports, 
initiatives, policies, conferences, speeches, pronouncements or 
purportedly objective data collection intended to make that 
failure look better. It can only be bridged by the fulfillment 
of the original promise. That promise must still be fulfilled.
    The failure to deliver the promised financial support for 
the poor lies equally on the executive and the legislative 
branches of Government. The White House could certainly have 
done more and hopefully will do more to push through needed 
funding increases to address record American poverty. But at 
least the White House has tried.
    From where I sit, I cannot say the same thing about most of 
Congress. I have been saddened by widespread congressional 
apathy and the desire for political gamesmanship rather than 
substantive aid. Why hasn't Congress been the compassionate 
advocate on behalf of charities and the poor in the midst of an 
economic crisis, a downturn in charitable giving and a dramatic 
upturn in social service needs?
    When the President announced the creation of the Faith-
Based office in 2001, he was attacked by some Democratic 
Members of Congress as trying to destroy the wall of separation 
between church and State. Still others said he was simply 
trying to create a Bob Jones University America. Other said he 
was trying to simply discriminate against racial minorities, 
women or members of the GLBT community.
    Even when distinguished Members stood up against this 
bombast and sided with President Bush, they were threatened by 
members of their own caucus that their personal campaign funds 
would be cut, someone else would be supported in a primary 
against them and that they would have to publicly retract their 
support. It seemed like the President's bold support of this 
initiative was seen by many as simply a chance to hurt him and 
label him as a religious zealot, and the poor were used as 
pawns in a greater political game of power.
    At the same time, many members of the President's own party 
expressed equal parts apathy and antipathy toward this agenda. 
Money for the poor? Why, it will just get wasted, they said. We 
just need to cut the funds and let the private sector take 
over. We don't need more funds, all we really need to do is 
make sure that we have a huge political fight over religious 
charities' right to hire and fire based on their own faith. 
That way, as I have heard time and time again, Republicans will 
be seen as fighting for religions and Democrats will be seen as 
fighting against it. It is a good fight to have, I heard time 
and again, from both Democrats and Republicans.
    A good fight for partisanship, perhaps, but less good for 
the poor. Some people have said that this is just the way of 
modern Washington. We haven't seen the promises fulfilled, 
because for the White House, for Democrats, for Republicans, 
for liberal and conservative special interest groups, there is 
more to be gained by fighting than by solving. I don't believe 
that this is true. Everything that hasn't yet been accomplished 
can still be accomplished. Funding for things like CBDG can be 
returned to their needed levels. The Compassion Capital Fund 
can receive the $200 million per year that it was promised, 
rather than the $99.5 million over 4 years that it has 
received.
    Tax incentives to aid the poor can be put in place. There 
is no such thing as too late, because there are always lives 
that can be helped. Impossible? Hardly. The mere fact that we 
are meeting together today demonstrates this subcommittee's 
passion for the poor and willingness to stand up to opposition 
from those who do not want hearings like this to occur.
    I would like to make three specific suggestions for moving 
forward before I close. First, the subcommittee should seek to 
expand its oversight on the White House Office of Faith-Based 
and Community Initiatives. There are important questions that 
need to be answered about how decisions are made there 
regarding funding, what relationship that office has in 
directly controlling the activities of other Federal agencies, 
as well as examining the veracity of reports claiming that a 
certain amount of money is going to faith-based groups. These 
are important matters that need to be examined.
    Second, I encourage the subcommittee to begin looking at 
information in different ways. To date, charities have been 
judged primarily by how well their accountants make it look 
like all the money is going to serve targeted populations. Why? 
Because that is how efficient charities are judged and ranked 
by media like U.S. News and World Report. Unfortunately, this 
mindset has prevented us from asking a more important question: 
how well? Efficacy is far more important and relative to gauge 
than efficiency. We need to begin asking charities and our 
Government to tangibly measure how well they are doing their 
jobs, not just how efficiently.
    Third, do not be distracted by the so-called discrimination 
issue. The facts are fairly simple. No one can be discriminated 
against when it comes to receiving services. Faith-based groups 
have been receiving Federal funds for years and have long ago 
learned how to deal with the issue on the ground.
    As one woman told us as we scoured the country looking for 
examples of groups dogged by religious discrimination issues, 
``Honey, if you can't hire someone without asking them their 
faith, you're a fool.''
    Ultimately, I think that codifying the faith-based 
initiative is a good idea, especially if it allows for easier 
oversight. But any faith-based initiative success will 
ultimately be determined by a White House's commitment.
    I want to close again by thanking you, Chairman Souder, and 
Representative Cummings, and the subcommittee for continuing to 
examine the complex issues surrounding the Faith-Based and 
Community Initiatives. The debates are vigorous, and that is 
the way it should be.
    Thank you.
    Mr. Souder. Thank you.
    Mr. Polito.

                   STATEMENT OF BOBBY POLITO

    Mr. Polito. Thank you, Chairman Souder and Congressman 
Cummings, for inviting me here today.
    I would like to try to sum up my comments real quickly, as 
I look at the clock. As an Italian, the dinner bell is a loud 
one in my family. So I would like us all to get back at a 
reasonable hour.
    For the last 3 years, I have been the director of the 
Faith-Based Office at HHS. And I would like to comment quickly 
on process, how does it work at a Federal agency, how does it 
work specifically in a very large Federal agency. I want to 
come and agree that H.R. 1054 should be enacted for the 
purposes of the organizations that we are talking about.
    My key role as the director, my staff's key role under me 
was to be a beacon of hope in a bureaucracy where groups can go 
for questions and get real answers. I remember when I was a 
rescue mission director, and I called HUD, I called HHS, I 
called everybody to find out what was available for the people 
that I served, either direct funds from my organization or 
individual subsidies for the people that I served. And I never 
got my phone calls answered, I never got an agreement for a 
meeting down here in this wonderful city.
    So I think just for that purpose alone, if it was just a 
place where organizations can make phone calls to, can visit 
with, somebody in Washington is going to meet with them and 
help them understand hey, there is funding available for what 
you do, hey, the things that your drug addicts are struggling 
through, there are programs in your city that you can apply for 
for them, and help them get over their dependencies.
    At our center, we had a game plan. I was a former athlete 
in a different life, and we talked about it as an inside game 
and an outside game. Our inside game was to try to change the 
way the bureaucracy ran, that favored the people that were 
already there. Funding questions being answered by, well, let's 
just fund the folks that we have always funded, because we 
haven't gotten into any trouble lately. And things are going 
OK. Sort of status quo stuff.
    So we had our inside game. We had internal barriers report 
that we showed, some anecdotal information on why groups 
couldn't get in, what happened when they did get in, were they 
stripped of their religious character, couldn't they hire, 
couldn't they do the things that they needed to do. And their 
understanding of the problem, as we used to say, on the street. 
So that was our inside game, to work with the 65,000 Federal 
officers at our department to get them squared away on where we 
wanted to go with this program.
    Our outside game was in my opinion more important. Because 
it opened the Federal doors so that pastors, lay workers, 
social workers could come into an office, sit down, have a cup 
of coffee and understand what this initiative was all about, 
understand what the different program areas we had at HHS, we 
had 11 program areas and 300 grants programs.
    So if you were doing it, you probably could get funded out 
of our department. The problem was that they didn't know, they 
didn't know where to go, they didn't know when the RFP was 
coming out, they don't read Federal Registers to get 
information. So we acted as a beacon.
    And if we don't have that moving forward, the people, in my 
opinion, who serve the poor the best, the community folks and 
the religious folks on the street, I call them street saints, 
those folks who walk the street at 3 a.m., and pick up people 
and throw them over their shoulder and have a place for them to 
go, those folks don't read Federal Registers. And those folks 
don't have Government offices in Washington to lobby for them. 
So somebody's got to look out for them.
    I am afraid that if we don't have this as a practice in our 
Government that it would be a flash in the pan. Thank you for 
allowing me to share my thoughts with you today. I would love 
to answer any questions.
    Mr. Souder. Thank you. I have a series of questions. I 
first want to thank each of you for your long-time work in this 
area. I will try not to call you by your first names, because I 
have known most of you for so long.
    Let me start with Mr. Kuo. I take issue with a couple of 
things in your statement, and I feel compelled to point out in 
the record that I believe Congress and the White House both 
share blame, and I believe the White House has some things that 
are commendable. It is also true that the White House opposed 
the Compassion Capital Fund, that the House leadership had to 
jam it down their throats. And I don't know what in the world 
the White House was doing abandoning something internally when 
publicly they were speaking the other way.
    And the historical staff record of the people in the 
conference from the leadership will show that, and whether the 
President was being reflected correctly by his people who are 
doing the negotiating is another question. I am not arguing 
that the White House Office of Faith-Based Initiatives took 
that position. I am not even arguing that the President himself 
took that position. And as you and I both know, and all of you 
here know, I have multiple former staffers who are in key 
positions, and this is a very awkward hearing for me, because 
they are in key positions related to all this kind of stuff. I 
have tried to kind of not talk about business sometimes in a 
private way, because my job is oversight.
    But I have been very disappointed, as have some people 
inside the White House, including you, with some of what's 
happened. I think a second thing I want to say on this same 
part is, were you aware, because I want to establish whether 
you were aware of this, it is a fact, that the White House 
specifically asked me to hold back on my bill on the $500 tax 
credit and additional funding for support of the type Mr. 
Polito was just talking about, institutional building, that I 
had Bobby Scott on, Chet Edwards on, Jerry Nadler on and Barney 
Franks' support, that also had the support of Tom Daschle, and 
they asked me to hold back my bill because they wanted to go 
after the public funding part, because it was in effect what 
would be called Santorum Light, it would have been the tax 
credit part in the institutional building, but would have not 
had the direct funding? Were you aware that the White House 
asked me that?
    Mr. Kuo. Yes, Mr. Chairman, I was aware.
    Mr. Souder. And that doesn't mean that they wanted to try 
to win the public funding part, which is a battle that they 
have carried on valiantly and fought over. But we lost our 
moment on the tax part. And the truth is, we wouldn't have had 
this big debate up here on this panel today and wouldn't have 
the continuing debates on the public funding part if we would 
have taken that tax credit part, which I don't know if we will 
ever get again. Because it was time and tax relief.
    The reason I raise both of those, it has been very 
disappointing to me, because we were able to broker two-thirds 
of the bill. And we also heard today, Mr. Scott said he raised 
a different question on the vouchers, he didn't raise the legal 
question on the vouchers, he raised the technical follow-
through question on the vouchers. So we have three prongs here 
they theoretically we could move forth.
    The question is, I think you were accurate in stating, as 
we heard some of the opposition to this, the criticisms which I 
believe are wrong, but let's not spare the administration in 
some of this, too. I know you said you criticized the 
administration, but you criticized the Congress more 
aggressively. I agree benign neglect on the part of the 
majority Congress is correct. But in fact, we had brokered a 
compromise that would have moved us substantially, then we 
could have continued to fight the public funding. But we lost 
the moment.
    Mr. Kuo. Mr. Chairman, if I cut back on my commentary on 
the White House, it is only because I believe that over the 
past several months I have made my position on the White 
House's not so benign neglect of this issue, of its political 
use of this issue. I thought I had made that clear, and I just 
meant in the interest of time to keep that short.
    But I agree, Mr. Chairman, with what you said. I was in 
part of the conversations in which the discussions came forward 
about how to politically handle the bill. Because what happened 
ultimately was, this was a political question. There was a 
political benefit to not having a bill like yours pass, because 
there was great political benefit to be gained by having 
issues, by having the religious issues, the hiring issues, the 
discrimination issues out there so that we could be on the 
right side of these issues for key constituents.
    Mr. Souder. And I believe strongly those issues, it is a 
great debate to have, and I believe it is an important debate. 
I am on the side of the administration on the debate.
    But we lost what I felt were the stronger, more winnable 
parts in the continuing fight that I don't even know if we can 
sustain after President Bush. That is part of the problem here. 
We have to have a longer vision than just this Presidency.
    Now, you also stated in your testimony, and I actually have 
a couple of questions I want to do, but I wanted to get a 
couple things on the record here as we are starting. Because I 
believe part of our problem, and I believe you said it 
eloquently in your testimony, is that we played a zero sum game 
with this process. And the zero sum game is a legitimate 
debate, who can best effectively deliver public services, and 
can the private sector partly do that.
    But we argued that we were going to increase the pool of 
money for the poor. And in fact, all we have done is fight over 
a relatively frozen pool.
    Mr. Kuo. A shrinking sum.
    Mr. Souder. Particularly in inflation adjusted dollars, in 
that has put those of us in an awkward position who argued this 
for many years, because we didn't mean it to be a zero sum 
game, in that we are now into that. And there, Congress 
deserves at least 50 percent of the blame. I am not saying we 
don't. Because it is very hard, quite frankly, for some 
Republicans to argue putting more dollars into what are 
Democratic districts, and then the Democratic Members opposing 
the money that was supposed to go to their districts.
    But if it is no new money, they have no incentive to come 
on board. And our guys didn't want to give them additional 
money, and we got into this political logjam that now we are 
trying to take apart here in this hearing that in fact has put 
the long term range of this program at risk.
    Yet a third part of this is, and Mr. Kuo was with this from 
early on, from Senator Ashcroft's side as I was doing the work 
on the House side, and has worked on this for years, and the 
other witnesses here have worked with this for a long time, 
both at the grassroots level. But was it not your understanding 
when we started this that a lot of the goal here was to reach 
the people like Mr. Polito was directly talking about, in that 
those were predominantly small Black and Hispanic organizations 
in the neighborhood, as my friend Bob Woodson has said for 
years, in the zip code, who lived in the zip code.
    And how in the world did this program turn into a program 
that was a mix of multiple?
    Mr. Kuo. A mix of what, sir?
    Mr. Souder. Of suburban churches going after it, I mean, 
the faith-based initiative is seen so broadly any more, it is 
like it is money for faith-based organizations rather than 
targeted. It was supposed to be specifically targeted as an 
alternative way to delivering goods to the highest risk 
population and to getting more dollars there.
    I first want to confirm that is what you thought the 
initiative was, and that I know this has been an internal 
debate in the administration. But those of us who worked for it 
for years, in fact, when Steve Goldsmith first sat down with 
Senator Santorum and Joe Pitts and I, way back when he was 
first committed to then-Governor Bush running for the 
Presidency, and said, why is this so hard, we predicted what 
the problem was going to be, and that is that the base we were 
trying to reach with a program of compassion was not 
historically Republican, which meant that in the approach we 
were using was not historically Democrat. Therefore, it was 
going to be a very difficult sell.
    I first wanted to establish on the record that you believe 
that is how the Office started. You were there from the 
beginning, as was John DeIulio. That was our goal, it was Mike 
Gerson's original description when he was with Senator Coates, 
in that how, I first want to establish that is what the thrust 
of the program was conceived.
    Mr. Kuo. My understanding of the President's compassion 
conservative vision as first laid out in the Duty of Hope 
speech, was that his fundamental approach to poverty was to 
embrace social service organizations, including faith-based 
organizations. As a fundamental part of his approach to dealing 
with the poor, with the addicts, with those needing welfare, 
needing job training and so forth and so on was to include 
faith-based groups.
    Within that was a $200 million per year commitment for the 
Compassion Capital Fund. The Compassion Capital Fund was to be 
aimed specifically at small organizations that Bobby talked 
about, that you just referred to, the ones on the ground, the 
ones like Bob Woodson has dealt with for decades. That was what 
it was intended for. It was never intended or designed to go to 
large institutions that would hold conferences and talk about 
this some more and fly people across the country and bring them 
together for roundtable discussions. This was never the idea 
behind the Compassion Capital Fund.
    Mr. Souder. I have a concern. I have worked with several 
Black pastors' groups in my home town who have organized around 
the way that we originally said, they pulled together multiple 
churches, they have gone to the Chicago conference, they have 
gone to other conferences. I have sent multiple members of my 
staff to the different conferences, and what Mr. Polito 
described of being a way like we do for small contractors to 
figure out Federal contracting, quite frankly, neither my staff 
nor the individuals who went for the conferences can figure it 
out. Nor can they figure out how to do it. The question is, 
why?
    And the questions we heard today about, were there inside 
deals, is on the street on almost every city in the country. We 
have done hearings across the country. There is a tremendous 
frustration among grassroots groups about who gets invited to 
what, about how decisions are made.
    I want to ask a couple of technical questions for the 
record, and I am going to ask one other thing, just so we 
aren't here all night, that because you all are a fount of 
information and we aren't allowed to have any White House 
witnesses. Mr. Towey was willing to come but was told he 
couldn't come, and others, that we may do a written form of 
some question and answer to try to draw out a more historic 
thing here than we have hours to do tonight, both on the legal 
questions that we heard earlier today, how the offices were 
structured. Because this will be a good hearing record of the 
process.
    But I raise the importance of oversight. You all addressed 
it. To what degree were the centers in the agency managed 
directly by the White House, for example, did the White House 
control the Compassion Capital Fund or did the agencies?
    Mr. Kuo. I do not think that it is possible to give a 
blanket answer to that. But I think that if you are going to 
apply a legal test, preponderance of the evidence would suggest 
that the bulk of the Compassion Capital Fund was either 
controlled by the White House Faith-Based Office or was 
attempted to be controlled by the White House Faith-Based 
Office. I think Mr. Polito would probably----
    Mr. Souder. I am going to ask him the same question.
    Mr. Kuo. That would be my answer, that the fundamental 
desire from the moment--there is a history of the office that 
is important to bring into context here. One is, there is the 
office that existed from January or February 2001 basically 
through September 11th. That was when John DeJulio was there, 
Stanley was there, I was there for part of that time.
    Then in early 2002, when Jim Towey came on, it was a 
fundamentally different office. It was run differently, and it 
was run differently because there were different things at 
stake. The first stage had been a research phase, to come up 
with the Unlevel Playing Field report that Stanley wrote.
    But then when it came to implementation and there were some 
dollars on the table, it became a different operation. It also 
became a different operation because the office itself had been 
essentially demoted. John DeJulio had come on as an intimate of 
the President. He was an assistant to the President, the 
proximity of the Faith-Based Office, it was nicely positioned 
in the Old Executive Office Building. It was sent outside the 
White House gates to Jackson Place. So when Jim Towey came on, 
there was a different dynamic that I think is important to 
understand here.
    So the desire was, our desire internally was to prove the 
viability of the office. And one of the best ways to prove the 
viability of the office is to control, frankly, the only thing 
that existed out of the President's faith-based initiative 
promises, which were $10 million, $20 million, $30 million, $40 
million in the Compassion Capital Fund.
    So in 2002, as Mr. Polito will talk about, it was run 
largely through the Faith-Based Office. There were grantees who 
were eliminated from the list, for specific reasons. So the 
answer is yes on that. But there was a huge back and forth 
fight between HHS and the White House. It was a fairly ugly 
thing.
    Mr. Souder. Mr. Polito, would you agree it was a fairly 
ugly thing, and this is on top of the OMB management?
    Mr. Polito. Well, David is right, the Compassion Fund was 
the first thing out of the gate. We were able to establish 
three new programs in 3 years. The Compassion Fund was first at 
about $30 million. The Mentoring Children of Prisoners was 
second at $10 million, I believe, and now brought up to about 
$50 million. Last, the Access to Recovery program.
    Everybody was real open to including everybody's view on 
how new programs should run, how they should look, who should 
be getting the money, how it should be structured. The 
Compassion Fund, for example, because of the nature of the 
largeness of the Federal bureaucracy, even grants go out in 
large sizes. So we wanted to really get to your question about 
how do we get to the small, and requiring these big 
organizations to give a sub-grant out. I believe the testimony 
earlier by Congressman Green was 1,700, I don't know the exact 
number off the top of my head. But 1,700 small, little 
community-based, faith-based, non-faith-based groups got 1,700 
small little grants.
    So that was the agreed-upon way of getting to the small 
guy. And I think because it wasn't what everybody asked for, it 
became the focus, at times became the only thing the initiative 
had to talk about.
    But I think over time, including this data collection that 
we have now, we can see that the initiative is larger than the 
Compassion Fund. More religious groups are getting money out of 
the Community Health Center grant than the Compassion Fund 
Grant, for an example. So to label this the President's 
initiative is the Compassion Fund and that's it and if you 
didn't get Compassion Fund money you didn't get faith-based 
money and--we have been trying to dispel that in my whole 
tenure.
    If you are a faith-based group and you run a community 
health center, there is a grant for that, let me help you, show 
you where the RFP is, let me introduce you to current grantees 
who can help you with the process. Let me tell you about if 
there are any conferences coming up. Not ``you need to get into 
this Compassion Fund.''
    So on the new programs, sure, there was a lot of 
discussion, too much focus on the new programs coming online, 
not enough focus on the established programs that are there 
using the faith-based representatives that are already there, 
Catholic Charities, the Lutheran Social Services, to teach the 
smaller guys on how to get into this process. So sure, there 
were times where it wasn't the most fun.
    Mr. Souder. I want to introduce into the record the 
Snapshots of Compassion, and also ask you two more questions.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.032
    
    [GRAPHIC] [TIFF OMITTED] 23829.033
    
    [GRAPHIC] [TIFF OMITTED] 23829.034
    
    [GRAPHIC] [TIFF OMITTED] 23829.035
    
    [GRAPHIC] [TIFF OMITTED] 23829.036
    
    [GRAPHIC] [TIFF OMITTED] 23829.037
    
    [GRAPHIC] [TIFF OMITTED] 23829.038
    
    [GRAPHIC] [TIFF OMITTED] 23829.039
    
    [GRAPHIC] [TIFF OMITTED] 23829.040
    
    [GRAPHIC] [TIFF OMITTED] 23829.041
    
    [GRAPHIC] [TIFF OMITTED] 23829.042
    
    [GRAPHIC] [TIFF OMITTED] 23829.043
    
    [GRAPHIC] [TIFF OMITTED] 23829.044
    
    [GRAPHIC] [TIFF OMITTED] 23829.045
    
    [GRAPHIC] [TIFF OMITTED] 23829.046
    
    [GRAPHIC] [TIFF OMITTED] 23829.047
    
    [GRAPHIC] [TIFF OMITTED] 23829.048
    
    [GRAPHIC] [TIFF OMITTED] 23829.049
    
    [GRAPHIC] [TIFF OMITTED] 23829.050
    
    [GRAPHIC] [TIFF OMITTED] 23829.051
    
    [GRAPHIC] [TIFF OMITTED] 23829.052
    
    [GRAPHIC] [TIFF OMITTED] 23829.053
    
    [GRAPHIC] [TIFF OMITTED] 23829.054
    
    [GRAPHIC] [TIFF OMITTED] 23829.055
    
    [GRAPHIC] [TIFF OMITTED] 23829.056
    
    [GRAPHIC] [TIFF OMITTED] 23829.057
    
    [GRAPHIC] [TIFF OMITTED] 23829.058
    
    [GRAPHIC] [TIFF OMITTED] 23829.059
    
    [GRAPHIC] [TIFF OMITTED] 23829.060
    
    [GRAPHIC] [TIFF OMITTED] 23829.061
    
    [GRAPHIC] [TIFF OMITTED] 23829.062
    
    [GRAPHIC] [TIFF OMITTED] 23829.063
    
    [GRAPHIC] [TIFF OMITTED] 23829.064
    
    [GRAPHIC] [TIFF OMITTED] 23829.065
    
    [GRAPHIC] [TIFF OMITTED] 23829.066
    
    [GRAPHIC] [TIFF OMITTED] 23829.067
    
    [GRAPHIC] [TIFF OMITTED] 23829.068
    
    [GRAPHIC] [TIFF OMITTED] 23829.069
    
    [GRAPHIC] [TIFF OMITTED] 23829.070
    
    [GRAPHIC] [TIFF OMITTED] 23829.071
    
    [GRAPHIC] [TIFF OMITTED] 23829.072
    
    [GRAPHIC] [TIFF OMITTED] 23829.073
    
    [GRAPHIC] [TIFF OMITTED] 23829.074
    
    [GRAPHIC] [TIFF OMITTED] 23829.075
    
    [GRAPHIC] [TIFF OMITTED] 23829.076
    
    [GRAPHIC] [TIFF OMITTED] 23829.077
    
    [GRAPHIC] [TIFF OMITTED] 23829.078
    
    [GRAPHIC] [TIFF OMITTED] 23829.079
    
    [GRAPHIC] [TIFF OMITTED] 23829.080
    
    [GRAPHIC] [TIFF OMITTED] 23829.081
    
    [GRAPHIC] [TIFF OMITTED] 23829.082
    
    [GRAPHIC] [TIFF OMITTED] 23829.083
    
    [GRAPHIC] [TIFF OMITTED] 23829.084
    
    [GRAPHIC] [TIFF OMITTED] 23829.085
    
    [GRAPHIC] [TIFF OMITTED] 23829.086
    
    [GRAPHIC] [TIFF OMITTED] 23829.087
    
    [GRAPHIC] [TIFF OMITTED] 23829.088
    
    [GRAPHIC] [TIFF OMITTED] 23829.089
    
    [GRAPHIC] [TIFF OMITTED] 23829.090
    
    [GRAPHIC] [TIFF OMITTED] 23829.091
    
    [GRAPHIC] [TIFF OMITTED] 23829.092
    
    [GRAPHIC] [TIFF OMITTED] 23829.093
    
    [GRAPHIC] [TIFF OMITTED] 23829.094
    
    [GRAPHIC] [TIFF OMITTED] 23829.095
    
    [GRAPHIC] [TIFF OMITTED] 23829.096
    
    [GRAPHIC] [TIFF OMITTED] 23829.097
    
    [GRAPHIC] [TIFF OMITTED] 23829.098
    
    [GRAPHIC] [TIFF OMITTED] 23829.099
    
    [GRAPHIC] [TIFF OMITTED] 23829.100
    
    [GRAPHIC] [TIFF OMITTED] 23829.101
    
    [GRAPHIC] [TIFF OMITTED] 23829.102
    
    [GRAPHIC] [TIFF OMITTED] 23829.103
    
    [GRAPHIC] [TIFF OMITTED] 23829.104
    
    [GRAPHIC] [TIFF OMITTED] 23829.105
    
    [GRAPHIC] [TIFF OMITTED] 23829.106
    
    [GRAPHIC] [TIFF OMITTED] 23829.107
    
    [GRAPHIC] [TIFF OMITTED] 23829.108
    
    [GRAPHIC] [TIFF OMITTED] 23829.109
    
    [GRAPHIC] [TIFF OMITTED] 23829.110
    
    [GRAPHIC] [TIFF OMITTED] 23829.111
    
    [GRAPHIC] [TIFF OMITTED] 23829.112
    
    [GRAPHIC] [TIFF OMITTED] 23829.113
    
    [GRAPHIC] [TIFF OMITTED] 23829.114
    
    [GRAPHIC] [TIFF OMITTED] 23829.115
    
    [GRAPHIC] [TIFF OMITTED] 23829.116
    
    [GRAPHIC] [TIFF OMITTED] 23829.117
    
    [GRAPHIC] [TIFF OMITTED] 23829.118
    
    [GRAPHIC] [TIFF OMITTED] 23829.119
    
    [GRAPHIC] [TIFF OMITTED] 23829.120
    
    [GRAPHIC] [TIFF OMITTED] 23829.121
    
    [GRAPHIC] [TIFF OMITTED] 23829.122
    
    [GRAPHIC] [TIFF OMITTED] 23829.123
    
    [GRAPHIC] [TIFF OMITTED] 23829.124
    
    [GRAPHIC] [TIFF OMITTED] 23829.125
    
    [GRAPHIC] [TIFF OMITTED] 23829.126
    
    [GRAPHIC] [TIFF OMITTED] 23829.127
    
    [GRAPHIC] [TIFF OMITTED] 23829.128
    
    [GRAPHIC] [TIFF OMITTED] 23829.129
    
    [GRAPHIC] [TIFF OMITTED] 23829.130
    
    [GRAPHIC] [TIFF OMITTED] 23829.131
    
    [GRAPHIC] [TIFF OMITTED] 23829.132
    
    [GRAPHIC] [TIFF OMITTED] 23829.133
    
    [GRAPHIC] [TIFF OMITTED] 23829.134
    
    [GRAPHIC] [TIFF OMITTED] 23829.135
    
    [GRAPHIC] [TIFF OMITTED] 23829.136
    
    [GRAPHIC] [TIFF OMITTED] 23829.137
    
    [GRAPHIC] [TIFF OMITTED] 23829.138
    
    [GRAPHIC] [TIFF OMITTED] 23829.139
    
    [GRAPHIC] [TIFF OMITTED] 23829.140
    
    [GRAPHIC] [TIFF OMITTED] 23829.141
    
    [GRAPHIC] [TIFF OMITTED] 23829.142
    
    [GRAPHIC] [TIFF OMITTED] 23829.143
    
    [GRAPHIC] [TIFF OMITTED] 23829.144
    
    [GRAPHIC] [TIFF OMITTED] 23829.145
    
    [GRAPHIC] [TIFF OMITTED] 23829.146
    
    [GRAPHIC] [TIFF OMITTED] 23829.147
    
    [GRAPHIC] [TIFF OMITTED] 23829.148
    
    [GRAPHIC] [TIFF OMITTED] 23829.149
    
    [GRAPHIC] [TIFF OMITTED] 23829.150
    
    [GRAPHIC] [TIFF OMITTED] 23829.151
    
    [GRAPHIC] [TIFF OMITTED] 23829.152
    
    [GRAPHIC] [TIFF OMITTED] 23829.153
    
    [GRAPHIC] [TIFF OMITTED] 23829.154
    
    [GRAPHIC] [TIFF OMITTED] 23829.155
    
    [GRAPHIC] [TIFF OMITTED] 23829.156
    
    [GRAPHIC] [TIFF OMITTED] 23829.157
    
    [GRAPHIC] [TIFF OMITTED] 23829.158
    
    [GRAPHIC] [TIFF OMITTED] 23829.159
    
    [GRAPHIC] [TIFF OMITTED] 23829.160
    
    [GRAPHIC] [TIFF OMITTED] 23829.161
    
    [GRAPHIC] [TIFF OMITTED] 23829.162
    
    [GRAPHIC] [TIFF OMITTED] 23829.163
    
    [GRAPHIC] [TIFF OMITTED] 23829.164
    
    [GRAPHIC] [TIFF OMITTED] 23829.165
    
    [GRAPHIC] [TIFF OMITTED] 23829.166
    
    [GRAPHIC] [TIFF OMITTED] 23829.167
    
    [GRAPHIC] [TIFF OMITTED] 23829.168
    
    [GRAPHIC] [TIFF OMITTED] 23829.169
    
    [GRAPHIC] [TIFF OMITTED] 23829.170
    
    [GRAPHIC] [TIFF OMITTED] 23829.171
    
    [GRAPHIC] [TIFF OMITTED] 23829.172
    
    [GRAPHIC] [TIFF OMITTED] 23829.173
    
    [GRAPHIC] [TIFF OMITTED] 23829.174
    
    [GRAPHIC] [TIFF OMITTED] 23829.175
    
    [GRAPHIC] [TIFF OMITTED] 23829.176
    
    [GRAPHIC] [TIFF OMITTED] 23829.177
    
    [GRAPHIC] [TIFF OMITTED] 23829.178
    
    [GRAPHIC] [TIFF OMITTED] 23829.179
    
    [GRAPHIC] [TIFF OMITTED] 23829.180
    
    [GRAPHIC] [TIFF OMITTED] 23829.181
    
    [GRAPHIC] [TIFF OMITTED] 23829.182
    
    [GRAPHIC] [TIFF OMITTED] 23829.183
    
    [GRAPHIC] [TIFF OMITTED] 23829.184
    
    [GRAPHIC] [TIFF OMITTED] 23829.185
    
    [GRAPHIC] [TIFF OMITTED] 23829.186
    
    [GRAPHIC] [TIFF OMITTED] 23829.187
    
    [GRAPHIC] [TIFF OMITTED] 23829.188
    
    [GRAPHIC] [TIFF OMITTED] 23829.189
    
    [GRAPHIC] [TIFF OMITTED] 23829.190
    
    [GRAPHIC] [TIFF OMITTED] 23829.191
    
    [GRAPHIC] [TIFF OMITTED] 23829.192
    
    [GRAPHIC] [TIFF OMITTED] 23829.193
    
    [GRAPHIC] [TIFF OMITTED] 23829.194
    
    [GRAPHIC] [TIFF OMITTED] 23829.195
    
    [GRAPHIC] [TIFF OMITTED] 23829.196
    
    [GRAPHIC] [TIFF OMITTED] 23829.197
    
    [GRAPHIC] [TIFF OMITTED] 23829.198
    
    [GRAPHIC] [TIFF OMITTED] 23829.199
    
    [GRAPHIC] [TIFF OMITTED] 23829.200
    
    [GRAPHIC] [TIFF OMITTED] 23829.201
    
    [GRAPHIC] [TIFF OMITTED] 23829.202
    
    [GRAPHIC] [TIFF OMITTED] 23829.203
    
    [GRAPHIC] [TIFF OMITTED] 23829.204
    
    [GRAPHIC] [TIFF OMITTED] 23829.205
    
    [GRAPHIC] [TIFF OMITTED] 23829.206
    
    [GRAPHIC] [TIFF OMITTED] 23829.207
    
    [GRAPHIC] [TIFF OMITTED] 23829.208
    
    [GRAPHIC] [TIFF OMITTED] 23829.209
    
    [GRAPHIC] [TIFF OMITTED] 23829.210
    
    [GRAPHIC] [TIFF OMITTED] 23829.211
    
    [GRAPHIC] [TIFF OMITTED] 23829.212
    
    [GRAPHIC] [TIFF OMITTED] 23829.213
    
    [GRAPHIC] [TIFF OMITTED] 23829.214
    
    [GRAPHIC] [TIFF OMITTED] 23829.215
    
    [GRAPHIC] [TIFF OMITTED] 23829.216
    
    [GRAPHIC] [TIFF OMITTED] 23829.217
    
    [GRAPHIC] [TIFF OMITTED] 23829.218
    
    [GRAPHIC] [TIFF OMITTED] 23829.219
    
    [GRAPHIC] [TIFF OMITTED] 23829.220
    
    [GRAPHIC] [TIFF OMITTED] 23829.221
    
    [GRAPHIC] [TIFF OMITTED] 23829.222
    
    [GRAPHIC] [TIFF OMITTED] 23829.223
    
    [GRAPHIC] [TIFF OMITTED] 23829.224
    
    [GRAPHIC] [TIFF OMITTED] 23829.225
    
    [GRAPHIC] [TIFF OMITTED] 23829.226
    
    [GRAPHIC] [TIFF OMITTED] 23829.227
    
    [GRAPHIC] [TIFF OMITTED] 23829.228
    
    [GRAPHIC] [TIFF OMITTED] 23829.229
    
    [GRAPHIC] [TIFF OMITTED] 23829.230
    
    [GRAPHIC] [TIFF OMITTED] 23829.231
    
    [GRAPHIC] [TIFF OMITTED] 23829.232
    
    [GRAPHIC] [TIFF OMITTED] 23829.233
    
    [GRAPHIC] [TIFF OMITTED] 23829.234
    
    [GRAPHIC] [TIFF OMITTED] 23829.235
    
    [GRAPHIC] [TIFF OMITTED] 23829.236
    
    [GRAPHIC] [TIFF OMITTED] 23829.237
    
    [GRAPHIC] [TIFF OMITTED] 23829.238
    
    [GRAPHIC] [TIFF OMITTED] 23829.239
    
    [GRAPHIC] [TIFF OMITTED] 23829.240
    
    [GRAPHIC] [TIFF OMITTED] 23829.241
    
    [GRAPHIC] [TIFF OMITTED] 23829.242
    
    [GRAPHIC] [TIFF OMITTED] 23829.243
    
    [GRAPHIC] [TIFF OMITTED] 23829.244
    
    [GRAPHIC] [TIFF OMITTED] 23829.245
    
    [GRAPHIC] [TIFF OMITTED] 23829.246
    
    [GRAPHIC] [TIFF OMITTED] 23829.247
    
    [GRAPHIC] [TIFF OMITTED] 23829.248
    
    [GRAPHIC] [TIFF OMITTED] 23829.249
    
    [GRAPHIC] [TIFF OMITTED] 23829.250
    
    [GRAPHIC] [TIFF OMITTED] 23829.251
    
    [GRAPHIC] [TIFF OMITTED] 23829.252
    
    [GRAPHIC] [TIFF OMITTED] 23829.253
    
    [GRAPHIC] [TIFF OMITTED] 23829.254
    
    [GRAPHIC] [TIFF OMITTED] 23829.255
    
    [GRAPHIC] [TIFF OMITTED] 23829.256
    
    [GRAPHIC] [TIFF OMITTED] 23829.257
    
    [GRAPHIC] [TIFF OMITTED] 23829.258
    
    [GRAPHIC] [TIFF OMITTED] 23829.259
    
    [GRAPHIC] [TIFF OMITTED] 23829.260
    
    [GRAPHIC] [TIFF OMITTED] 23829.261
    
    [GRAPHIC] [TIFF OMITTED] 23829.262
    
    [GRAPHIC] [TIFF OMITTED] 23829.263
    
    [GRAPHIC] [TIFF OMITTED] 23829.264
    
    [GRAPHIC] [TIFF OMITTED] 23829.265
    
    [GRAPHIC] [TIFF OMITTED] 23829.266
    
    [GRAPHIC] [TIFF OMITTED] 23829.267
    
    [GRAPHIC] [TIFF OMITTED] 23829.268
    
    [GRAPHIC] [TIFF OMITTED] 23829.269
    
    Mr. Souder. One, you were asked to collect data on 
grantmaking. Can you give us some idea of how much time you 
spent, whether that was useful, how we might look at fixing 
that. And the second is, do you work to evaluate the planned 
State and local government cooperation and did you do a report 
on that, when was it complete, and did you get any good 
information on that?
    Mr. Polito. Sure. The data collection, in my opinion, 
should have always been driven by OMB. They do that well on 
everything else. And having center directors and interns in our 
offices looking down sheets and saying faith-based, not faith-
based, was insane. And I think there could be a better process.
    My opinion is it should be a directive from OMB, the way 
that they direct TANF on how many case loads there are, or 
community health centers, how many people were served. 
Community health centers get funded by the amount of people 
that they serve. So it is not new to the Federal Government to 
count this kind of stuff. It just was a bizarre way of doing 
that.
    The second question?
    Mr. Souder. State and local, did you have that analysis?
    Mr. Polito. State and local. We did a report on that. 
Stanley actually helped us on that, did a great job on helping 
us on that report. I believe since my departure that report has 
been printed and can, I'm sure you can obtain a copy of that 
report through the Secretary or through the mechanisms at the 
department. The department owns that document, and it was our 
department's idea for the initiative that's the next new thing 
that we really need to address, is how do we really get into 
State and local funding. We counted 80 percent of our funds go 
out in block grants.
    So to focus on a $50 million Compassion Fund or even 20 
percent discretionary funding, let's look at the 80 percent of 
block grant funding and see what we can do to influence the 
process of who gets that money, how that money is disbursed, 
helping our small, local folks understand that process and 
point them in those directions, training State and local 
administrators, TANF officials, for example, on how they could 
encourage smaller players and faith-based players into that 
process I think is where this initiative really needs to go 
next.
    Mr. Souder. Thank you. I will have a couple more followup. 
I will yield to Mr. Cummings.
    Mr. Cummings. This is a very interesting line of 
questioning. I am trying to figure out, let me break it down 
another way. Let's say I am an African-American church, have 
5,000, 6,000 members, I am not presently in the drug treatment 
area, but I hear about money available and I come to you. What 
happens there? I mean, I call there trying to figure out--what 
would happen?
    Mr. Polito. I would invite you, if you are from Baltimore, 
I would either invite you to come down to my office and we 
could have it out, talk it through, or I could send somebody to 
Baltimore to do a site visit. We have done that at times. Most 
of the time, if people are in town, we would meet with them. We 
pretty much help the organizations decipher what they do and 
who do they serve. If you can answer those two questions, I can 
tell you about a grant that's available. What do you do, who do 
you serve.
    Mr. Cummings. What about what will I do? Because don't 
forget, what I have said is, it is a person that they aren't 
even in it yet. They hear about this money and they know that 
the money is out there. So they say, well, let me see if I can 
get some of this flowing to my church, or----
    Mr. Polito. I understand what you are saying. Most churches 
in that capacity, a 5,000 member African-American church does 
stuff other than church. And a lot of that stuff is fundable at 
our level. You don't have to create a new program to get 
funded. That would be my posture with you, what do you do 
already and who do you serve, do you serve TANF-eligible 
clients, do you serve single moms, do you serve AIDS victims, 
who do you serve. Because I want them to show me their 
experience in doing that, and then I will give them, they will 
leave with an understanding of how to apply, who to apply to 
and when to apply.
    Mr. Cummings. All right, now, let's take it, I want to get 
to the 1,700 folks, and folks that I think Mr. Souder--I don't 
know, I am trying to figure out, he talked about smaller. You 
talked about smaller, you are talking about the 1,700 smaller 
churches. Now, we have that one church, they are in business, 
they get a nice grant. And then three smaller churches, in my 
district there is a church on almost every corner. So they hear 
about the big church, they want to be like the big church.
    So then they get together, the four or five other churches 
and they say, look, we know you just gave the big church some 
money, how do we get money, because we want to be like the big 
church. What I am getting to is this subcontracting concept 
that you just talked about. I had never even heard of that. 
Explain that to me.
    Mr. Polito. OK. In the Compassion Fund, it was decided by 
lots of different folks that we would fund large, what we call 
intermediaries or go-betweens to then sub-grant out to the 
small guys. So in a sense, the large church would get the block 
of the money, but it was mandated that they give away half of 
it to smaller churches. They would run a competition program 
that we would approve on how they are going to disburse out 
that money. Because we didn't think quickly, at least in the 
first year, we didn't think that those small storefront 
churches would be successful in applying for a large Federal 
grant.
    Mr. Cummings. And who was training those small churches?
    Mr. Polito. That big church. That's what we paid them to 
do, to train them, to give them a sub-grant and then eventually 
help them go get the grant for themselves.
    Mr. Cummings. And so who would measure their progress? In 
other words, most Government things, there is some kind of 
measurement. How was their progress measured? One of the things 
that I have seen is people who have gotten Federal money go to 
prison--let me finish--when they didn't do what they were 
supposed to do with the money. Now, where is the accountability 
in that formula? Is it the big church? Is it still within the 
Federal Government? Where is the accountability coming in?
    Mr. Polito. The program sits under the administration for 
Children and Families. It sits in a program office, not the 
White House, not the Secretary's office, so that it could run 
like all the other programs at ACF. So Wade Horn and his staff 
have Federal accountability over those programs, and they run 
those programs the same way they run all the other programs.
    But they hold first the large group accountable and then 
the smaller group accountable, because their relationship is 
with the big group.
    Mr. Cummings. OK, now, I guess it was Mr. Kuo, when the 
decisions go down with regard to whether these--it seems that 
there has been some targeting toward Black churches, is that 
right, would you agree with that?
    Mr. Kuo. Explain what you mean.
    Mr. Cummings. African-American churches, in other words, 
trying to appeal to African-American churches, that is with 
these faith-based efforts. Come on, Mr. Kuo, now, please.
    Mr. Kuo. The answer----
    Mr. Cummings. Please, sir, I have been an elected official 
for a long time. I see what is happening. You know what is 
happening.
    Mr. Kuo. Excuse me?
    Mr. Cummings. Let me tell you. I will tell you what's 
happening, just in case you don't know.
    Mr. Kuo. Why don't you let me answer the question first, 
sir?
    Mr. Cummings. OK, you acted like you didn't know what I was 
talking about.
    Mr. Kuo. No, sir, I know what you are talking about.
    Mr. Cummings. Oh, all right.
    Mr. Kuo. What you asked is, the implicit question you are 
asking is, did the White House hand out money to Black churches 
to buy votes. That is really what you are asking. The answer 
is, no.
    Mr. Cummings. That is not what I was asking.
    Mr. Kuo. The White House, what we set out to do in the 
Office, sir, was to try and educate, we tried to do whatever we 
could given the extraordinarily tight parameters that we had. 
Because the fact of the matter was, very few people in the West 
Wing cared a jot or tittle about this initiative. The biggest 
press this got was when Members of your caucus, Members of the 
Democratic Party, critics like Americans United for Separation 
of Church and State, would launch these large attacks against 
it saying how much was being done, how radical it was, how 
really crazy it all was.
    And we would laugh, because in the Office, we know how 
little was being done. We started a set of conferences around 
the country, because it was one way that we could go and try 
and fulfill the President's vision. And the President's vision, 
as Bobby just talked about, was to try and educate small social 
service organizations about how to apply for Government funds.
    Now, we were specifically targeting organizations that 
served people who were drug addicts, who were alcoholics, who 
needed job training, who did day care, who did mentoring for 
children of prisoners. Fortunately, most of the people who do 
that are people of faith. Because they are the ones who are 
motivated to do it. Most of the ones who do that well happen to 
be African-American churches and Hispanic churches.
    That just happens to be the demographic. This was not done 
intentionally to reach out to African-American or Hispanic 
churches. It was done because those are the organizations that 
serve those populations.
    Mr. Cummings. Well, did it make, was it a big deal when 
suddenly an African-American pastor of a large church, just 
before the election, comes around who used to be a head 
Democrat, now decides to, he just so happened to get a 
substantial grant, by the way, so now he decides that he is 
going to be, have a conversion and become the No. 1 person for 
the President?
    Mr. Kuo. Of course that has political appeal. We live in 
Washington, right? Pure motives are really hard to find. Every 
politician that I know of does something that they think is 
right, but they are happy that there are political benefits 
that happen because of it.
    Mr. Cummings. So you are saying that is one of the reasons 
for the program?
    Mr. Kuo. Was it one of the reasons for the program, was it 
for political benefit?
    Mr. Cummings. Yes.
    Mr. Souder. For the record, he already said that some 
people used it for political benefit. But that is different 
than saying why the program was created.
    Mr. Cummings. I understand.
    Mr. Kuo. I do not believe, to the core of my being, that 
this program was created for political benefit.
    Mr. Cummings. But it turned out to be, to be political 
benefit?
    Mr. Kuo. There were political benefits that were derived. 
Absolutely.
    Mr. Cummings. And what I was asking you for, what I was 
asking you is that you said that the White House, it didn't 
mean a hill of beans, whatever you said, a tick or whatever, 
what did you say? I had never heard that term.
    Mr. Kuo. Jot or tittle.
    Mr. Cummings. Jot or tittle.
    Mr. Kuo. It is technically in the Bible.
    Mr. Cummings. Oh, OK. All right. A jot or tittle.
    Mr. Kuo. King James Version. [Laughter.]
    Mr. Cummings. King James Version, all right. Amen. 
[Laughter.]
    Mr. Kuo. He speaketh correctly.
    Mr. Cummings. Anyway, what I am asking you is, then that 
must have meant something to somebody in the White House. You 
said it turned out that they had political advantage, you get 
this pastor, Sunday before election, who has never supported a 
Republican, he jumps and says, I love the President, support 
him, I've had this conversion. In other words, did you get any 
brownie points, I guess, in your Office?
    Mr. Kuo. I left the White House in December 2003.
    Mr. Cummings. Do you think you would have gotten some?
    Mr. Kuo. We left the White House in December 2003. I can 
tell you that the West Wing was more pleased with White House 
conferences that went out and talked to tens of--or brought in 
tens of thousands of people than it was with any other single 
thing that we did.
    Now, if you go and you look at where those conferences were 
held, I think you will get some sense of the answer, because a 
lot of those conferences were held in States like Ohio, 
Pennsylvania, Missouri, and the ones that were not held in 
those States were held in places like Boston, because you could 
hit both Maine and New Hampshire at the same time. [Laughter.]
    So the answer is, yes, there was a political benefit to be 
derived. But here is the other fact, which is, every major 
urban center was targeted with these conferences. It would be 
really easy, I think all of us want to be able to say, it is 
all this or it is all that. It is all good or it is all bad. I 
wrestled for a year and half with whether to say anything at 
all. I want to be able to say yes or no. I can't.
    Mr. Cummings. I understand. Is it Polito?
    Mr. Polito. Correct.
    Mr. Cummings. Mr. Polito, going back to what you did, what 
I am confused about, I am trying to figure out, so in today's 
world, there would be an advantage, you talked about these 
little organizations, small churches that may not have had the 
expertise to do certain things, right? You talked about that. 
And that is one of the reasons why you felt that you all were 
significant to them.
    Mr. Polito. Yes.
    Mr. Cummings. Well, I have a whole lot of organizations in 
my district that are not faith-based that would love to have an 
opportunity to get involved in some of these things. Do we have 
comparable programs for them? In other words, if I called you 
and I said, look, I am not a faith-based guy, I am an atheist, 
say somebody called and said, I am an atheist. But I want to do 
some drug counseling. What would you do then?
    Mr. Polito. I would honestly, sir, ask the same two 
questions that I ask the pastor: who do you serve and what do 
you do. And if you can answer those two questions, I can direct 
you to the Federal grant at HHS that does that. I could tell 
you the day and time it comes out that you have to apply to it, 
I could tell you the three conferences around the country that 
those bureaucratic career staff run those conferences to get 
people to come so they can learn.
    The problem with the atheist or the church, if they are not 
a player in Washington, if they do not have a Government 
relations office here, or if they do not read the Federal 
Register every day, they do not know that stuff. And the 
Federal Government has not been very good about announcing that 
stuff. So that was the value that I saw in my office, was to be 
a place where somebody, anybody could walk in and say, this is 
who I serve, this is what I do, is there any assistance for a 
group like that in this bureaucracy, and I would be able to 
answer that question for them.
    Mr. Cummings. And so would that person, the person who was 
a faith-based organization, with the faith-based organization, 
they would have to some degree, some advantage I guess, because 
there is supposedly some money set aside, is that supposed to 
be?
    Mr. Polito. No. That is the big mystery, that there has 
never been any money set aside----
    Mr. Cummings. And that is the interesting thing, because 
that is what people think.
    Mr. Polito. Right.
    Mr. Cummings. That is what people think. The question 
becomes, who put that out there?
    Mr. Polito. I don't know.
    Mr. Cummings. Because let me tell you something. Let me 
tell you. Everywhere I go, people say, gee, that was really 
nice of the President to put all that extra money out there for 
faith-based. I am assuming that is not just falling from the 
sky.
    Mr. Kuo. May I respond, sir?
    Mr. Cummings. Yes.
    Mr. Kuo. The answer is, the White House has put that out 
there. Now, earlier, I believe it was Representative Owens who 
said, there's $2 billion or $3 billion now going to faith-based 
groups. Earlier, Representative Green said that's a 20 percent 
increase from year over year. The problem is, the data on which 
that is based would not stand up to any scrutiny. The reason 
that we tasked Bobby Polito and the other centers to come up 
with data was to cover ourselves, because the President's 
promise of $8 billion a year in new spending and tax incentives 
had not come through and because we wanted to have a figure 
that was out there.
    Now, the reason that the figure is out there now is because 
no one had ever asked it before. We still do not know how 
accurate those figures are. Those figures are not very 
accurate.
    But the point is that in talking to any number of social 
scientists, any number of people who have looked at the field 
of faith-based initiatives the last 20 years, they say, well, 
probably the $2 billion or $3 billion figure that they came up 
with this year, that is probably lower than it was 10 years ago 
or 15 years ago, simply because the pot of money is smaller.
    Mr. Souder. Let me add something to that. When I was 
Republican staff director of the Children and Family Committee 
years ago, in the early 1980's, we had a staffer, Dr. Jim 
Gimple, who now teaches at the University of Maryland, who went 
through the Hobbes Report. Everybody acts like this stuff is 
new. But Hobbes had looked at this under Reagan, when he was 
Governor of California, and when he came to Washington, he 
looked at the private sector groups. They put out 100 groups 
that were supposedly free of Government that were doing 
charitable work, mostly faith-based.
    But it is faith-based and community organizations, 
Congresswoman Watts had asked the question earlier, why is 
community in there. Well, that is why. It is a Compassion 
Capital Fund for faith-based and community-based organizations. 
It isn't just faith-based.
    But when he went through, he found that 33 percent of the 
people in Hobbes' report got more than half the funding from 
Government sources, Federal and State. Even back in the early 
1980's. So while there are wrinkles to today, there has been so 
much political spinning it is hard to get down here and figure 
out how to do a bill, how to sustain this. Because it has 
actually been part of the U.S. Government for a long time.
    Yes, we have a battle over one sub-part of should churches 
that only hire inside their faith be part of this program. But 
that is different than whether there should be a program----
    Mr. Cummings. Yes.
    Mr. Souder [continuing]. And how it is set up and how we 
reach minority groups that are too small.
    And I could add one more thing. One of my frustrations, and 
I want to make sure before we close this panel that Dr. 
Carlson-Thies can respond to this, about at the State and local 
level and the Federal level, we do this in other categories. In 
SBA, when I was a graduate student, through SCORE and though a 
program through graduate business schools, we went out, when 
people would apply to Small Business Administration for loans, 
we as graduate students would go out and do an analysis.
    The SCORE centers are retired executives who go out and do 
analyses. We have small business centers in the urban areas 
where they will share a phone, where they will have the 
information books with which to go and help small businesses 
seek grants, that when we do defense contracting, in my area we 
have set this up for defense contractors, because it is hard to 
figure out defense contracting.
    Why has there not been a sub-structure of setting up for 
social service agencies pooled centers, like incubation 
centers, where there is information, where it is free, it does 
not depend on who you know, it is public, it is there, anybody 
can have access to it. Because right now, when we were doing 
these field hearings, up until our second to last one in Los 
Angeles, we didn't even discover the main intermediary 
organizations that you were working through, the big one in 
Philadelphia, the Hispanic group there. And there was one in 
Colorado.
    It took us a year and a half with professional staff, with 
me knowing the subject for 20 years, to figure out the pattern. 
Now, how in the world is somebody on the street going to figure 
out this pattern unless there is a substructure that is set up 
that is gradual? Yes, we do not have enough money to do it 
rapidly.
    But a substructure that is set up much like we do other 
categories of Government to encourage, I mean, that's how we 
had the $1,000 toilets and the $500 hammers, because only a few 
people who were traditionally bidding did it. Unless you can 
get more people bidding to do drug treatment, unless you can 
get more people who are bidding to do juvenile delinquency, it 
is just like Reverend Rivers says, you can tell who is getting 
it, because they come in, into the urban center, and leave at 
5:30. Because if you only have one or two people bidding, then 
you are not going to have this diversity. It doesn't mean that 
you are going to get the money.
    But what Mr. Polito is saying is, we need more basically 
bidders. The more bidders we get, the better services we will 
get, because you will have less overhead and less corruption.
    Mr. Cummings. I've got you.
    Mr. Kuo. Mr. Chairman, if I might?
    Mr. Cummings. Go ahead, please.
    Mr. Kuo. If I might also add, there is a need for more 
bidders, but there is the objective need for a significant 
influx of funds. Because the core argument that Governor Bush 
made was that this conservatism was not going to be the leave 
us alone coalition, we don't need a social safety net, it was 
not going to be the Government can solve it all. It was going 
to say, we need more money, but we need it to go to the best 
groups.
    Again, this 1,700 group figure, the amount of money these 
1,700 groups got, what, $5,000, $10,000? We are not talking 
about very large sums of money here. We have very tiny sums of 
money. For political purposes, it sounds great for the White 
House to have $3 billion out there, 1,700 groups out there, it 
sounds good, it looks like all of this stuff is being done. And 
the sad part about it is that everybody who works in the Faith-
Based Office is sad about it. The Faith-Based office has done 
an extraordinary job working against the White House.
    Mr. Souder. Dr. Carlton-Thies has something to say about 
it.
    Mr. Cummings. Please.
    Mr. Carlton-Thies. If I may just say one or two things. I 
believe that long before the centers and the White House 
started counting the number of dollars, in their inaccurate 
way, there was this rumor around about money floating out 
there. I think it is partly because, when you start talking 
about faith-based groups have been excluded, now there is going 
to be an effort to include faith-based and also community 
groups, then everybody says, well, what does that mean. Well, 
everybody thinks that must mean, you create a budget for them, 
to include them.
    But instead, this was an effort to make sure that in 
existing programs they would have a fair shake. But that 
doesn't sound very interesting to very many people. So I 
continually got asked by reporters about the $80 million or $50 
billion or whatever that supposedly was out there. So that 
rumor has been around for a long time. It is because of a 
certain conception of what this is all about, that it is 
targeted money for religion, that I think is inaccurate.
    When it comes to counting, one of the reasons why it has 
been difficult, I think, is because early on, when we talked, 
the Faith-Based Office talked with OMB about getting some 
statistics, we realized that the Government does not ask 
organizations if they are faith-based or not. So we thought, 
one thing we could do is try to devise some definition, because 
everybody wants to know how much money goes to faith-based 
organizations.
    But any definition that anybody talked about was so legally 
problematic. That is to say, there was a worry on the part of 
OMB and I think the White House and certainly the White House 
Office of Faith-Based and Community Initiatives, that if grant 
managers could identify the groups that were faith-based who 
were applying, they would either steer money toward them if 
they were favorable or steer it away if they were against them, 
and that would not be a good thing for the competitive process.
    So an effort to draw up a definition of faith-based that 
could be used to gather statistics was turned down in 2001. So 
the consequence is that interns sit around and look at the 
names of organizations and say, well, this one must be 
religious, this one isn't. And they are bogus numbers. But it 
is partly for Constitutional reasons, that is to say that the 
Government ought not to be going out there and selecting out 
faith-based groups to give them money. So we do not know if 
they are faith-based or not in any reliable way.
    Mr. Cummings. So therefore, making statements that we have 
given X amount of dollars to faith-based organizations sounds, 
just based on what you just said, it has to be inaccurate, 
because basically what you have said is it is impossible to 
count.
    Mr. Carlson-Thies. I would say it is not probably a proper 
question to ask in any case. Because if the faith-based 
applicant is a great competitor, they ought to get the money, 
and if they are not, they should not.
    Mr. Cummings. But my point is a much higher point than what 
you just made. What I am saying is that there is this 
perception out there, numbers have been thrown out, this is the 
first time I have ever heard of the 1,700. You could come in 
here and say, look, we have serviced 10,000. And if there was 
no way to even know that they were faith-based organizations, 
what my point is, how could you even make the assertion? That's 
all.
    Mr. Carlson-Thies. Although I think the 1,700 applied to 
the mini-grants that have been given to small organizations.
    Mr. Polito. We could count that. We could count that. We 
can count how many mini-grants went out. That is not hard to 
count.
    Mr. Cummings. What do these people do with $5,000? I'm 
sorry?
    Mr. Polito. These are small grants for capacity building, 
buy a computer, get some training so that you could figure out 
the grant system, improve your management structures. These 
were not operating grants, by and large, to provide services. 
These were to buildup the capacity of the organization.
    Mr. Cummings. So these were not operating grants. Some 
people went out and bought some computers.
    Mr. Polito. They increased their capacity to be able to 
offer services.
    Mr. Cummings. Say that again?
    Mr. Polito. They increased their capacity to be able to 
offer services. They could now better compete for private 
funds, Government funds, they could run their programs 
according to Federal standards because they had better 
accounting, things like that.
    Mr. Souder. One of the problems you have with a lot of 
street organizations is little churches and little community 
organizations, unlike big suburban churches, often don't have 
CPAs there, they do not have attorneys there, they don't even 
know what books are there. Part of it is just to do capacity 
building.
    Mr. Cummings. Mr. Souder didn't know this, Mr. Souder, my 
mother pastored a church that started off with seven people. So 
I know about small churches. [Laughter.]
    Mr. Souder. My church had 100 in it, and I thought I was a 
big church.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. Ms. Foxx, do you have any questions for this 
panel?
    Ms. Foxx. No, thank you, Mr. Chairman.
    Mr. Souder. I want to thank particularly Mr. Kuo, if your 
wife was watching, she might have had the baby just watching us 
question you. But I know she's overdue and I appreciate your--
--
    Mr. Kuo. I kept the phone on. [Laughter.]
    Mr. Souder. Thank each of you. We will be doing some 
followup written questions and probably verbal questions. This 
has been a fascinating discussion, a very challenging question 
as we try to move ahead with this and make sure that the whole 
concept has legs. Thank you all for your years of service in 
this.
    We will go to the third panel. Thank you all for your 
patience.
    If you will all please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Once again, I appreciate your patience, and we are going to 
start with Mr. Gregg Petersmeyer, vice chairman, Board of 
Trustees, at America's Promise, and also served on the senior 
White House staff under George H.W. Bush, Bush 41, and was the 
founding person of the original Points of Light Office. Thank 
you for your years of leadership in public and community 
service.

   STATEMENTS OF GREGG PETERSMEYER, VICE CHAIRMAN, BOARD OF 
 TRUSTEES, AMERICA'S PROMISE; BOB WOODSON, PRESIDENT, NATIONAL 
CENTER FOR NEIGHBORHOOD ENTERPRISE; DENNIS GRIFFITH, DIRECTOR, 
TEEN CHALLENGE IN SOUTHERN CALIFORNIA; RABBI DAVID SAPERSTEIN, 
   DIRECTOR, RELIGIOUS ACTION CENTER OF REFORM JUDAISM; AND 
    REVEREND C. WELTON GADDY, PRESIDENT, INTERFAITH ALLIANCE

                 STATEMENT OF GREGG PETERSMEYER

    Mr. Petersmeyer. Thank you, Congressman. Thank you very 
much for inviting me to testify.
    My remarks and experience relate to the value of a 
permanent White House office on community initiatives, not in 
any way limited to faith-based initiatives. I look forward to 
responding to your questions, but first I would like to offer a 
brief opening statement framing two issues that I believe are 
relevant to your consideration of a permanent White House 
office.
    First, if the current President and his two immediate 
predecessors are guides, it is safe to say that the future 
Presidents will bring their own perspectives to this work. 
However, I believe we can frame useful principles that might 
underpin a permanent White House office focused on community 
initiative.
    Second, with respect to Presidential leadership in this 
area, I believe it is useful to think about the President more 
in his role as national leader than as Federal leader. By that, 
I mean primarily as a leader of the Nation rather than as Chief 
Executive of the Federal Government.
    When I came to Washington to join the White House staff in 
January 1989, I had known the President for almost 20 years and 
had every reason to believe that he shared several fundamental 
beliefs with me. One was that America is a Nation of 
communities. And if America is to be a great Nation, it has no 
choice but to be a Nation of great communities.
    A second belief was that within the tens of thousands of 
communities that make up America, very, very serious challenges 
exist. Last, we believe that while the ability to overcome 
these challenges far exceeds the capacity of Government alone, 
and even Government in combination with market forces, it does 
not exceed our national capacity, the potential energy and 
talent of millions upon millions of Americans of all ages, 
acting purposefully both as individuals and as leaders and 
members of organizations in every community across America. 
This speaks more about what kind of Nation we are and more 
about the quality of the American civilization than about what 
kind of government we have.
    Following his inauguration in January 1989, the only two 
structural changes President Bush made in the organization of 
the White House were to establish a White House office to 
strengthen the President's leadership of the civic engagement 
of Americans in the Nation's problemsolving, and to commission 
an assistant to lead that work. The objective of that new 
office, and my work as that assistant to the President, was to 
increase the volume and effectiveness of the work of citizens 
in helping to solve serious social problems in the tens of 
thousands of communities that exist across America.
    The actual strategy that the first Bush White House used 
was a classic strategy of a movement. The focus was the public 
beyond Washington, not office holders within the Federal 
Government. The strategy had five parts. First, changing 
attitudes in ways that would call every American to engage in 
helping to solve our most critical social problems and that 
would convince all Americans that a life which includes serving 
others is meaningful, adventurous and successful.
    Second, identifying what works and bringing that news to 
places everywhere. Third, discovering, encouraging and 
developing leaders from all walks of life who could lead by 
example and lead others forward. Fourth, reducing volunteer 
liability so that one of the key fears of engaging in voluntary 
activities would not have a deterrent effect on people acting 
on the call they heard to help others.
    And finally, building supporting infrastructure within 
every community to link people who care and their institutions 
to people in need. To carry out this strategy, new or reformed 
institutions were necessary. As you can see in my prepared 
statement on exhibit A, we created four institutions during 
that 4-year period: The White House Office of National Service 
in 1989; the Points of Light Foundation in 1990; the Commission 
on National and Community Service in 1991; and the National 
Center for Community Risk Management and Insurance in 1992. The 
four institutions were unified by a common vision, but had 
individual missions and distinct strategies and programs that 
together worked to achieve that shared vision.
    If the current President and his two immediate predecessors 
are guides, I think it is safe to assume that, as I said, they 
will bring their own perspectives to this work. I believe, 
however, that the beliefs which guided the establishment of the 
first White House Office on National Service and the principles 
which comprised the movement-based strategy we developed should 
be included among the underpinning principles of future 
initiatives. I believe a permanent White House Office should 
reflect the fact that the vast majority of Americans support 
the best contributions of each of the last three Presidents of 
the United States and the Congress in this area.
    However, most important of all, in considering a permanent 
White House office, I would argue, is that the President has 
two important domestic roles to help the Nation achieve key 
objectives. One role is to be the Chief Executive of the 
Federal Government. The other is to be the leader of the 
Nation. The establishment of this office would help the 
President fulfill this second role.
    Rather than being focused on the capacity of the Federal 
Government to create programs to assist communities, former 
President Bush's work in this area was focused on the capacity 
of individuals and organizations across the Nation to create 
and advance their own community-based solutions. That is what I 
mean by the President acting more in his capacity as the leader 
of the Nation, rather than as leader of the Federal Government.
    It was about calling everyone to think differently about 
themselves and one another, about making room for people to 
step forward, about leading one another by example, about 
recognizing that every problem is being solved somewhere, about 
honoring people in the application of their personal gifts for 
the benefit of others. It is part of why we used the Point of 
Light metaphor and instituted the first daily recognition 
program by a President in American history.
    Far from preaching to people about what they should do, 
which of course nobody likes or responds well to, this tactic 
sought to influence by example, to encourage everyday Americans 
to reveal to one another what is possible by the evidence of 
their own experience. This was the strategy because it is the 
only way to really build the volume of people working, to 
discovering and releasing the human energy required to actually 
solve some of the most pressing challenges facing tens of 
thousands of communities.
    At the very time when there was ever-increasing focus on 
credentialism and the need for more professionals, ours was a 
strategy that called for far more amateurs to step forward and 
help. There is simply no other way for us as a Nation or as a 
people to reach the volume of community engagement that is 
necessary to overcome our challenges.
    I believe that the power of culture has far more influence 
than that of politics on the behavior of individuals in 
communities. Every President can and should play the 
indispensable role of helping the culture define one of the 
most powerful ideas there is; namely, what it means to live a 
successful life. It will always be all the more powerful if 
that definition is framed by the President to include serving 
others, and if the President calls relentlessly on all people, 
wherever they live, to serve others to the best of their 
ability.
    That is why in the very early days of the former 
President's Presidency, I drafted for him a sentence that by 
President Bush's own admission he publicly stated more than any 
other during his Presidency; namely this: ``From now on in 
America, any definition of a successful life must include 
serving others.''
    I would close by offering a final comment. At a time of 
deep partisanship in this city, with no change in sight, 
community initiatives is a dimension of American life that 
could hold the greatest promise for bringing us together. I 
know that the American people who live in the tens of thousands 
of communities of this country believe we can all do much 
better as a Nation and as a people in working together in our 
communities.
    I look forward to responding to your questions.
    [The prepared statement of Mr. Petersmeyer follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.270
    
    [GRAPHIC] [TIFF OMITTED] 23829.271
    
    [GRAPHIC] [TIFF OMITTED] 23829.272
    
    [GRAPHIC] [TIFF OMITTED] 23829.273
    
    [GRAPHIC] [TIFF OMITTED] 23829.274
    
    [GRAPHIC] [TIFF OMITTED] 23829.275
    
    [GRAPHIC] [TIFF OMITTED] 23829.276
    
    [GRAPHIC] [TIFF OMITTED] 23829.277
    
    [GRAPHIC] [TIFF OMITTED] 23829.278
    
    [GRAPHIC] [TIFF OMITTED] 23829.279
    
    Mr. Souder. Thank you. Our next witness is Mr. Bob Woodson, 
president of the National Center for Neighborhood Enterprise.
    I want to make a brief statement about him at this point, 
because it illustrates several things. When I first came to 
Washington with the Children and Family Committee and heard 
about some of his work, and he treated me with moderate disdain 
and basically said, you are not going to be another one of 
these guys who comes in here and pronounces on the problems of 
our urban centers and does not look for the good stories. You 
need to go out and see the success stories. I said, OK, 
introduce me.
    And I think the particular word was, don't be another White 
guy who sits on his duff pronouncing what's going on in our 
urban centers. [Laughter.]
    The challenge there, there are a couple of interesting 
things about that. That was 1985, nearly 20 years ago, meaning 
this stuff is not brand new, this debate, and that you have 
been working with it a long time. Second, even as Mr. 
Petersmeyer came in, this was before the Points of Light. In 
effect, you didn't tell Points of Light, he said, go find the 
Points of Light and build that.
    And as we look at how we are going to continue this and 
work through it, I first wanted to pay tribute to you and also 
illustrate in several ways that what we are debating today, as 
we heard from the first witnesses and we are about to hear 
again, this is kind of old news. What we are doing is packaging 
it in new forms.

                    STATEMENT OF BOD WOODSON

    Mr. Woodson. Thank you, Congressman. Let me also say that 
you are a breath of fresh air in this Congress, one of the few 
people over here that puts principles above party and ideals 
above ideology. I want to applaud you for that, and I am 
honored to have an opportunity to present my testimony.
    The National Center for Neighborhood Enterprise, which I 
founded 23 years ago, we have served about and trained about 
2,000 grassroots leaders in 39 States, dating back to 1981. We 
are deeply supportive of the President's faith-based 
initiative. You know that in the history of it, in 1994, the 
104th Congress convened and asked the National Center to bring 
the views and opinions of grassroots leaders to the table. It 
was based upon this that the Community Renewal Act was signed 
into law by President Clinton.
    In June 1995, the Texas Teen Challenge chapter was attacked 
by the State regulators under then-Governor Bush. We were able 
to reach the Governor with our concerns, and as a consequence, 
he convened a task force to look at barriers to faith-based 
organizations. Within 6 months, he signed into law a rule that 
exempted the 200 faith-based drug and alcohol treatment 
programs in the State of Texas from State law.
    None of those groups received a dime of State money. But 
the State was still trying to regulate them out of business 
because they didn't have trained professionals as drug 
counselors, they were using ex-drug addicts as counselors, and 
they were, as one evaluator from the State said, what you're 
doing is better than anybody than I have seen, but you're doing 
it the wrong way. [Laughter.]
    So the deal that was cut then is that the Teen Challenge 
and the other groups would not compete for State funds, so they 
were not interested in the money, they just wanted government 
off their backs. So we offered this advice later on to then-
candidate Bush, and as a consequence, we were there at the 
beginning of the Faith-Based Office.
    But as someone we were, however, most disappointed in, the 
thrust of the Office when they emphasized grants. I would 
cringe every time I would hear the President speak of the 
faith-based initiatives as an attempt to get Government money 
directly into faith-based organizations.
    This was not the reason that we came to the table. What we 
wanted Government to do was use the bully pulpit to end the 
discrimination that not only Government has toward faith-based 
groups but also corporations. I have spoken to about 1,000 
heads of foundations and corporate giving officers in this 
country. When you ask them how many contribute a dime to faith-
based groups, about 20 percent of them will raise their hands.
    And when you ask the others, well, why don't you 
contribute, they say, because of separation of Church and 
State. I say, you're not the State, you're a private entity. 
But that's how pervasive the discrimination is in the 
marketplace against supporting things of faith.
    So we hoped that the President would use the bully pulpit 
to go and speak to some of these corporate leaders and say to 
them, you should support faith-based groups.
    But let me give you some idea of what is missing in this 
whole dialog. Many of the groups, as I said, we support, want 
the discrimination against these groups. And Mr. Cummings, you 
know, as a veteran of the Civil Rights movement, as I am, that 
one of the ways that we discriminate is develop surrogate ways 
of discriminating, like a poll tax or literacy tax to prevent 
people from coming to the polls.
    Well, the same moral equivalent exists in many of the 
cities. For instance, in the whole issue, we believe that what 
this administration should support are tax credits, as Mr. 
Souder said. We were appalled that the administration did not 
support it, because that is what our groups want, tax credits 
to empower individual givers to give to people in those 
communities. Seventy percent of all American taxpayers have a 
tax liability of between $300 and $500. Low-income people give 
a higher proportion of their income to charity than rich 
people. That means that if you had tax credits, people could 
give directly without any church-State issues.
    The second point we emphasize was vouchers, like food 
stamps or the G.I. Bill of Rights, where the individual is 
empowered to select a provider, rather than the Government 
selecting the provider and funding it. We think the provider 
ought to be selected by the people suffering the problem. The 
customer should select the provider, not some Government or 
entity selecting it.
    But what has happened, and I just want to rattle off a few 
of these barriers. Food stamps. A lot of our groups don't want 
money, but individuals receive food stamps. Right now, under 
this administration, many of our groups, like Teen Challenge 
and others in States, have been told that because they are not 
sanctioned or licensed by the State, they are prohibited from 
continuing to receive food stamps. We are continuing to try to 
get clarity on that, and that makes a big difference.
    Another is one of the Government programs forbids the grant 
recipients from hiring ex-offenders who are coming out of 
prison. Now, on the one hand, the Government is saying to the 
business community, we want you to hire ex-offenders, but yet 
you can't hire them on Government money. So that's a barrier.
    The third barrier has to do with giving the choice to the 
drug addict and the offender. For instance, under the old 
administration, it is interesting, ironically, under the 
Clinton administration's policies, if a person came to the door 
of a faith-based group and said, I am an alcoholic, and I want 
help, and they said, well, if you want to accept help here, 
you've got to take the bed and the Bible. Under the old 
policies, that person would be given another option, saying, 
you can go down the street to the secular program, and that was 
acceptable.
    This administration, through Executive order, changed that 
to say that if a person comes to the door and says, I want the 
bed but not the Bible, you must offer it. And this has had a 
crippling effect. The other barrier is on access to recovery, 
they required any organizations that received access to 
recovery voucher, has to be licensed by the State and have 
certified people. This is a big barrier, and I have to take 
issue with Congressman Cummings, who assumes that certification 
is the same as qualification when it comes to treatment of 
people.
    The very fact that there are 55 public agencies that hire 
exclusively people with masters degrees to take care of 
children are facing court-ordered receivership because of 
incompetence. There are studies that I point to in my testimony 
of some of the initiatives that were developed by well-trained 
people, for instance, a 5-year effort to discourage kids from 
taking drugs that was developed by NIH's behavioral scientists, 
all Ph.Ds. Well, a study last year revealed that the children 
that were viewing these ads on television had a higher 
incidence of drug and alcohol abuse as a consequence. I am on 
the NIDA board, I can send you that study that NIDA has 
produced.
    So it seems to me that what the Faith-Based Office, if it 
is to truly serve the people, it should really do something 
about these barriers. Let me just offer some recommendations. 
The first is the White House Office should act as an ombudsman 
for faith-based and community organizations around the country, 
and play an active role in solving and resolving some of these 
regulatory barriers that prevents them from participating.
    Second, we should de-emphasize direct funding that gets you 
all mired into hiring issues and go back to the original effort 
of emphasizing vouchers, tax credits. The third was pass 
charitable tax credits legislation. That is most important. And 
the fourth, I suggested the subcommittee could set up an e-mail 
address to field complaints from groups around the Nation about 
the kinds of barriers that they face so that we can really move 
and empower our organizations.
    Some of these groups, Mr. Cummings, that we support in your 
district, in Southwestern High School, we have just started an 
initiative in Baltimore that has put ex-offenders in there as 
hall monitors under a training program. These are faith-based 
people, and as a consequence, Southwestern High School is 
turning around. I testified before your city council, Sheila 
Dixon's committee last week. And we are going back to expand 
that effort in other Baltimore schools. Because we are judged 
by the amount of change we produced. Outcome oriented. And so I 
would like to share some of that with you and discuss that with 
you at another time, Mr. Cummings.
    Thank you for your time.
    [The prepared statement of Mr. Woodson follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.280
    
    [GRAPHIC] [TIFF OMITTED] 23829.281
    
    [GRAPHIC] [TIFF OMITTED] 23829.282
    
    [GRAPHIC] [TIFF OMITTED] 23829.283
    
    [GRAPHIC] [TIFF OMITTED] 23829.284
    
    [GRAPHIC] [TIFF OMITTED] 23829.285
    
    [GRAPHIC] [TIFF OMITTED] 23829.286
    
    [GRAPHIC] [TIFF OMITTED] 23829.287
    
    [GRAPHIC] [TIFF OMITTED] 23829.288
    
    [GRAPHIC] [TIFF OMITTED] 23829.289
    
    Mr. Souder. Thank you.
    Our next witness is Mr. Dennis Griffith, director of Teen 
Challenge in southern California. He has been accompanied here 
today and I would like to recognize them, by Jerry Nance, 
president and CEO of Teen Challenge of Florida-Georgia; Mike 
Hodges, senior executive director of Teen Challenge, National 
Pacific Northwest; Randy Rowe, executive director, Teen 
Challenge Northern California-Nevada; Rodney Hart, president, 
Teen Challenge New England; Rev. Manuel Barega, executive 
director, Teen Challenge Maryland; and Phil Cookes, director of 
Los Angeles County Teen Challenge.
    We welcome the members of your organization here at our 
hearing to watch the lovely business of Congress conducting 
debates. But it is very informative, and hopefully they have 
learned a lot as well. Thank you for your willingness to 
testify.

                  STATEMENT OF DENNIS GRIFFITH

    Mr. Griffith. Thank you, Mr. Chairman and distinguished 
members of the subcommittee.
    As executive director of Teen Challenge of southern 
California, I welcome this opportunity to discuss President 
George W. Bush's Faith-Based and Community Initiative and its 
effect on faith-based substance abuse recovery programs like 
Teen Challenge.
    Teen Challenge supports and greatly appreciates this 
administration's Faith-Based Initiative, but we continue to see 
barriers to faith-based programs such as ours. Congressman 
Green's legislative proposal affords an opportunity to discuss 
the role of the Office of Faith-Based and Community 
Initiatives.
    Let me start by saying that various elements of the Faith-
Based Initiative have been very helpful to Teen Challenge. 
President Bush, in fact, has publicly recognized Teen Challenge 
on numerous occasions, helping to raise the visibility of the 
organization. Some of the Teen Challenge chapter leaders have 
attended conferences organized by the White House Office and 
have benefited from those conferences.
    In addition, the White House Office and some of the agency 
offices have provided useful introductions and networking 
opportunities between Teen Challenge and various departments of 
the Government. We have also benefited by being involved in a 
meaningful dialog concerning the President's access to recovery 
initiative with SAMHSA and the State of California and others.
    The mission of Teen Challenge is to provide youth, adults 
and family with an effective and comprehensive faith-based 
solution to drug and alcohol addiction. Our objectives are to 
enable individuals to find freedom from addictive behavior and 
to become socially and emotionally healthy, physically well and 
spiritually alive. Through committed staff and effective 
programs, Teen Challenge strives to produce graduates who 
function responsibly and productively in society and who have 
healthy relationships in the workplace, family, church and 
community.
    Since its founding in 1958, our faith-based network has 
grown into the largest of its kind in the world. Teen Challenge 
now operates 185 centers here in the United States, and an 
additional 370 in 85 countries around the world. Teen Challenge 
has a well established track record and is recognized as one of 
the largest and most effective faith-based substance abuse 
prevention and recovery programs in the country. More than 
2,000 men and women graduate annually from our 1-year 
residential recovery programs just here in the United States.
    Anywhere from 20 percent to as much as 50 percent of the 
participants in the 1-year residential recovery program have 
been assigned to us by the courts. The fact that so many 
judges, probation and parole officers make referrals to Teen 
Challenge is just one indication of the recognized 
effectiveness of the Teen Challenge program.
    Throughout our history, Teen Challenge has contended that 
the fundamental reason for our success in helping people with 
life-controlling problems through our residential program, 
typically drug addiction, is because these individuals have had 
a spiritual transformation experience as an act of God's grace. 
This perspective produces a sense of dignity, self-worth, hope, 
and personal empowerment. This is the foundation and core of 
our residential program.
    Typically 1 year in length, it offers an environment of 
therapeutic support and spiritual formation. The program, into 
which entry has always been voluntary, requires discipline, 
responsible decisionmaking and accountability. Students 
participate in daily devotions, chapel, church services and 
outreach activities. These are essential elements for what we 
do and why we have been so successful. In addition, throughout 
the 1-year experience, students are equipped with functional 
tools, including job skills and vocational-technical training 
to assist them in re-entering society as productive and healthy 
people.
    As I mentioned, entrance into these programs is always 
voluntary, and each prospective student clearly understands the 
program's distinctiveness.
    Teen Challenge fully understands and recognizes that most 
of our residential programs will not be eligible for direct 
Government support. However, it is our understanding that the 
concept of indirect funding would allow individuals who qualify 
for certain entitlements, such as food stamps or access to 
recovery vouchers, to use these benefits in the institution of 
their choice.
    However, faith-based organizations like Teen Challenge are 
prevented from fully participating in these voucher programs 
because they cannot meet the State licensing or certification 
criteria. At present, only 5 percent of the 185 Teen Challenge 
centers are licensed by the State. The methods and strategies 
employed by Teen Challenge differ considerably from those of 
traditional clinical programs. As a result, Teen Challenge 
chapters, although effective, cannot meet licensing standards 
that only recognize traditional clinical programs.
    Because the vast majority of our chapters are not licensed, 
they face difficulties in qualifying for federally supported 
voucher programs. In addition, because these programs cannot 
obtain a license, they are often not recognized as a drug and 
alcohol program by Federal and State agencies. For example, the 
lack of recognition affects the ability of our program's 
participants to access even indirect benefits such as food 
stamps.
    For many years, Teen Challenge chapters in Texas and 
Massachusetts had been able to receive food stamps for their 
qualified participants. Recently, in Texas and Massachusetts, 
State agencies told Teen Challenge that the Federal Department 
of Agriculture required the licensing of all programs for 
eligibility purposes. Those Teen Challenge programs in Texas 
and Massachusetts were taken off the eligibility rolls to 
receive food stamps.
    In addition, licensing requirements and the resulting lack 
of recognition of programs like Teen Challenge have prevented 
us from fully participating in the access to recovery 
initiative.
    Clearly, certification standards appropriate for clinical 
or traditional treatment programs are not wholly adequate for 
their faith-based counterparts. A new category of residential 
recovery support programs would take into account the mission 
and method of faith-based recovery programs and would provide 
Teen Challenge equal access to recovery resources available to 
traditional treatment programs. Most importantly, it would 
offer those in need of addiction relief an equal choice between 
traditional approaches and faith-based recovery programs.
    In conclusion, I want to stress that we support the 
President's Faith-Based Initiative and desire that efforts 
related to the Initiative continue. Significant progress can 
still be made to help level the playing field and remove 
barriers.
    As you will be able to see, on an attached DVD, I enclosed 
a DVD with my written testimony, as you can see on the attached 
DVD, our country's leadership has been involved in faith-based 
programs for many years. These efforts should be a permanent 
part of our Government's effort.
    I applaud all the President's efforts to help those who 
hurt, even those who have made mistakes in life concerning 
drugs and alcohol. Each time the President mentions this topic, 
he lifts the spirits of recovering drug addicts and alcoholics 
across America, giving them hope and a sense of dignity and for 
that, I am eternally grateful.
    I also want to express my appreciation to Director Charles 
Curry of SAMHSA and John Walters with ONDCP and the members of 
the California Access to Recovery effort who have aided and 
welcomed faith-based organizations.
    Mr. Chairman and members of the subcommittee, thank you for 
this opportunity to appear before you today, and I would be 
happy to answer any questions at a later time.
    [The prepared statement of Mr. Griffith follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.290
    
    [GRAPHIC] [TIFF OMITTED] 23829.291
    
    [GRAPHIC] [TIFF OMITTED] 23829.292
    
    [GRAPHIC] [TIFF OMITTED] 23829.293
    
    [GRAPHIC] [TIFF OMITTED] 23829.294
    
    [GRAPHIC] [TIFF OMITTED] 23829.295
    
    [GRAPHIC] [TIFF OMITTED] 23829.296
    
    [GRAPHIC] [TIFF OMITTED] 23829.297
    
    [GRAPHIC] [TIFF OMITTED] 23829.298
    
    [GRAPHIC] [TIFF OMITTED] 23829.299
    
    [GRAPHIC] [TIFF OMITTED] 23829.300
    
    [GRAPHIC] [TIFF OMITTED] 23829.301
    
    [GRAPHIC] [TIFF OMITTED] 23829.302
    
    Mr. Souder. Thank you.
    Our next witness is Rabbi David Saperstein, director, 
Religious Action Center of Reform Judaism. Thank you for your 
patience in this long hearing today and for sticking around, 
and we look forward to your testimony.

              STATEMENT OF RABBI DAVID SAPERSTEIN

    Rabbi Saperstein. Thank you for your invitation and your 
attention to this important issue. I am deeply honored to be 
here with such a distinguished panel. I want to recognize my 
superb staff person, Eric Gold, who works on these issues, and 
my young son, Ari, who has attentively been listening to hours 
of testimony here.
    Mr. Chairman, we urge you not to pass at this time the 
legislation which would codify the President's Faith-Based 
Initiative through the formal creation of a permanent White 
House Office on Faith-Based and Community Initiatives. Now, the 
creation of an office designed and dedicated to helping 
Government find appropriate ways to partner with religious 
organizations to deliver social services resonates powerfully 
with our religious sensibilities.
    Thus, it is not for this reason we object to it but because 
of the actual history that you have discussed at length today 
and what the office does. So long as the centerpiece of this 
office is to get money directly to houses of worship, an 
endorsement of the office on the grounds that it does other 
good things would constitute endorsement of a Trojan horse, 
attractive on the outside, but support for a structure that 
will facilitate programs that violate the establishment clause, 
undercut good social services programs and infringe on the 
rights of beneficiaries.
    To be perfectly clear, we agree wholeheartedly with the 
President's oft-cited remark that Government cannot always put 
hope in people's heart the way that religion can, therefore it 
is not surprising that almost all of our Reform Jewish 
synagogues across America have wonderful social service 
programs. However, we strongly oppose the central component of 
the Faith-Based Initiative that would involve direct Government 
funding of our synagogues; indeed, of any of America's 
pervasively sectarian institutions. Insofar as this office 
seeks to codify this so-called charitable choice into law, it 
is bad for religion, bad public policy, unconstitutional and 
socially divisive. Other than that, we have no objections. 
[Laughter.]
    It is bad policy first because, with Government money comes 
Government rules, regulations, audits, monitoring, interference 
and control. Second, with Government money comes compromises in 
the religious mission of churches, synagogues and mosques in 
America. Reliance on Government funding creates the temptation 
to skew your program to attract the money and to mute the 
prophetic obligation of calling the Government to account.
    Further, when there are limits placed on religious activity 
in Government-funded programs as the Constitution demands, 
those churches committed to including such activities as 
essential to their programs--I just heard Dennis Griffith speak 
about the spiritual enhancement that is at the core of what 
they are about. Those churches either must compromise their 
mission in order to obtain the money or ignore the rules with 
potentially dire consequences to the beneficiaries of services 
and to the churches.
    Third, by opening up our Nation's limited funding for 
social services to potentially scores of thousands of houses of 
worship, let me remind you, there are 300,000 houses of worship 
in America. Let's assume only a small number, but some scores 
of thousands of them compete for this limited, shrinking pot 
that you discussed before.
    The result is going to be countless millions of dollars 
will be diverted and thus weaken what are widely regarded as 
the finest, most effective social service providers today, the 
superb, although albeit overwhelmed religiously affiliated 
social service providers, such as Catholic Charities, Jewish 
Federations, Lutheran Social Services, all of which abide by 
the vast majority of regulations applicable to other charities. 
Without a national commitment to substantial increases in 
funding, there is no guarantee that the Faith-Based Initiative 
will see one more needy person being helped.
    Fourth, Charitable Choice will lead to increased social 
divisiveness in America as different churches compete for 
Government money and endorsement. The prospect of intense 
competition for limited funding, the politicizing of church 
affairs to obtain funds, the impact on those made to feel that 
they are outsiders when they fail to obtain funds, all this 
sectarian competitiveness leads to the very kind of sectarian 
divisiveness that has plagued so many other nations and which 
we have been spared because of the separation of church and 
State.
    Fifth, such funding violates the religious rights of 
taxpayers. As Jefferson said, to compel a man to furnish 
contributions of money for the propagation of opinions which he 
disbelieves is sinful and tyrannical. This helps explain why so 
many religious leaders, on the left and the right, oppose the 
program.
    Now, there are a number of Constitutional concerns as well, 
here. First, in all the discussions of all the cases that you 
have heard here today, there is one central principle, one 
legal standard that must be kept in mind. The Supreme Court of 
the United States and the vast majority of lower courts have 
never upheld direct Government cash support for pervasively 
sectarian institutions. The Helms case, Mr. Chairman, that you 
referred to before, provided in-kind help. The busing cases 
provided services, but not direct payments.
    In the most recent case, the Helms case, the controlling 
concurring opinion of Justice O'Connor noted our concern with 
direct monetary aid is based on more than just concern about 
diversion of tax-funded aid to religious uses. In fact, the 
most important reason for according special treatment to direct 
money grants is that this form of aid falls precariously close 
to the original object of the Establishment Clause's 
prohibition.
    Second, the rights of beneficiaries would inevitably be 
infringed. In the real world, protecting beneficiaries will be 
difficult and I add, all but impossible. Look how integrated 
together in Teen Challenge and so many other wonderful programs 
is the secular and religious components of it. The notion that 
Government money will pay only for the secular parts and not 
for the religious parts integrated into that is almost 
impossible to monitor and to audit, but puts the beneficiary in 
a terrible situation.
    People who come to the many of these services come at 
moments of crisis in their lives. They have so few choices, 
they grasp at straws. The notion that they can truly make a 
voluntary decision, whether to abide by all the stipulations in 
a part of your wonderful program, Mr. Griffith, is just 
unrealistic in the real world.
    Third, churches and synagogues have rightly been exempted 
from many laws that would compromise their religious freedom, 
including the right to discriminate. We have two principles in 
tension: one, Government money should never be used to 
discriminate. We heard about that earlier. Second, if religious 
entities are to function with autonomy, they have to be able to 
hire people that subscribe to their beliefs. The way to balance 
them out is to say, protect those rights with private money, 
but if you want Government money, go after it only if you can 
provide secular services.
    And finally, much has been argued that all the proponents 
of this money want is a level playing field. Just treat 
religion like everything else. God forbid. The framers did not 
do that; they accorded religion special status, special 
protections; only religion has an Establishment Clause. We have 
all kinds of privileges, protections, exemptions. If those who 
are willing to sell their birthright for the porridge of 
Government money do so on the basis that all we want is to 
treat religion just like everything else, then some day the 
Government and everyone else will listen, and it will be a 
disaster for America.
    And it does not have to happen. There are better ways, and 
we heard about many of them, from Bob Woodson, from the 
chairman today, there are many Constitutional ways to achieve 
our goals, providing technical assistance, training programs 
for staff of all groups, best practice sharing, targeted 
research on how to improve programs, reducing and eliminating 
fees for small organizations, including churches and 
synagogues, to establish separately incorporated social service 
arms, to assist the poor with voucher programs for social 
service, providing better information to the public about 
available programs like you provide and encouraging charitable 
contributions through appropriate tax relief.
    Mr. Chairman, I would finally just suggest to you, what is 
the answer to your question about why the administration did 
not support your bill that as I listened to it, your proposed 
bill, as I listened to it I can imagine a wall to wall 
religious coalition getting behind? Even people who differ on 
many of the core issues here today?
    I think one reason you have to consider is that 
Representative Cummings might be right, that what is at stake 
is greater interest in delivering money to core constituents or 
potential supporters than it is about really helping the poor. 
If we are about helping the poor, then vouchers would have been 
at the core of this, then your suggestion would have been 
welcomed with open arms. With mutual respect and hard work, we 
can affirm religious liberty, even while we enhance the ability 
of religious institutions to provide social services.
    [The prepared statement of Rabbi Saperstein follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.303
    
    [GRAPHIC] [TIFF OMITTED] 23829.304
    
    [GRAPHIC] [TIFF OMITTED] 23829.305
    
    [GRAPHIC] [TIFF OMITTED] 23829.306
    
    [GRAPHIC] [TIFF OMITTED] 23829.307
    
    [GRAPHIC] [TIFF OMITTED] 23829.308
    
    [GRAPHIC] [TIFF OMITTED] 23829.309
    
    [GRAPHIC] [TIFF OMITTED] 23829.310
    
    [GRAPHIC] [TIFF OMITTED] 23829.311
    
    [GRAPHIC] [TIFF OMITTED] 23829.312
    
    Mr. Souder. Thank you for maintaining your enthusiasm on 
this long day. [Laughter.]
    Our last witness is Dr. C. Welton Gaddy, on behalf of the 
Interfaith Alliance. Thank you very much.

               STATEMENT OF REV. C. WELTON GADDY

    Rev. Gaddy. Thank you, Mr. Chairman, Ranking Member 
Cummings. Thank you for the opportunity to present testimony on 
behalf of the Interfaith Alliance. With a membership of over 
150,000 persons coming from 75 different faith traditions, the 
Interfaith Alliance is a non-partisan national grassroots 
organization dedicated to promoting the positive and healing 
role of religion in public life. Personally, in addition to 
serving as president of the Interfaith Alliance, I also serve 
as pastor for preaching and worship in Northminster Baptist 
Church in Monroe, LA.
    Now, why would a religious leader, a Christian pastor, not 
want Federal money to do social services? My opposition to the 
Faith-Based Initiative comes not out of a lack of concern for 
the increased number of people living in poverty, battling 
hunger, people without medical insurance, a proliferation of 
people with other overwhelming needs. Mr. Chairman, I am deeply 
moved by your transparent passion for helping poor and hurting 
people.
    My opposition to this program resides in a profound concern 
that the program as presently configured ultimately will hurt, 
not help, both the religious community and the civil community 
in their efforts to meet those needs and possibly impact 
adversely the people in need as well. Today I will only 
summarize and highlight a few of the specific reasons that I 
oppose the Faith-Based Initiative. Those reasons are elaborated 
at length in my written testimony submitted for the record.
    First, the Faith-Based Initiative incorrectly assumes that 
faith-based social service providers are superior in delivering 
services. The fact is that some faith-based social service 
agencies do a better job than their secular counterparts, and 
some don't. In my first year in seminary, when my seminary 
notes were stolen, I learned that people in religious 
institutions represent a cross-section of society just as do 
people in other institutions. [Laughter.]
    Second, the Faith-Based Initiative allows civil rights 
violations to be supported by taxpayers' money. Witness the 
dramatic deletion of civil rights guarantees in this year's 
version of the Workforce Investment Act.
    As a Baptist minister, I have always valued the 
Government's understanding that houses of worship need to 
employ ministers who are within their own religious tradition. 
But when houses of worship agree to become contract employees 
of the Federal Government, that changes. They change their 
nature, their identity, their ministry. As a patriot as well as 
a pastor, I want Federal money to go to organizations that are 
faithfully in compliance with civil rights laws. I would 
suggest that expectation also qualifies as an expression of 
good religion.
    Third, the Faith-Based Initiative endangers the integrity 
of religion, threatens to compromise the prophetic ministry of 
religion within our Nation and creates a possibility of harmful 
conflict, competition and division within the religious 
community of our Nation. With all due respect, I cannot help 
but observe that this hearing, in this, the most religiously 
pluralistic Nation in the world, has included language that has 
not reached beyond the religions of Judaism and Christianity. I 
fear the relevance of that reality to the distribution of 
charitable funding by persons looking intently at majority 
opinions related to electoral politics.
    Government-funded religion is as bad for religion as it is 
for the Constitution. In conclusion, let me say, I have many 
Constitutional concerns about this program. Those concerns are 
being articulated eloquently by many other people, David 
Saperstein being at the top of that list. But I speak to you 
today primarily focused not on what this program does to the 
Constitution of our religion, but what it does to the vitality 
and integrity of religion in our Nation. We are forgetting too 
easily the lessons of history. The institutions of Government 
need to stay out of the institutions of religion for the sake 
of religion.
    Authentic religion requires a context of freedom. Even the 
most avid evangelists know that religion can never be pushed 
down a person's throat and come out as authentic religion. 
Viewed from that perspective, the piece of legislation that 
prompted this hearing epitomizes the problem. It would impose a 
faith-based office on future administrations. Our Government 
has no more business legislating the imposition of a faith-
based office on future administrations than imposing religion 
on vulnerable persons through faith-based initiatives.
    In virtually every testimony given to this committee today, 
I have heard serious concerns about the manner in which the 
present program functions. Why then any insistence on 
perpetuating a program flawed to such an extent that it would 
be better for us to replace it than attempt to continue it? If 
Congress wants a special office in the White House to assure 
that our Presidents are constantly aware of the Nation's 
responsibility to care for the weakest, poorest and most 
hurting among us, the Interfaith Alliance will work with 
enthusiasm to support that initiative.
    But let me reiterate: we do not need a faith-based office 
in the White House. We have faith-based offices all over this 
Nation. And they are right where they belong; in synagogues and 
gudwaras and mosques and churches, in temples and in storefront 
ministry centers.
    Mr. Chairman, you began this hearing this afternoon--I 
think it was this afternoon--by asking how you could sustain 
this program. At the end of this hearing, personally, I don't 
think you can. But I don't believe you should.
    Thank you.
    [The prepared statement of Rev. Gaddy follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.313
    
    [GRAPHIC] [TIFF OMITTED] 23829.314
    
    [GRAPHIC] [TIFF OMITTED] 23829.315
    
    [GRAPHIC] [TIFF OMITTED] 23829.316
    
    [GRAPHIC] [TIFF OMITTED] 23829.317
    
    [GRAPHIC] [TIFF OMITTED] 23829.318
    
    [GRAPHIC] [TIFF OMITTED] 23829.319
    
    [GRAPHIC] [TIFF OMITTED] 23829.320
    
    [GRAPHIC] [TIFF OMITTED] 23829.321
    
    [GRAPHIC] [TIFF OMITTED] 23829.322
    
    [GRAPHIC] [TIFF OMITTED] 23829.323
    
    Mr. Souder. Thank you.
    I think one of the things that baffles a lot of us 
conservative Republicans, and particularly people of deep 
faith, particularly more whether it be orthodox Jewish, 
conservative Catholic or evangelical faith, is an exasperation 
at some of the tone of the criticism. Because basically, we 
were your natural alliance to try to help get more funds to 
address poverty. What you were asking us, but you have to 
include us at the table with these criteria.
    Basically what we are being told is, you are not welcome if 
you have these criteria. What you do is you push us with the 
free market conservatives who say, OK, go it on your own. And 
the bottom line, that is in effect what is happening in our 
country right now. Because we were not able to build a 
coalition to increase poverty funds with the condition that we 
would be able to take our faith to the table, there has been no 
increase in poverty funds.
    And as a practical matter, this is happening at every State 
level. It is much like when you go to a school bond issue, if 
you have the conservative predominantly Christians but would 
also include orthodox Jews, and for that matter conservative 
Muslims believing that faith is excluded, and you already have 
50 percent plus of the people who don't have their kids in the 
schools, if you divide the people who have their kids in the 
school and basically shut those of us out who are conservative 
but admittedly a minority of the Republican party, what you 
have is no new school bonds, no support for school funding.
    And if we can't figure out how we are going to address this 
and bring these two sides together, bottom line is, we will 
just continue in the path. It doesn't matter in our country 
right now whether you have a conservative Republican or a 
liberal Democrat, nobody is increasing Medicaid spending. 
Nobody is doing more for juvenile justice. Nobody is doing more 
in the different spendings, because in effect, you have cut out 
your natural allies, because of the approach.
    I understand why, because it is somewhat inherently 
contradictory. Quite frankly, I have deep concerns about the 
entanglement of Government. But let me ask Rabbi Saperstein a 
question here, because I thought I heard you say this, because 
it was a great list where you said that we could work together. 
Did you say that you would support the tax credits?
    Rabbi Saperstein. Yes. We would support either tax 
deductions that were targeted benefits for the poor or even tax 
credits. So I am very encouraged by hearing you suggest that.
    Mr. Souder. Reverend Gaddy, did you agree with that?
    Rev. Gaddy. Yes, in fact, I was struck with what Mr. 
Woodson said about expectations going into this program early 
on, and the fact that he had hoped the President would use the 
bully pulpit to rally support among businesses and corporations 
for this program and also to make tax adjustments that would 
encourage charitable giving. We affirm that wholeheartedly.
    Mr. Souder. Let me ask a tougher question, because I also 
thought I heard Rabbi Saperstein say vouchers. Now, Teen 
Challenge presents a very aggressive, problematic version of 
the vouchers. In other words, somebody has a voucher, and they 
are taking their voucher to an overtly religious organization, 
let's say in this case food stamps. Should they be able to use 
a food stamp voucher to pay for the food that the people are 
eating at the program?
    Rabbi Saperstein. It is an interesting question. We 
recognize that the court has recently upheld vouchers in fairly 
specific circumstances. We oppose that decision and we think it 
is bad public policy to use even indirect money allocated 
through vouchers to pervasively sectarian activity. But if you 
are talking about the secular parts of programs run by such 
institutions, we would probably lean toward doing it. It would 
depend on the specificity of the program, the specifics of the 
program.
    If the vouchers are going to be used the way they are in 
parochial schools, to support the teaching and proselytization 
and worship that is at the center of religious activity, we 
would probably oppose it on public policy grounds. If it were 
relegated simply to the secular components of this, we would be 
open to looking at that program, might possibly oppose it.
    My point to Mr. Woodson, who has always made this argument 
about vouchers being a better way of doing it is, if people 
want to avoid the Constitutional battle under the court's 
ruling there is a way to do it. And I have to ask, why isn't it 
happening? Why aren't people following what Mr. Woodson says?
    Mr. Woodson. Let me just say that this whole debate about 
vouchers took place back in 1943, as a preamble to the vote for 
the G.I. Bill of Rights, when the educational experts argued 
that to give money directly to G.Is. would create an 
intellectual hobo jungle out of higher education. And we 
debated it. And the Congress voted to trust the opinions of the 
American people to make informed, individual choices.
    As a consequence, the money went directly to the G.Is. And 
over the course of that program, we educated 500,000 rabbis, 
Baptist preachers, Catholic priests, because they chose to use 
their money to educate. So we need to go back and look at that 
history. So I have to challenge you a little bit about somehow, 
on the one hand you are supporting individual choice, but then 
you are going to go in and prescribe and discriminate and say, 
but you can't use it for religious education.
    We don't do this with Pell Grants. We don't say to kids who 
are poor, you can't use it at Catholic University, you can't 
use it at Southern Methodist. So I don't understand that.
    One other point about your barriers, about protection, 
Pastor Gaddy. I have to challenge you too, because the groups 
that I support, 2,000 of them in 39 States, they didn't want 
Government money, but Government was coming down on their case 
like in Texas. We had volunteers, they have these drop-in 
centers that our gang members consider sanctuary. And we lead 
people out of gangs.
    What is happening is that the local government and the 
State government is saying, because your volunteers are 
volunteers, they are technically employees of and therefore you 
must pay workmen's compensation. And because their cars are 
driven by them, not owned by the organization, you have to have 
a collective liability insurance. Insurance issues, and it is 
only done against these religious organizations.
    So the licensing, all of those, they do require some 
protection from the Government. We are not asking for direct 
money. But we are asking for protection. That's why there needs 
to be some entity out there to help to protect these groups 
from the intrusion of Government into their operations.
    And a final point is that we should stop using faith-based 
as synonymous with church. The devil has a church. But I think 
that there are a lot of faith-based organizations who are 
faith-based but are not churches. So I think that we need to 
honor that, too.
    But I really think we need to look more deeply, and I am 
really pleased that I think we have a consensus on this panel 
that at least the charitable tax credits are a good thing. I 
have found this to be true throughout the country and I can't 
understand why the administration has a tin ear to listen to 
the thousands of grassroots groups on the left and right of 
center. There is a consensus, but somehow they are ignoring 
this consensus.
    Mr. Souder. I want to kind of probe this voucher question 
just a little bit further, because it is always difficult, 
anything that says voucher panics everybody here, and I think 
Congressman Scott addressed part of that, and Mr. Woodson 
responded to some degree, and that is, do we actually trust 
people, are we going to have measurements, is it going to be 
too chaotic in the structure of the measurement system.
    But there is this fundamental question of, with a voucher, 
you get to take a higher ed Pell Grant or whatever to whatever 
college you want, that includes proselytization, Rabbi 
Saperstein, you could address that. But the second thing is, 
the court also said in effect, in recent rulings, regarding 
Catholic schools, that the bus does not proselytize. The 
simplest way to say it is they allowed computers and said the 
computers did not proselytize but a software could.
    Now, the question is, a food voucher does not proselytize 
either. In other words, a food stamp, what does that have to do 
with proselytizing, even under that question when you said you 
didn't believe food stamps should be used at a Teen Challenge? 
Because isn't that the same argument of yes, the bus and the 
computer still are vehicles with which people do go to an event 
where they get proselytized?
    Rabbi Saperstein. Of course, we oppose the decision that 
came down in Helms. We agreed with the dissenters there. The 
court has upheld, until this time, that, and has never 
overruled this, that pervasively sectarian entities, meaning 
houses of worship and parochial schools, and some proselyting 
missions, have religion so infused through the entirety of it 
that you can't break out the secular and the religious. The 
court has always been resistant about direct funding, even 
through the Helms case. Even Justice Thomas, writing for the 
four-person plurality acknowledged it would be different if it 
would be direct funding to the institution.
    So the court has always been hesitant about doing this. The 
term ``faith-based organization'' is a broad term. I couldn't 
agree more with Mr. Woodson than he me, that is not our doing. 
That is the President's doing. Over and over again he would 
say, we have got to get money to faith-based organizations, 
then he would turn around and say, like Catholic Charities. 
Well, Catholic Charities gets money. There are all kinds of 
religious groups now getting money.
    It is the limited category of the pervasive sectarian 
entities that we have to look at differently that raise special 
problems. So in light of the court's decision, we for instance 
have always upheld, you want to take your Medicare benefits, go 
to a religious hospital, you have the right to do that. Same 
kind of logic.
    But the courts, in dealing with children, have always dealt 
differently than with adults. Children are more impressionable 
than adults, harder for prayer in the school, always different 
than prayer in this chamber, because you can see the difference 
of Government sponsorship. You can decide to leave, you are not 
compelled to be there. And educational settings are different 
than other kinds of settings.
    Well, some of these social service programs, their strength 
lies in the fact that they are almost teaching, inculcating 
kinds of things. I think that is one of the foundations of the 
success of Teen Challenge. Hard to differentiate, is it pure 
social service or educational or a mix or both? Is it secular 
or religious, a mix of both? Vouchers in those situations are 
right on the cusp.
    We are willing to take a look at that, much prefer it to 
direct funding. Because you don't have the same problem about 
Government intrusions, audits, monitoring, interference. You 
don't have the same problems here about tax dollars going by 
the Government's choice to pervasively sectarian entities, etc.
    So we would be willing to look at it, but it is right on 
the cusp and problematic. We have not reached a decision. But 
certainly far better to do that than direct grants.
    Mr. Souder. And I have said during our many debates on the 
faith-based, I believe direct funding prohibits proselytizing. 
I believe the court has already ruled. I believe that is a 
modern ruling, because in the old days, even the King James 
Bible was printed twice with Library of Congress stamped on it, 
and it is an avowed ruling. But it is a law of the land in that 
only indirect funding is at debate here, and how we work out 
the indirect funding and what constitutes indirect funding is 
really what we are trying to work through.
    Let me yield to Mr. Cummings.
    Mr. Cummings. First of all, I want to thank all of you for 
being here, and thank you for your testimony. I was just 
thinking about something that you said, Reverend Gaddy, that 
was very--it does not, we don't hear a lot about it, this whole 
issue of the damage that some of this may do to religion 
itself. It is a very, very powerful argument.
    I was talking to my pastor, Dr. Walter Thomas. He was 
talking about how the church, he felt that the church, it is a 
Baptist church, but he felt that the church had to have a 
certain level of independence, so that no matter who is in 
politics, that the church could still speak up with integrity, 
without fear.
    I heard what you said, Mr. Woodson, that all faith-based is 
not necessarily a church. But I want to just put it in this 
context, because you know, the church has, the church, I think, 
when it stands as the independent entity, and when I say 
church, I am talking about very broadly, they have a way of 
sort of policing--I hate to say morality, because morality is 
relative. But the church has a way, with independence, to 
maintain a certain level of integrity. And I think that is what 
you were getting at. Correct me if I am wrong.
    But the reason why it is such a powerful concept is because 
you want, you would hope that there would be something, some 
institution that would be able to honestly say, look, there is 
something wrong with this, and that it not be judged from the 
standpoint that, well, are they agreeing because of this or 
that? Do they get some money?
    And I just think that is something, that is an argument 
that you do not hear a lot. I don't see how you could even have 
this discussion, to fully deal with this discussion, without 
bringing that up. And I thank you for doing that.
    Rev. Gaddy. May I respond briefly?
    Mr. Cummings. Yes.
    Rev. Gaddy. Mr. Cummings, I think we have to look carefully 
at the way in which religion has best impacted this Nation 
through its history. And I would suggest to you that its best 
contribution to the whole American experience has been calling 
this Nation to fulfill its highest and best vision of how 
people ought to treat each other. It was behind that movement 
in the Civil Rights battle, it was behind that movement in 
issues of war and peace.
    And my concern is, in relation to the subject here, that if 
the granting of funds is politicized, like we have politicized 
almost everything else, we are going to compromise the 
integrity of religion. Because here is what is at stake. People 
who are opposed to this particular legislation are just as 
compassionate about helping poor people and drug addicts as 
everybody else. We want to do it, but we want to do it the 
right way.
    If you are out there in one of those storefront churches, 
or you are in a temple in the midst of a bad neighborhood and 
you are wanting to help, and you know there is a possibility 
that you could get some funding coming from the Faith-Based 
Initiative, say, and yet you want to raise a moral challenge to 
the politicians in your district or to the President of the 
United States, so intense is that compassion you are going to 
think twice before you do it. Because you are going to say, I 
do not want to speak truth to power if speaking truth to power 
may cost me money that I can use to help that family down the 
street that I know. We should not put religion in that bind.
    And if we compromise the integrity of religion and its 
ability to speak truth to power, we will bemoan the day we did 
it.
    Mr. Cummings. Rabbi Saperstein.
    Rabbi Saperstein. I would just add that at the core, 
Representative Cummings, of your observation, is the fact that 
some critics of the Establishment Clause, as interpreted by the 
Supreme Court, have foisted a myth on America that somehow 
separation of church and State is anti-God or anti-religion. 
Nothing could be further from the truth.
    It is that wall that has kept Government out of religion, 
that has allowed religion to flourish with the diversity and 
strength in American unmatched anywhere in the democratic 
world, including every country that has a government-sponsored, 
government-preferred, government-established, government-
supported religion. Far more people going regularly to worship, 
far, far more people believing in God and holding religious 
values central to their lives in America.
    The autonomy of religion is protected by a strong wall 
separating church and State. In pursuit of money to tear down 
that wall would welcome Government into the life, the central 
life of the religious communities of America. It would be a 
disastrous change from that which has made America great for 
religion.
    Mr. Cummings. I was telling some of my staff members that I 
think religion is very, very, very important. Whatever your 
religion is, assuming that it is for the greater good of 
society, I don't mean some cultist out to destroy the world or 
something, to destroy people. Because I think what it does is 
it gives people some kind of a sense that there is something 
greater than they are. I think.
    And I don't know all the religions, but I know a few, being 
a son of two preachers. I guess I am just trying to figure out, 
going to what you just said, Rabbi, do we throw the baby, just 
throw everything out because it is the money and lose all of 
those wonderful things? The thing that I was glad to hear that 
you said, Reverend Gaddy, is that you want us to respect all 
the religions, which is important. Because a lot of people, 
these arguments are made, but if somebody came up and said, OK, 
I am a Buddhist, I want some money, or I am a Muslim, then I do 
not know whether everybody would be as tolerant of that.
    Are you following me? One of you all made the implication, 
somebody said something about Christianity and Judaism and how, 
when you get beyond that, what happens. It is just like right 
now, we are having a debate, and I will close out with this, a 
debate in Maryland about whether schools should be closed for 
Muslims.
    So our board in Baltimore County decided no, it should not 
happen. So you wonder, at what point, I mean, we have to be 
careful, we have to make sure that we do everything in our 
power, I think, to maintain that moral high ground. The moral 
high ground, I guess, is best, has a better chance of existing 
if you do have some independence, like you all have been 
saying.
    Mr. Woodson. Mr. Cummings.
    Mr. Cummings. Yes, sir, Mr. Woodson.
    Mr. Woodson. If I may, just a comment on that. I think that 
the danger from some of my constituents is that not only 
separation of church and State, but making the State hostile to 
religion. To the point, my wife is a teacher in Montgomery 
County, and she is not permitted to even say, peace on Earth. 
In Pittsburgh, in the hill district, one of the most violence-
prone areas, because a group wanted to have Bible study for 
some kids that everybody is neglecting, and we used a public 
school that was empty all summer, we get suits filed against us 
from the ACLU and others, saying separation of church and 
State.
    But the ACLU and all these other groups are going to come 
down there and provide an alternative service for those kids. 
All they are concerned about is going back to their suburban 
homes and saying, well, we have protected the Constitution. 
What about protecting those kids?
    So I don't think there has to be a tradeoff on this. But I 
really think that we ought to be very careful when we walk down 
that road, to make sure that we are not throwing the baby out 
with the wash, in this case not making the State hostile to 
religion. There are a lot of hostile actions that are taken in 
our low-income communities. Every time our groups want to do 
something to help a population of people that everybody has 
abandoned, the only time they hear from some of these groups is 
when they are in opposition to something that smells of 
separation of church and State.
    Rabbi Saperstein. Except in point of fact, there is an 
answer to that, which is working together, we can actually 
defuse those problems. Let me remind the committee that when 
there were disputes on the issue of what was allowed 
religiously in the schools, an extraordinary coalition of 
groups, from the right to the left, Christian Legal Society 
over to the American Jewish Congress and the other Jewish 
organizations, the Baptist Joint Committee and others, all got 
together left to right to write guidelines that were then 
disseminated by the Department of Education in both 
administrations affirming what was allowed. Because there would 
be the folks who were so scared about separation of church and 
State they would do silly things that clearly are allowed under 
the law.
    The way to deal with that is education. There is actually a 
robust amount of religious expression that is allowed. But 
don't solve the problem by going overboard in the other 
direction. Therefore, I am particularly concerned about the 
administration acting on its own. I think it was Representative 
Green who said, all we want to do is codify the existing law. 
Whose law? This Congress did not act. That is why the 
administration moved by Executive order to do it.
    You have not reviewed this, you have not set down the 
guidelines that you would set down if you were implementing and 
developing such a program about it. The courts have not ruled 
on those issues. None of these things have yet made it up 
through the courts. It is not codifying. This bill that is 
before you is not codifying anything other than the 
administration's take on what politically it thinks will be 
helpful for it and we have heard criticism from the left and 
the right on that. That is one of the reasons we are urging you 
not to pass this bill.
    Mr. Cummings. As I close, let me just say this. As all of 
you were talking, I was just saying, I am so grateful that we 
have the freedoms that we have and that we have the 
independence that we have, so that you could even feel free to 
come here and feel comfortable to say what you just said.
    Rev. Gaddy. That's right.
    Mr. Cummings. I think we have to really be very careful 
that we guard those freedoms.
    But thank you all very much for what you all do, for 
touching so many lives in so many ways. I am sure sometimes you 
feel like it is kind of a thankless job, I know. But the fact 
is that you are making a difference, not only for the people 
that you touch every day, but for generations yet unborn. Thank 
you.
    Mr. Souder. I want to conclude with a couple of comments. 
First, clearly if you do religious freedom, it includes 
everybody, it includes Muslims, it includes Buddhists, and the 
Religions Freedom in the Workplace Act that I have, these 
bills, a lot of evangelicals don't understand that. And their 
support might be less enthusiastic if they understood it.
    But basically what's good for one is good for all. The 
question is, you are either for it or you are against it. But 
it does include all religions, even though overwhelmingly this 
is a Christian Nation, even with the influx of minority groups. 
The fact is that even among Christians, there are many 
different divisions. I come from an Anabaptist background, and 
was persecuted by everybody. [Laughter.]
    So we tend to be skeptical of the State.
    We also have a real fundamental problem with the private 
sector funders that Mr. Woodson addressed, because the 
Government funding has become a Good Housekeeping seal. Part of 
the reason that groups want it, because the foundations just 
say, well, if you don't get Government funds, then you don't 
deserve it. We do not have time to audit you, what weight do 
you have.
    So we have to find, and it may be through these 
intermediary institutions that we develop a Government 
certified audit, if we can't get them direct funding, that says 
this group is behaving up to certain standards. Because the big 
money is in the private sector, not in the public sector right 
now. And yet these groups aren't there, aren't getting the 
private sector, because they are hanging it on the Government. 
And the same groups get the Government funds.
    So what we have seen in the private foundations also, but 
in the private service sector, is that you are getting bigger, 
large boards. And the fundamental thing that drove this 
project, and it has been extremely exasperating to many of us 
that are involved in this, is when Mr. Woodson said, go out 
there and meet these individual people, what you see are very 
small, effective groups working from 5 p.m. to 5 a.m, on very 
little budget with no health care, with nothing else. The 
question is, how do we get them dollars?
    Quite frankly, one of the things we did not mention in the 
tax thing is you have to have non-itemizers being able to do 
it, that's why the credit works as well. We have to figure out 
how to get dollars there.
    But even so, without supplemental or private dollars, the 
question is, these groups, everybody believes, are effective. 
They are working the neighborhoods. How do we monitor them is 
one challenge. And the second thing is, how do we get them 
dollars. It was very easy then to look at the Federal dollars 
and if I can--but that has been one of the challenges.
    It is really frustrating, because yes, this has gone 
political. Quite frankly, part of the reason it went political 
is because we can't sell it unless we can show some Republicans 
a political advantage to it, because it's not our base. If this 
was designed to win the Black vote, it was sure a miserable 
failure. I happen to believe it was designed for altruistic 
motives. I also think we might want to change it to community 
and faith-based. But if we don't institutionalize it, and 
community-based organizations have always had a high percentage 
of faith-based in it.
    But let me point out, if we don't do this bill, it doesn't 
change the fact about the way it is going to function. Your 
points about the law, you may argue with the substance parts of 
the bill. The fact is, the administration opposes this bill. 
They don't want to report to Congress with it. They don't want 
to have legislative descriptions of the language. And they can 
do whatever they please under the current thing.
    So unless we do a bill, there will be no regulation of a 
faith-based office. So I do not understand the opposition to 
the bill. You may be opposed to components of the bill. But to 
say you are opposed to the bill means you believe they ought to 
do whatever they want.
    Part of this is a difficult challenge for how we work. I 
want to insert at this point in the record the full Points of 
Light movement statement that Mr. Petersmeyer wrote and the 
President's report to the Nation. Because part of the reason we 
had him first in this panel is I believe if you look deeply, 
beyond what political people may have seen out of the current 
President Bush, that he's actually very reflecting of his 
father that was a deeper type of concern for service.
    [Note.--The Points of Light report may be found in 
subcommittee files.]
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.324
    
    [GRAPHIC] [TIFF OMITTED] 23829.325
    
    [GRAPHIC] [TIFF OMITTED] 23829.326
    
    [GRAPHIC] [TIFF OMITTED] 23829.327
    
    [GRAPHIC] [TIFF OMITTED] 23829.328
    
    Mr. Souder. And Mr. Petersmeyer, you told me a story about 
why you went to the daily Points of Light, and how hard it is 
to battle for these kinds of issues in the White House. I 
wonder if you would share that here, because it gives us a 
perspective that this is not a new battle. What you described 
I'm sure goes on every day there, it goes on in every one of 
our offices. I may have a real heart for this, but then 
insurance reps come in from the insurance industry and doctors 
come in and different industries come into my office that can 
be regulated or put out of business by it. And huge, billions 
of dollars at stake. And your schedule gets pushed around.
    How did you address this? Shed light, so to speak, on the 
problem that we are facing.
    Mr. Petersmeyer. Thank you.
    Well, I told you the story of the frustration in the early 
months of the Presidency that I felt, this was back in 1989, 
where I, as I said in my testimony, I knew President Bush well. 
I knew that he felt deeply that it was very important for us to 
actually solve these most serious social problems, and that he 
believed, as I did, that the only way that was going to happen 
was if we substantially increase the volume of people engaged, 
whether it is through churches or other faith-based groups or 
secular groups.
    The challenge was that within the White House, there is 
tremendous crowding out that occurs on the President's daily 
schedule. Unless something is a big problem or seems to have a 
big payoff, it is very, very hard to maintain the leadership 
attention within the White House for anything that's beyond the 
next news cycle. I felt as did one or two other people, that 
even though he had started his Presidency by creating this 
office, as I said, the only structural change made, created a 
role for an assistant, that the bureaucracy of the West Wing 
was going to crowd out, even with the President of the United 
States' own best instincts and desires were.
    So I realized, to put it in kind of graphic terms, that 
this issue would never be the most important issue of the day 
for him when he came to work, because of the crush of other 
things. But that we needed to find a way to have this seem to 
be important to his Presidency every day. I thought there was 
great integrity in that, because I knew personally this is what 
he wanted to do.
    So we proposed what was quite a radical idea at the time, 
which was to name someone in the country every single day who 
was doing extraordinary work and who would lead by example. 
There was tremendous difficulty in getting approval of that 
idea within the White House, because of course people there are 
jealous of the President's time or distraction from their 
issue. And everybody around the Cabinet wants to be the most 
important person in the Government second to the President.
    And it was clear that there were risks associated with 
this. What if we picked a pedophile on the third day? We pick 
somebody who we think is doing good work and then we learn that 
there is tremendous problems?
    Well, we got it approved, and there was a good bit of blood 
on the carpet about it. I held my breath, as I told you, those 
first few weeks, that we would inadvertently choose somebody 
that would allow people to say, see, I told you, and yank it. 
We did run into one problem, there was a Point of Light that we 
named--and by the way, Marian Wright Edelman and I were sitting 
next to each other about a year into this process, and we were 
naming five a week, and eventually moved to six a week. She was 
no friend of President Bush's as you know.
    But she said, I don't know how you're doing it, but you're 
naming the right people. And they are all the kinds of people 
we have been talking about here. David knows this and others. 
They came over the transom and whatever.
    But I think that over time, people began to see that, and 
this was of no interest in Washington, by the way, the White 
House press corps couldn't have cared less. But in communities, 
this was important. We found that every individual who was 
named generated four or five little stories in their own 
community, radio interviews and whatever, because it seemed 
that not just the President was thanking them, but that the 
Nation was thanking them for what they were doing.
    My testimony has been quite different in character from the 
others in this, because I don't really, I'm not knowledgeable 
on the issues around the faith-based component of what you are 
talking about. But I do think that there was a mistake in 
naming the office the Faith-Based and Community Initiatives. I 
think they should have reversed it.
    I think all of this attention around faith-based and the 
relationship between the Government is missing the point that I 
tried to make in my testimony, which is that we must find a way 
as a people, as a Nation, to solve these serious social 
problems in communities. We must find a way to get more and 
more people feeling that they can make a difference in their 
own back yards.
    The more we lose time where the debate is, I would argue, 
about a tactic, it is about a tactic, one subset of one issue, 
and lose the opportunity to talk about the need to aspire to a 
handful of national goals, or the talk the President gave in 
June 1991, which I would like to have be put in the record, 
which was June 12, 1992, where he talked about what it means in 
America to have communities that are whole and good.
    And he said, there are three engines that we have always 
relied on in this country to build our Nation of communities. 
One is an economy that is growing. And that is a terribly 
powerful engine. Another is the work of Government. The final 
is the work of non-profit and private organizations. He said, 
we must find a way for all three of these engines to move us 
forward as a Nation, because not a single engine can do it 
alone.
    To me the great opportunity around, just in closing, around 
the White House office that drew me to this testimony is really 
not so much about the need for a faith-based piece as there is 
a need for a national strategy that only the President of the 
United States can lead, that calls people to be about this kind 
of work. I believe that we will not get where we need to get as 
a Nation unless the President of the United States, and 
frankly, several Presidents back to back, pound away 
relentlessly in the need for every American and every 
organization in America to claim some of these problems as 
their own. There is no other solution.
    So I commend you, chairman, for your faithfulness to this 
idea, and I just hope that if there is a bill, that much of 
what we have talked about today is really not so much the point 
as it is to have the President be encouraged permanently to be 
of the work of leading communities. Because we are a Nation of 
communities, and we need that kind of help. Because we can't 
get it from anywhere else.
    Thank you very much.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 23829.329
    
    [GRAPHIC] [TIFF OMITTED] 23829.330
    
    [GRAPHIC] [TIFF OMITTED] 23829.331
    
    [GRAPHIC] [TIFF OMITTED] 23829.332
    
    [GRAPHIC] [TIFF OMITTED] 23829.333
    
    [GRAPHIC] [TIFF OMITTED] 23829.334
    
    Mr. Souder. I think I am going to let that be the 
conclusion. I appreciate all your testimony today. If you have 
any additional things you want to submit into the record, this 
will be a strong record of the debate and where I think we can 
find compromises to move ahead.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 8 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. C.A. Dutch Ruppersberger 
and additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] 23829.335

[GRAPHIC] [TIFF OMITTED] 23829.336

[GRAPHIC] [TIFF OMITTED] 23829.337

[GRAPHIC] [TIFF OMITTED] 23829.338

[GRAPHIC] [TIFF OMITTED] 23829.339

[GRAPHIC] [TIFF OMITTED] 23829.340

[GRAPHIC] [TIFF OMITTED] 23829.341

[GRAPHIC] [TIFF OMITTED] 23829.342

[GRAPHIC] [TIFF OMITTED] 23829.343

[GRAPHIC] [TIFF OMITTED] 23829.344

[GRAPHIC] [TIFF OMITTED] 23829.345

[GRAPHIC] [TIFF OMITTED] 23829.346

[GRAPHIC] [TIFF OMITTED] 23829.347

[GRAPHIC] [TIFF OMITTED] 23829.348

[GRAPHIC] [TIFF OMITTED] 23829.349

[GRAPHIC] [TIFF OMITTED] 23829.350

[GRAPHIC] [TIFF OMITTED] 23829.351

[GRAPHIC] [TIFF OMITTED] 23829.352

[GRAPHIC] [TIFF OMITTED] 23829.353

[GRAPHIC] [TIFF OMITTED] 23829.354

[GRAPHIC] [TIFF OMITTED] 23829.355

[GRAPHIC] [TIFF OMITTED] 23829.356

[GRAPHIC] [TIFF OMITTED] 23829.357

[GRAPHIC] [TIFF OMITTED] 23829.358

[GRAPHIC] [TIFF OMITTED] 23829.359

[GRAPHIC] [TIFF OMITTED] 23829.360

[GRAPHIC] [TIFF OMITTED] 23829.361

[GRAPHIC] [TIFF OMITTED] 23829.362

[GRAPHIC] [TIFF OMITTED] 23829.363

[GRAPHIC] [TIFF OMITTED] 23829.364

[GRAPHIC] [TIFF OMITTED] 23829.365

[GRAPHIC] [TIFF OMITTED] 23829.366

[GRAPHIC] [TIFF OMITTED] 23829.367

[GRAPHIC] [TIFF OMITTED] 23829.368

[GRAPHIC] [TIFF OMITTED] 23829.369

[GRAPHIC] [TIFF OMITTED] 23829.370

[GRAPHIC] [TIFF OMITTED] 23829.371

[GRAPHIC] [TIFF OMITTED] 23829.372

[GRAPHIC] [TIFF OMITTED] 23829.373

[GRAPHIC] [TIFF OMITTED] 23829.374

[GRAPHIC] [TIFF OMITTED] 23829.375

[GRAPHIC] [TIFF OMITTED] 23829.376

[GRAPHIC] [TIFF OMITTED] 23829.377

[GRAPHIC] [TIFF OMITTED] 23829.378

[GRAPHIC] [TIFF OMITTED] 23829.379

[GRAPHIC] [TIFF OMITTED] 23829.380

[GRAPHIC] [TIFF OMITTED] 23829.381

[GRAPHIC] [TIFF OMITTED] 23829.382

[GRAPHIC] [TIFF OMITTED] 23829.383

[GRAPHIC] [TIFF OMITTED] 23829.384

[GRAPHIC] [TIFF OMITTED] 23829.385

[GRAPHIC] [TIFF OMITTED] 23829.386

[GRAPHIC] [TIFF OMITTED] 23829.387

[GRAPHIC] [TIFF OMITTED] 23829.388

[GRAPHIC] [TIFF OMITTED] 23829.389

[GRAPHIC] [TIFF OMITTED] 23829.390

[GRAPHIC] [TIFF OMITTED] 23829.391

[GRAPHIC] [TIFF OMITTED] 23829.392

[GRAPHIC] [TIFF OMITTED] 23829.393

[GRAPHIC] [TIFF OMITTED] 23829.394

[GRAPHIC] [TIFF OMITTED] 23829.395

[GRAPHIC] [TIFF OMITTED] 23829.396

[GRAPHIC] [TIFF OMITTED] 23829.397

[GRAPHIC] [TIFF OMITTED] 23829.398

[GRAPHIC] [TIFF OMITTED] 23829.399

[GRAPHIC] [TIFF OMITTED] 23829.400

[GRAPHIC] [TIFF OMITTED] 23829.401

[GRAPHIC] [TIFF OMITTED] 23829.402

[GRAPHIC] [TIFF OMITTED] 23829.403

[GRAPHIC] [TIFF OMITTED] 23829.404

[GRAPHIC] [TIFF OMITTED] 23829.405

[GRAPHIC] [TIFF OMITTED] 23829.406

[GRAPHIC] [TIFF OMITTED] 23829.407

[GRAPHIC] [TIFF OMITTED] 23829.408

[GRAPHIC] [TIFF OMITTED] 23829.409

[GRAPHIC] [TIFF OMITTED] 23829.410

[GRAPHIC] [TIFF OMITTED] 23829.411

[GRAPHIC] [TIFF OMITTED] 23829.412

[GRAPHIC] [TIFF OMITTED] 23829.413

[GRAPHIC] [TIFF OMITTED] 23829.414

[GRAPHIC] [TIFF OMITTED] 23829.415

[GRAPHIC] [TIFF OMITTED] 23829.416

[GRAPHIC] [TIFF OMITTED] 23829.417

[GRAPHIC] [TIFF OMITTED] 23829.418

[GRAPHIC] [TIFF OMITTED] 23829.419

[GRAPHIC] [TIFF OMITTED] 23829.420

[GRAPHIC] [TIFF OMITTED] 23829.421

[GRAPHIC] [TIFF OMITTED] 23829.422

[GRAPHIC] [TIFF OMITTED] 23829.423

[GRAPHIC] [TIFF OMITTED] 23829.424

[GRAPHIC] [TIFF OMITTED] 23829.425

[GRAPHIC] [TIFF OMITTED] 23829.426

[GRAPHIC] [TIFF OMITTED] 23829.427

[GRAPHIC] [TIFF OMITTED] 23829.428

                                 <all>

</pre></body></html>
